<html>
<title> - EXAMINING EXECUTIVE ORDER #13607 AND ITS IMPACT ON SCHOOLS AND VETERANS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




EXAMINING EXECUTIVE ORDER #13607 AND ITS IMPACT ON SCHOOLS AND VETERANS

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, MAY 16, 2012

                               __________

                           Serial No. 112-62

                               __________

       Printed for the use of the Committee on Veterans' Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-588                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                 MARLIN A. STUTZMAN, Indiana, Chairman

GUS M. BILIRAKIS, Florida            BRUCE L. BRALEY, Iowa, Ranking
BILL JOHNSON, Ohio                   LINDA T. SANCHEZ, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
MARK E. AMODEI, Nevada

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.












                            C O N T E N T S

                               __________

                              May 16, 2012

                                                                   Page

Examining Executive Order #13607 And Its Impact On Schools And 
  Veterans.......................................................     1

                           OPENING STATEMENTS

Chairman Marlin A. Stutzman......................................     1
    Prepared Statement of Chairman Stutzman......................    47
Hon. Bruce L. Braley, Ranking Democratic Member..................     2
    Prepared Statement of B. Braley..............................    47

                               WITNESSES

Mr. Joe Wynn, Special Advisor, Vietnam Veterans of America (VVA).     4
    Prepared Statement of Mr. Wynn...............................    48
    Executive Summary of Mr. Wynn................................    51
Mr. Ryan M. Gallucci, Deputy Director, National Legislative 
  Service, Veterans of Foreign Wars of the United States (VFW)...     6
    Prepared Statement of Mr. Gallucci...........................    52
Mr. Tom Tarantino, Deputy Policy Director, Iraq and Afghanistan 
  Veterans of America (IAVA).....................................     8
    Prepared Statement of Mr. Tarantino..........................    56
Mr. Michael Dakduk, Executive Director, Student Veterans America 
  (SVA)..........................................................    10
    Prepared Statement of Mr. Dakduk.............................    60
    Executive Summary of Mr. Dakduk..............................    63
Ms. Judith Flink, Executive Director, University Student 
  Financial Services and Cashier Operations, University of 
  Illinois, On Behalf of National Association of College and 
  University Business Officers (NACUBO)..........................    16
    Prepared Statement of Ms. Flink..............................    64
    Executive Summary of Ms. Flink...............................    67
Hon. Steve Gunderson, President and CEO, Association of Private 
  Sector Colleges and Universities (APSCU).......................    18
    Prepared Statement of Mr. Gunderson..........................    67
Ms. Margaret Baechtold, Director, Veterans Support Services, 
  Indiana University--Bloomington, IN, On Behalf of National 
  Association of Veteran Program Administrators (NAVPA)..........    19
    Prepared Statement of Ms. Baechtold..........................    74
    Executive Summary of Ms. Baechtold...........................    75
Mr. Barmak Nassirian, Associate Executive Director, American 
  Association of Collegiate Registrars and Admissions Officers 
  (AACRAO).......................................................    21
    Prepared Statement of Mr. Nassirian..........................    76
Dr. Jonathan C. Gibralter, PhD., President, Frostburg State 
  University, On Behalf of American Association of State Colleges 
  and Universities (AASCU).......................................    23
    Prepared Statement of Dr. Gibralter..........................    79
    Executive Summary of Dr. Gibralter...........................    83
Mr. Chad C. Schatz, Director, Veterans' Education and Training 
  Section, Missouri State Department of Elementary & Secondary 
  Education......................................................    33
    Prepared Statement of Mr. Schatz.............................    83
    Accompanied by:

      Mr. Skip Gebhart, Administrator, Office of Veterans 
          Education and Training Programs, West Virginia Higher 
          Education Policy Commission, On Behalf of The National 
          Association of State Approving Agencies (NASAA)
MG Robert M. Worley II USAF (Ret.), Director, Education Service, 
  Veterans Benefit Administration, U.S. Department of Veterans 
  Affairs........................................................    35
    Prepared Statement of MG Worley..............................    88

                       STATEMENTS FOR THE RECORD

Ms. Jennifer L. Steele, The RAND Corporation.....................    89
Mr. Steve L. Gonzalez, Assistant Director, National Economic 
  Commission, The American Legion................................    95
Mr. Theodore (Ted) L. Daywalt, CEO and President, VetJobs........    96
Mr. Patrick Bellon, MPA, Executive Director, Veterans for Common 
  Sense..........................................................    98
Ms. Heather L. Ansley, Esq., MSW, Vice President of Veterans 
  Policy, VetsFirst..............................................    99
The Paralyzed Veterans of America................................   100
The Military Officers Association of America.....................   101

 
EXAMINING EXECUTIVE ORDER #13607 AND ITS IMPACT ON SCHOOLS AND VETERANS

                        Wednesday, May 16, 2012

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:06 p.m., in 
Room 334, Cannon House Office Building, Hon. Marlin A. Stutzman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Stutzman, Johnson, Huelskamp, 
Braley and Walz.

        OPENING STATEMENT OF CHAIRMAN MARLIN A. STUTZMAN

    Mr. Stutzman. Good afternoon, everyone. If you could please 
take your seats and we are going to go ahead and get started. 
We are going to have votes probably within the next hour or so, 
so I think we will go ahead and start the Committee hearing.
    I want to welcome everybody to the Subcommittee on Economic 
Opportunity, to our Oversight Hearing and we will be examining 
the Executive Order 13607 and its impact on schools and 
veterans.
    As you all likely know, there has been considerable 
discussion on the other side of Capitol Hill and in the press 
about instances of questionable practices by schools, as well 
as the need to increase transparency to the operations of 
colleges and universities.
    President Obama recently issued an Executive Order 
directing VA, the Department of Education and DoD to take steps 
to improve the information and services available to veterans 
and to police the college education market.
    We are here today to listen to the stakeholders involved in 
veteran education and I am eager to hear from them regarding 
the possible effects of the President's Order. I would note 
that the Executive Order contains some elements in legislation 
we considered in our March legislative hearing introduced by 
Mr. Bilirakis and myself, as well as many other items.
    For myself, I am open to things that will add to a 
veteran's ability to make informed choices while not 
reinventing the wheel.
    For example, the Department of Education's College 
Navigator Web site has 272 categories of data, many of which 
are further subdivided by various demographic and financial 
subcategories. After reviewing those categories, other than the 
number of veterans attending a school, I believe it would be 
the rare veteran who would need more information to choose a 
school than now contained in those 272 data points.
    Before we begin with the first panel, I would like to note 
that in reviewing today's testimonies, several witnesses have 
testified that there needs to be a coordinated effort on the 
part of the various oversight organizations. In my opinion, 
this Subcommittee's role in that effort should begin with 
ensuring that the membership of VA's Advisory Committee on 
education reflects that need.
    We also must ensure that the Advisory Committee has the 
opportunity to present its views on these types of issues to 
the Secretary and Congress as required by 28 USC 3692.
    I am disappointed that since Congress revised the Advisory 
Committee's membership in Public Law 111-275, the Committee has 
not met in the past year and possibly longer. Therefore, I hope 
that Director Worley will inform us of his plans to make use of 
this Advisory Committee. Also, reviewing the membership of the 
Advisory Committee, I think we should consider bringing in some 
experts in compliance and enforcement. I look forward to 
working with the Ranking Member and the Subcommittee to 
enhancing the role of the Advisory Committee.
    I now recognize the distinguished Ranking Member for his 
remarks and I would note that as a graduate of both Iowa State 
University and the University of Iowa, he probably has no 
problem getting tickets for the autumn Civil War and I am not 
sure which city it is in, but I wouldn't want to put you on the 
spot asking you which team you are routing for since it is 
election year, so.
    Mr. Braley.

    [The prepared statement of Hon. Stutzman appears in the 
Appendix]

          OPENING STATEMENT OF HON. BRUCE L. BRALEY, 
                   RANKING DEMOCRATIC MEMBER

    Mr. Braley. Mr. Chairman, thank you for that gracious 
introduction and it is true that I hold degrees from both fine 
institutions. I spent four year at one and three years at 
another, and I was a walk-on under Iowa State Coach Earl Bruce 
when he was coaching at Iowa State, so it is a matter of basic 
math to me, and you can figure that out for yourself.
    I want to thank you for holding this hearing today and I 
look forward to discussing the President's Executive Order.
    Everyone in this room knows that the purpose of the Post-9/
11 GI bill is to provide servicemembers, veterans and their 
dependents with a quality education, and although many changes 
have taken place since the implementation of that bill, we 
continue to provide oversight of this generous Veterans 
Education which I was proud to be part of implementing. We owe 
it to veterans and the taxpayers to make sure that the money 
spent for this program is being spent wisely. Veterans deserve 
to have accessible standardized information regarding education 
institutions and degree programs in order to make informed 
choices on how to get the best education that they have 
certainly earned under the Post-9/11 GI bill.
    Unfortunately, I have heard reports of aggressive and 
deceptive practices targeting servicemembers and veterans by 
some educational institutions and as U.S. Supreme Court Justice 
Louis Brandeis stated, ``Sunlight is the best disinfectant.'' I 
agree and that is why I am pleased the Administration is trying 
to address those abuses through an Executive Order that 
provides servicemembers and veterans with the information they 
need to make informed choices and find the best educational 
institutions and course of study that are right for them.
    We know that this Executive Order was prompted in part by a 
call for action from 13 different veterans and servicemember 
groups when they wrote a memo called the Military and Veteran 
Students Educational Bill of Rights that I hold in my hand. The 
Order establishes Principles for Excellence for Educational 
Institutions. These principles provide added enforcement, 
oversight, and most importantly, transparency for perspective 
students seeking to use their Post-911 GI bill benefits.
    These principles would require that educational 
institutions collect and provide information to help 
perspective students make an informed decision when deciding on 
an educational program. Participating institutions will provide 
detailed information, such as a know-before-you-owe form, which 
discloses information about tuition and fees, financial aid, 
estimated student loan debt upon graduation and graduation 
rates. These principles will aid in making informed educational 
decisions, and by providing needed information in an easily 
accessible form, this Executive Order will help curb fly-by-
night recruiting techniques and provide protections to 
servicemembers whose deployment may require short absences.
    This has been a passion of mine since I came to Congress 
which is why I am proud that I introduced and the President 
signed into law the Plain Language in Government Communications 
Act requiring every Federal agency, including the Veterans 
Administration, to write forms, brochures, pamphlets and other 
information in language its intended audience can understand, a 
practice that has been horrendous in most Federal agencies 
until that bill became law.
    We know that this information is critical for veterans and 
a good number of them may be the first in their families to 
attend college. That is why we need to provide them and all 
veterans with the tools they need to work their way through 
this sometimes-confusing application process.
    I don't think there is any such thing as too much 
information to provide veterans and servicemembers making 
decisions that will affect the rest of their lives.
    I look forward to hearing from our witnesses today, and I 
look forward to working with you, Mr. Chairman, as we try to 
make sure that all veterans, everyone utilizing these benefits, 
has the information they need to make informed choices that are 
sound investments of taxpayer resources and I yield back.

    [The prepared statement of Hon. Bruce L. Braley appears in 
the Appendix]

    Mr. Stutzman. Thank you, Mr. Braley. At this point I ask 
unanimous consent to enter the statements from several 
different organizations: The Rand Corporation, for the American 
Council on Education; Mr. Steve Gonzalez of the American 
Legion; Mr. Ted Daywalt from Vet Jobs; Mr. Patrick Bellon from 
Veterans for Common Sense; Ms. Heather Ansley from Vets First; 
Paralyzed Veterans of America and the Military Officers 
Association of America into the record.
    There are copies of the statements on the table outside the 
hearing room. Are there any objections?
    Hearing no objection, so ordered.

    [The prepared statement of Jennifer Steele appears in the 
Appendix]

    [The prepared statement of Steve Gonzalez appears in the 
Appendix]

    [The prepared statement of Ted DayWalt appears in the 
Appendix]

    [The prepared statement of Patrick Bellon appears in the 
Appendix]

    [The prepared statement of Heather Ansley appears in the 
Appendix]

    [The prepared statement of Paralyzed Veterans of America 
appears in the Appendix]

    [The prepared statement of Military Officers Association of 
America]

    Mr. Stutzman. At this time we would like to invite the 
first panel to take their seats at the witness table. Our first 
panel consists of Mr. Joe Wynn from the Vietnam Veterans of 
America, Mr. Ryan Gallucci from the Veterans of Foreign Wars, 
Mr. Tom Tarantino from the Iraq and Afghanistan Veterans of 
America, and Michael Dakduk from the Student Veterans America.
    If the first panel would take their seats, since we have 
many witnesses today, I remind each of you to limit your oral 
statement to the five minutes that is allotted so that the 
Subcommittee will have sufficient time for questions.
    Let us begin with Mr. Wynn. Mr. Wynn, you are recognized 
for five minutes.

 STATEMENTS OF JOE WYNN, SPECIAL ADVISOR, VIETNAM VETERANS OF 
     AMERICA; RYAN M. GALLUCCI, DEPUTY DIRECTOR, NATIONAL 
   LEGISLATIVE SERVICE VETERANS OF FOREIGN WAR OF THE UNITED 
    STATES; TOM TARANTINO, DEPUTY POLICY DIRECTOR, IRAQ AND 
  AFGHANISTAN VETERANS OF AMERICA; MICHAEL DAKDUK, EXECUTIVE 
             DIRECTOR, STUDENT VETERANS OF AMERICA

                     STATEMENT OF JOE WYNN

    Mr. Wynn. Thank you. Good afternoon, Chairman Stutzman, 
Ranking Member Braley, other Members of this Subcommittee, 
fellow veterans and guests.
    Let me first thank you for the opportunity to come before 
you on behalf of the veterans' organizations I represent to 
share our views on the President's recent Executive Order 
13607. This Order is a generous step towards offering for-
profit colleges and institutions that receive GI bill funding 
for student veterans an opportunity to improve their 
performance before laws are passed that will impose more severe 
regulatory remedies.
    Though my time of service was many years ago as a Vietnam-
era Veteran of the U.S. Air Force, I still have very vivid 
memories of the military experience. I also remember quite well 
the tough time I had finding employment after going to a for-
profit institution that provided no placement assistance and 
counseling, though they advertised that they would.
    My experience just serves as an example of what many 
veterans from Iraq and Afghanistan are going through now.
    Ongoing analysis is being done by the U.S. Senate's Health 
Committee and other organizations shows students at for-profit 
colleges have lower graduation rates, employment outcomes with 
higher debt levels and loan defaults. For-profit colleges are 
misrepresenting their programs in tuition costs, rates are far 
higher than at public and non-profit institutions; and these 
schools, partly because they serve poor students who often need 
more supportive services, receive almost a quarter of their 
funding from Federal aid.
    It appears to be those Federal aid dollars that has led 
many admissions officers to use aggressive recruitment 
strategies targeted to veterans using the GI bill for funding. 
You see, GI bill benefits do not technically count as Federal 
education benefits under the Department of Education's 90-10 
rule, a longstanding requirement that no more than 90 percent 
of a For-Profit's college's revenues can come from Federal 
financial aid.
    In light of these findings, its just down-right troubling 
to read news that for-profit colleges are being allowed to 
continue predatory and fraudulent practices with little or no 
accountability. I agree with the President's Executive Order 
that when it comes to shopping for an education, a veteran 
should not have to be treated as if they are buying a used car. 
They need to be given all of the information regarding tuition 
and fees up front before they enroll in a program of study. 
They should not be burdened with additional fees after 
completion of the program of fees not covered by other funding 
sources.
    I also agree with the President's Executive Order wherein 
veterans should be made well aware of the quality of the 
education offered and their potential for employment when they 
successfully complete the program. Counselors should be readily 
available to provide financial and academic advice.
    This Executive Order issued by President Obama attempts to 
establish a policy that will ensure that our Nation's 
servicemembers and their spouses are not deceived by for-profit 
colleges. If for-profit colleges' desire to achieve the goals 
proposed in the Executive Order, compliance should not be 
difficult. Though I suspect that there will be some resistance 
since doing the right thing will undoubtedly affect their 
bottom lines, less profit. And if this Order will serve to 
improve the likelihood of success for our veterans, it will 
obviously be well received by them. Perhaps more of them will 
become gainfully employed or start their own small businesses.
    The Executive Order does not address the 90-10 Rule and 
until that law is changed, GI Bill benefits will continue to be 
targeted by for-profit colleges. That is a ``for sure.''
    Enforcement under the Order needs to be strengthened. Other 
pending legislation by Senators Webb and Murray appear to 
strengthen the Principles of Excellence referred to in the 
Executive Order.
    In conclusion, since our young men and women stepped up to 
serve this country following the devastating attack on our 
Nation on 9/11, many returning as veterans who served with 
honor and many who received distinguished honors for displaying 
valor and courage during their periods of military service for 
this country, they don't deserve to be taken advantage of. 
Every effort should be made by every institution, government 
agency and commercial enterprise to ensure that these veterans 
receive all of the benefits they are entitled to and deserve.
    We call upon Congress to not allow for-profit colleges and 
institutions in America to be so big that they can be allowed 
to take advantage of the citizens of any state, especially 
military veterans, members of the Guard and Reserve, disabled 
veterans, women veterans, black veterans, minority veterans nor 
veterans homeless or of limited means. Congress needs to 
implement laws to stop the predatory practices being 
demonstrated by for-profit colleges and institutions or provide 
support to reinforce the Principles of Excellence as put forth 
in Executive Order 13607 for the benefit of our veterans, their 
families and our community.
    This concludes my statement and I respectfully request that 
my oral and written statements be submitted for the record. 
Thank you.

    [The prepared statement of Joe Wynn appears in the 
Appendix]

    Mr. Stutzman. Thank you, Mr. Wynn.
    Mr. Gallucci, you are recognized for five minutes.

                 STATEMENT OF RYAN M. GALLUCCI

    Mr. Gallucci. Thank you. Chairman Stutzman, Ranking Member 
Braley and Members of the Subcommittee, on behalf of the 2 
million Members of the Veterans of Foreign Wars and our 
auxiliaries, thank you for the opportunity to share our 
thoughts on the President's recent Executive Order addressing 
consumer protection concerns for today's student veterans.
    In the interest of time I ask the Committee to refer to my 
full prepared statement for our detailed thoughts on the EO.
    Recent Senate investigations and GAO reports have indicated 
that some schools make a concerted effort to recruit student 
veterans into their programs with no intention of delivering a 
quality education. While arguments can be made as to the 
validity of these claims or how widespread the problems may be, 
the fact remains that these reports have created a perception 
in Washington that taxpayer dollars used to fund veterans' 
education programs have gone to waste and our heros are not 
receiving the education we promised to them.
    The VFW has seen numerous efforts from both Congress and 
the military to scale back educational benefit programs, which 
is why we continue to fight to preserve the landmark 
educational benefits earned through the valorous service of 
today's war fighters.
    Since these reports surfaced, the VFW has worked diligently 
to build consensus among advocates and educators to improve 
consumer tools and strengthen protections for student veterans 
who may have been victims of fraud, waste or abuse.
    In January, the VFW co-authored a letter along with many of 
today's key witnesses asking the House, Senate and 
Administration to take action. We are proud to see that 
everyone listened to our collective voice.
    Congressman Bilirakis and Chairman Stutzman, we applaud you 
for introducing your bill to address this and we applaud your 
Senate colleagues who introduced similar bills.
    However, today we also applaud the President for taking a 
bold first step in ensuring veterans receive the quality 
education we promised and believe that this serves as 
inspiration to move on legislation.
    The Executive Order is naturally constrained to the limits 
of current law and available resources, which means that bills 
must still be passed in a timely manner to ensure our student 
veterans can make the best choices on how to use their earned 
benefits.
    Executive action can also be limited in scope and progress 
can be difficult to assess which is why the VFW and many of our 
colleagues feels that an Advisory Committee should be formed to 
maintain to help monitor implementation. We also encourage this 
Subcommittee to host a hearing at the 90-day mark to assess 
progress.
    As the agencies is responsible for executing the 
President's Order to lay the ground work, the VFW would like to 
explain how we envision implementation for certain provisions. 
First, the VFW understands that schools may face additional 
administrative hurdles in an effort to comply with the newly 
established Principles of Excellence. The VFW suggests that VA 
adopt similar principles to those found in the new DoD MOU 
which many schools will be obligated to sign onto in the coming 
months. This will minimize the administrative burden, but also 
ensure that VA can collect quality information with which to 
inform veterans.
    Second, the VFW supports the idea of providing data 
comparison tools to veterans through eBenefits, but must stress 
that a simple link to College Navigator is insufficient. We 
believe that the VA should identify at least five, but not more 
than 10, relevant data points with which veterans can compare 
programs and we look forward to engaging with VA on exactly 
which data points would be most beneficial over the next 90 
days.
    Third, the VFW must clarify that the anonymous complaint 
process means only that VA must protect students' personally 
identifiable information, but that processes must be in place 
to verify that complaints come from actual enrolled veterans 
and that the veteran has exercised proper chains of authority 
before seeking VA intervention.
    We must also clarify that this new reporting mechanism is 
designed as a tool to collect relevant information on the 
experience of student veterans. State approving agencies must 
still serve as the primary enforcers reasonably resolving 
complaints at the local level. The VFW does not want to see new 
archaic protocols put in place that only exacerbate potential 
challenges faced by student veterans.
    Finally, the VFW calls for an additional hearing on the 
role in resourcing for the SAAs. As a result of unclear 
regulations, the VFW believes valuable SAA resources are being 
diverted to cover down on unrelated tasks preventing the SAAs 
from conducting quality program evaluations. We must solve this 
confusion in the short term to ensure SAAs remain effective.
    The Post-9/11 G.I. Bill stands to be a transformative 
benefit for today's war fighters, designed to mold the next 
greatest generation. We must protect this benefit at all costs. 
Unfortunately, the VFW and our partners have felt hamstrung by 
an overwhelming lack of quality information on student veterans 
to either confirm reports of fraud, waste or abuse, or to 
demonstrate student veteran success. Executive Order No. 13607 
and the bills currently before Congress will help to gather 
this kind of data ensuring future viability of the program and 
fostering veteran success in the classroom.
    We hope that the Executive Order will motivate Congress to 
quickly move on legislation to protect our Nation's investment 
offering our student veterans the quality education we 
promised.
    Chairman Stutzman and Ranking Member Braley, this concludes 
my statement and I am happy to answer any questions you may 
have.

    [The prepared statement of Ryan M. Gallucci appears in the 
Appendix]

    Mr. Stutzman. Thank you.
    Mr. Tom Tarantino, you are recognized for five minutes.

                   STATEMENT OF TOM TARANTINO

    Mr. Tarantino. Mr. Chairman, Ranking Member, and Members of 
the Committee, on behalf of Iraq and Afghanistan Veterans of 
America's 200,000 Member veterans and supporters, thank you for 
inviting me to testify on the President's Executive Order 
Establishing Principles of Excellence for Education.
    IAVA welcomes and supports Executive Order 13607. It will 
help empower student veterans to make educational choices that 
meet their needs. We believe that with proper implementation, 
this Order will begin to provide veterans and their families 
with clarity about their educational choices. We also believe 
that this Order complements several more robust legislative 
initiatives already under consideration in both the House and 
the Senate. By signing this Executive Order, the President has 
initiated a process that, if addressed by legislation alone, 
the various agencies would have had to wait months to begin 
working on.
    We firmly believe that sound implementation of this 
Executive Order, coupled with passage of bills offered by this 
Committee and your counterpart in the Senate, will provide 
timely clarity for student veterans about their educational 
choices. However, in order to achieve success we must address 
two questions: What are the outcomes that consumers need to 
make sound choices and how will benefits and/or Federal aid, 
how will they pay for education that veterans and 
servicemembers need?
    For most students, choosing a school is simply not a data-
driven process. This is largely due to the lack of usable 
consumer information available to prospective students. While 
schools are required to report hundreds of data points to 
College Navigator, it does not synthesize that information into 
a tool that empowers consumers to make choices that fit their 
needs. And furthermore, even a cursory review of College 
Navigator exposes broad inconsistencies in the information that 
is reported to the Department of Education.
    When using College Navigator to compare like programs, the 
data often doesn't match up. Unfortunately, there are some 
schools that use this confusion to hide poor performance.
    Although I don't believe the Executive Order is going to 
necessarily going to clean up bad reporting, it certainly will 
expose schools that are reporting bad numbers and give 
consumers an indication that the school they are looking at 
might not entirely be on the level.
    Even if this Executive Order, coupled with legislation, 
fixes errors and inconsistencies with student outcome data, we 
must tie that data to a tool that student veterans can use to 
determine what benefits or aid they are eligible for and how 
they may use it to help pay for their education.
    IAVA has developed and successfully produced a 
comprehensive GI Bill calculator at our Web site newgibill.org. 
Nothing like this calculator currently exists from the VA or 
Department of Education. Identifying metrics students can use 
to choose a college is important, but these ultimately must be 
coupled with the ability to determine how they can use their 
benefits to help achieve their goals.
    IAVA is also concerned with trademarking the phrase ``GI 
Bill.'' Searching ``GI Bill'' on Google reveals pages of 
deceptive Web sites that are designed to market for-profit 
schools to prospective students without providing them with 
useful information about their benefits. Veterans who submit 
their information to these Web sites are often subject to 
aggressive recruiting and harassment.
    I am concerned, however, that there is no instruction in 
the Executive Order to protect Web sites like newgibill.org 
that provide students with critical information and assistance 
with their benefits that the government is either unwilling or 
unable to provide. Almost a million veterans have used 
www.newgibill.org to calculate their benefits, gather 
information about changes to the GI Bill, and receive help in 
understanding this complex program. When implementing this 
Order, there must be clearly defined exceptions for those who 
are providing a service and not simply looking to turn a 
profit.
    IAVA is also concerned about housing a consumer information 
tool whether it is a link or an actual real tool at the 
eBenefits portal. Currently, access to eBenefits is tied to 
enrollment in the DEERS. This is a serious access problem since 
a significant number of OIF and OAF veterans are no longer 
serving.
    For these veterans, access to eBenefits is simply too 
complicated to make the service useful. You can develop the 
best consumer education tool in the world, but it is useless if 
your customers can't access it. To remedy this, IAVA recommends 
that in addition to being housed at eBenefits, consumer 
information tool is also housed at gibill.va.gov.
    We applaud the President's directive to establish consumer 
complaints, but we are concerned about how the consumer 
complaint intake will be handled. In order for this to be 
effective, it must be at the VA. The VA is the face of veteran 
services within the government. It must be through 1-888-
GIBILL-1 and at gibill.va.gov. Nowhere else does this make 
sense from a practical or business perspective.
    This Executive Order will not solve all the problems faced 
by student veterans, however, it is a good start, but we have 
to work to continue to pass legislation like H.R. 4057 and 4052 
that will make the provisions of this Executive Order more 
robust, and more importantly, permanent.
    But we also must pass legislation like 4055 and 4390. These 
bills will help restore free-market control to the for-profit 
system, as well as prevent veterans from being harassed by 
marketers and aggressive recruiters.
    The Post-9/11 GI Bill is the most significant veterans' 
benefit since World War II. As veterans, advocates, educators 
and lawmakers we all have a shared responsibility to ensure 
that every student veteran is empowered to use their benefits 
wisely and build a first class future.
    Thank you for your time and attention. I look forward to 
answering your questions.

    [The prepared statement of Tom Tarantino appears in the 
Appendix]

    Mr. Stutzman. Thank you.
    Mr. Michael Dakduk, you are recognized for five minutes.

                  STATEMENT OF MICHAEL DAKDUK

    Mr. Dakduk. Thank you, Chairman Stutzman, Ranking Member 
Braley and Members of the Subcommittee. Thank you for inviting 
Student Veterans of America to speak on the President's 
Executive Order and its impact on student veterans and 
institutions of higher learning.
    My name is Michael Dakduk. I served both in Iraq and 
Afghanistan as a Marine. I used tuition assistance while in the 
service and I participated in distance learning courses while I 
was onboard a Navy ship heading towards the Middle East for my 
second deployment, and as a first generation college student, I 
used both the Montgomery GI Bill and Post-9/11 GI Bill to earn 
my undergraduate degree. I now support Student Veterans as 
Executive Director of Student Veterans of America.
    Student Veterans of America currently has over 450 chapters 
at colleges and universities across the Nation assisting 
veterans in their education experiences on a daily basis. This 
direct contact gives SVA a unique perspective on the needs and 
obstacles faced by our Nation's veterans as they return to 
their communities to enroll in institutions of higher learning 
and reintegrate into the civilian workforce.
    As you are likely aware, we recently conducted an annual 
review of all of our chapters, both for-profit and non-profit, 
and found that 26 for-profit schools were suspected of creating 
fake SVA chapters to legitimize there status as veteran-
friendly schools or to recruit future student veterans. We 
revoked their memberships per our charter. That perspective 
provides the framework for our testimony this morning, or this 
afternoon, excuse me.
    The issues addressed in Executive Order carry great 
significance for our Nation's veterans, servicemembers, and 
their families. It reflects highly on this Subcommittee and the 
Executive Branch that such attention is being paid to 
addressing and resolving the challenges faced by veterans who 
are targeted by bad actors in the higher education system.
    Regarding the specific provisions of the President's 
Executive Order, Student Veterans of America strongly supports 
any action that protects student veterans, their families and 
their benefits. Any school that attempts to gain from the 
generous Post-9/11 GI Bill and other military and veteran 
Federal benefits without providing outstanding education 
outcomes to the student veterans must be vigorously prosecuted.
    SVA supports full disclosure of debt loads and 
institutional performance before enrollment. We know from our 
extensive experience with this population that there is simply 
too much bad or misleading information out there about schools 
claiming to be veteran friendly. Requiring schools to disclose 
accurate information before a student veteran enrolls levels 
the playing field and enables student veterans to make well-
informed decisions.
    SVA supports the requirement of every student veteran to 
have an academic advisor and academic plan. This is commonplace 
in most reputable schools, and those institutions that do not 
currently offer this must implement this immediately to ensure 
our veterans are working towards realistic academic or career 
goals.
    SVA strongly supports publishing outcome measures and 
graduation rates. Without data and statistics it would be 
impossible to know the true impact of the Post-9/11 GI Bill. 
This information is also critical to effective congressional 
oversight, and we remain concerned that the program's impact to 
date would be lost without retroactive efforts.
    SVA supports a unified system to report complaints at 
schools. We have consistently asked for a formal well 
publicized process for student veterans to raise issues with 
their educational institutions to the appropriate Federal 
authorities. Given the amount of Federal dollars being made 
available, it is essential to create a centralized complaint 
center that allows student veterans to raise legitimate 
concerns about bad actors and the post-secondary education 
space.
    SVA supports uniform policies for access to military bases 
by educational institutions. Having consistency across all 
bases will help ensure that good schools have access and 
predatory ones are kept out.
    Finally, while it is not specifically addressed in this 
Executive Order or in today's Subcommittee hearing, SVA would 
like to take this opportunity to call for an amendment to the 
so-called 90-10 rule.
    SVA supports the various bipartisan bills pending that 
would affect such a change. Common sense dictates that schools 
that are required to receive no more than 90 percent of their 
income from the Federal government should not be able to skirt 
this rule by accepting the overage in veterans' benefits.
    Thank you, Mr. Chairman and Subcommittee Members for your 
attention in support of Student Veterans and their families. I 
look forward to answering any of your questions.

    [The prepared statement of Michael Dakduk appears in the 
Appendix]

    Mr. Stutzman. Thank you. They just called votes. I will 
take five minutes to ask questions. We will ask Ranking Member 
Braley to do his questions and then we will go vote and then we 
will come back and finish up questioning.
    The first question I would like to ask is, I think, Mr. 
Gallucci, you had mentioned data categories or maybe it was Mr. 
Tarantino, but what additional data categories should be added 
to College Navigator and what value would that data add to the 
process, if there are any?
    Mr. Gallucci. Thank you, Mr. Chairman, for that question. 
Some of the data points, I think, is specifically talking about 
data points on student veterans and information on a student 
veteran population at a school. Michael and myself had an 
opportunity to sit in on a recent IPEDs technical review panel 
to discuss collection of information on student veterans. There 
are some basic items that the VFW believes a student veteran 
would want to know before they attend an academic institution. 
Some of these have to do with available unique veteran services 
such as veteran's programs or advisors on campus, also the 
total veteran population, the number of veteran beneficiaries 
on campus. That includes servicemembers, veterans and their 
dependents who are eligible for benefits.
    One of the ideas that a number of the veterans' 
organizations have been kicking around are, is there a better 
metric than the graduation rate as it is currently reported 
through the IPED system. To a non-traditional student 
population like student veterans, the graduation rate is 
irrelevant. I had a discussion with my colleague, Ray, about 
this graduation rate metric and neither of us are considered 
successful graduates through our GI Bill program, even though 
both of us received a degree and both of us used the GI Bill.
    So we are kicking around ideas as to what would be a better 
metric to track, would it be degrees conferred for a certain 
amount of time, for a certain cohort, expanding the cohort 
beyond first time, full time and items like that. And 
unfortunately, we feel that that might be a conversation for a 
later date or to have with VA down the road as we are 
implementing this Executive Order.
    Mr. Stutzman. Thank you. And I guess this question will 
be--Mr. Tarantino, do you want to answer anything?
    Mr. Tarantino. I just wanted to add to this. You know, 
think about College Navigator. It is a great research tool. It 
is an outstanding research tool. It is a terrible consumer 
information tool. The information that is on College Navigator 
is extremely extensive, but the majority of it isn't really 
useful to someone looking where to spend their consumer 
dollars.
    And so a lot of this that we are talking about gathering 
data, it is less about gathering new data, although we do need 
to figure out how to properly assess graduation because 
according to the Department of Education, I am a double college 
dropout. We do need to figure out how to figure to account that 
metric. This is more about data liberation and putting it in a 
tool that empowers consumers to make better decisions of what, 
where to spend their dollars.
    I think when you look at it in that flight, when you frame 
the argument like that, this suddenly becomes a lot clearer. 
You know, we need a yelp for higher education. If I can figure 
out, you know, what everyone in this room thinks about every 
sushi restaurant within five square blocks, I should be able to 
figure out how students, what students think, what consumers 
think about colleges within the city or state I live in.
    Mr. Stutzman. Could you give us some ideas of what data 
would be helpful? I mean, could we add something to College 
Navigator that we could make this a better tool that is useful 
for veterans?
    Mr. Tarantino. I think degree completion; how many students 
started a programs versus how many students ended each 
individual program; how many students entered this history 
department and left with a history degree; how many students 
got this--entered a mechanical degree and got the mechanical 
degree and how long it took them. That is kind of available at 
College Navigator, but it is not broken down by program and it 
is very hard to synthesize. It is less about finding new data 
and figuring out a way to present it to consumers, and that is 
really the key. If you don't have something to present to 
consumers that they can read and that is simple and 
quantifiable, then the data you are collecting is useful.
    Mr. Stutzman. So do you think that finding College 
Navigator information is difficult or is it easy enough to find 
it, it is just the information that is on the Web site that is 
not useful?
    Mr. Tarantino. Right. It is not only difficult, but it is 
also highly inconsistent among its own data sets. And you will 
see in my written testimony I talked about a liberal arts 
college in--a non-profit liberal arts in Oakland, California 
that represented a pretty standard demographic distribution of 
students, but when you looked at graduation rates, the only 
graduates were Asian females.
    Now, either there's a really strong cultural bias in that 
curriculum or the data they reported to the Department of 
Education was bad, and you find this all over College Navigator 
that even within the same data set, the data is inconsistent. 
And so as a consumer if you pick out the core data--how much 
does it really cost, how much am I going to have to go into 
debt, how long is going to take me to do it, how many people 
finish the degree--then you can pull that out of College 
Navigator and make that for consumers and that would provide a 
lot of clarity as to which schools are meeting mission and 
which schools are not.
    Mr. Stutzman. Okay. Thank you.
    Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman. First of all, I just 
want to get all of you on the record, each one of these 
veterans' service organizations that you represent were 
signatories to this Education Bill of Rights, the proposals 
that I referenced earlier; is that correct?
    And am I correct, also, that each one of your organizations 
still stands by that original endorsement of this type of a 
requirement to protect veterans and active duty and Guard and 
Reserve Members who are pursuing higher education?
    Mr. Tarantino. Absolutely.
    Mr. Braley. I want to follow up on your last point, Mr. 
Tarantino, because I think sometimes when we talk about 
educational policy, it is frequently divorced from the real 
world and, you know, looking at myself, I started at Iowa State 
University with a major in aerospace engineering, switched to 
civil engineering, switched to journalism. Graduated with a 
degree in political science.
    You could argue, based on some of the things you mentioned 
about what you enter with, your degree target and your actual 
degree that I was an abject failure and people probably argue 
that for other reasons, but the point is that I was able to 
take that degree and go on and do something and find 
employment. To me, that is the definition of a successful 
college education. I am less concerned about what we enter in 
and what we exit with and are we getting students the value 
they need for those educational dollars to give them the 
ability to have a college degree and an opportunity to earn 
income and take care of themselves and their families. To me, 
that is the focus of what we should be talking about.
    And Mr. Gallucci, you were talking about what type of data 
would be necessary. We talked about degrees conferred, but I am 
also interested in knowing what employment was obtained and the 
correlation between the two, whether that degree actually 
resulted in a benefit out in the work force or whether you have 
somebody with a liberal arts degree who is counting cars on a 
highway. To me, that has impact on how we get the most bang for 
our buck for these dollars.
    One of the things you mentioned, Mr. Tarantino, was also 
proper implementation. You mentioned two questions: What are 
the outcomes consumers need to make sound choices? Do you have 
recommendations on what you think or do any members of the 
panel on what your members feel should be part of those 
outcomes?
    Mr. Tarantino. I could say that there is a lot of them 
actually in legislation. I think the reporting outcomes that 
are in, specifically the Web Bill in the Senate, as well as the 
Murray Bill, is a pretty good list of very simple metrics that 
someone would need to use. And like I said, a lot of this is 
already available, but it is not reported in a digestible 
manner.
    I mean, if you go to College Navigator, and I suggest 
everyone try one this, pick four like schools, four technical 
schools, four liberal arts schools, four religious schools, 
whatever, and do the comparison feature and look at them side 
by side to compare schools. You will suddenly find that all 
those 270 data points that are found throughout the single 
school get severely reduced because not everyone's reporting 
the same thing and then some schools are reporting data that is 
a little bit suspect and doesn't quite match up.
    And so when you actually do the comparison piece, you are 
now looking at a much more truncated version of College 
Navigator that frankly doesn't give me any use as a consumer 
looking where to spend my dollars.
    As a veteran I am going in for a tract. I am not an 18-
year-old going to find myself. I found myself getting shot at 
in Iraq, you know. I am going through a specific program. I am 
going there with a mission and I need to know what is going to 
help me achieve the goal that I have identified for my GI bill 
dollars.
    Mr. Braley. Well, and Mr. Dakduk, you testified about this 
in your opening remarks is there, is a new reality out there 
for young men and women who are entering the armed forces, and 
that is, they are pursuing higher education while they are 
serving their country. You did that yourself.
    So if we don't have a system in a place that allows that 
transparency, allows that consistency of transparency, we are 
depriving you of the opportunity to get a head start on the 
rest of your life because we certainly have the technology 
available now to allow you to do that, but we need to make sure 
we have the metrics right and we have the access points right 
or we are going to be holding people back who want to make use 
of that time to move forward.
    Mr. Dakduk. Absolutely, Ranking Member. I will tell you, 
when I left the military, I didn't know what College Navigator 
was. I never heard of it, never used it. Now, in my current 
position, it is a wonderful research tool. It has no bearing 
for consumer education, nor is it helpful to student veterans 
as far as picking an academic institution or picking an 
academic program.
    I will tell you that there are certain things that do need 
to be there when we talk about data points, and Ryan and I were 
speaking about this. I know that some institutions would 
certainly find themselves in a precarious situation if you used 
graduation rates. That doesn't work for the nontraditional 
students, but transfer-out rates for student veterans because a 
lot of them go to community colleges first. We get our feet 
wet. We tend to try to figure out what we want to do and go to 
a community college or an online institution and take a few 
credits. So transfer-out rates might be helpful for folks that 
don't go and complete a degree at one institution of higher 
learning. So that is just something specific on a data point 
that I think can be very helpful to many of the institutions of 
higher learning.
    Mr. Braley. Thank you. I yield back.
    Mr. Stutzman. At this time, we are going to recess. We are 
going to go vote and then we will be back. We have one 15 
minute vote which is about over, and then three five-minute 
votes after that. Two votes after that? Okay. So hopefully we 
should be back here in about 30 minutes.

    [Recess.]

    Mr. Stutzman. We are going to convene. I am going to ask 
the second panel to come forward at this time. This group will 
include the Honorable Steve Gunderson, formally a distinguished 
Member of the House from Wisconsin and is now representing the 
Association of Private Sector Colleges and Universities. Next 
we have Dr. Jonathan Gibralter; is that correct?
    Mr. Gibralter. Gibralter, that is correct.
    Mr. Stutzman. All right. Who is the President of Frostburg 
State University and is representing the American Association 
of State College and Universities. And I want to give a special 
welcome to our next witness, Ms. Margaret Baechtold from 
Indiana University in Bloomington, who is representing the 
National Association of Veteran Program Administrators. 
Welcome, and it is always great to have a follow Hoosier 
testify. As I was telling the Ranking Member, it is those 
Hoosier values that we like to talk about. And I also want to 
thank you for your years of service in the United States Air 
Force.
    And next, we have Mr. Barmak Nassirian--is that correct, 
all right--representing the American Association of Collegiate 
Registrars and Admissions Officers. And then finally Ms. Judith 
Flink from the University of Illinois, who is representing the 
National Association of College and University Business 
Officers.
    Okay. We are going to start with Ms. Flink because I 
believe she may have to slip out, so you are recognized for 
five minutes.

  STEVE GUNDERSON, PRESIDENT AND CEO, ASSOCIATION OF PRIVATE 
SECTOR COLLEGES AND UNIVERSITIES; JONATHAN C. GIBRALTER, Ph.D., 
    PRESIDENT, FROSTBURG STATE UNIVERSITY, ON BEHALF OF THE 
   AMERICAN ASSOCIATION OF STATE COLLEGES AND UNIVERSITIES; 
   MARGARET BAECHTOLD, DIRECTOR, VETERANS SUPPORT SERVICES, 
INDIANA UNIVERSITY ON BEHALF OF NATIONAL ASSOCIATION OF VETERAN 
 PROGRAM ADMINISTRATORS; BARMAK NASSIRIAN, ASSOCIATE EXECUTIVE 
  DIRECTOR, AMERICAN ASSOCIATION OF COLLEGIATE REGISTRARS AND 
    ADMISSIONS OFFICERS; JUDITH FLINK, EXECUTIVE DIRECTOR, 
 UNIVERSITY STUDENT FINANCIAL SERVICES AND CASHIER OPERATIONS, 
  UNIVERSITY OF ILLINOIS ON BEHALF OF NATIONAL ASSOCIATION OF 
            COLLEGE AND UNIVERSITY BUSINESS OFFICERS

                   STATEMENT OF JUDITH FLINK

    Ms. Flink. Mr. Chairman and Members of the Committee, my 
name is Judith Flink. I serve as Executive Director of 
University Student Financial Services for the three campuses at 
the University of Illinois. I have worked in the University's 
business office and been actively involved in higher education 
for over 30 years. I am testifying today on behalf of the 
National Association of College and University Business 
Officers, NACUBO, which represents chief financial officers and 
their staff at more than 2,100 public and non-profit colleges 
and universities.
    NACUBO's mission is to promote sound administrative and 
financial management of institutions of higher education. It is 
an honor for me to be here today.
    NACUBO shares the President's goals as outlined in his 
Executive Order establishing Principles of Excellence for 
institutions serving veterans, servicemembers and their 
families. We affirm that these students--and indeed all 
students--deserve high quality academic and support services 
that enable them to make informed decisions about their 
education. We strongly support safeguards against abusive and 
deceptive recruiting practices.
    Before elaborating on our specific concerns, I want to take 
the opportunity to suggests that the Agency's task with 
implementing the Executive Order actively consult with 
institutions and the organizations that represent them as they 
develop the necessary rules.
    With my positive experience on the Department of 
Education's Advisory Committee and as part of negotiated rule-
making for DoE, I can personally attest to the success of such 
dialogue. I would, therefore, the creation of an official 
advisory group or groups with a defined membership and 
structure to work in partnership and develop workable solutions 
as we implement new VA and DoD policy and procedures. I believe 
this will go a long way to bring consensus and efficiency to 
colleges and universities, our partner agencies in the Federal 
government and, most importantly, the servicemembers we serve.
    To illustrate, since implementation of the Post-9/11 GI 
Bill, I have had the pleasure of participating in a NACUBO work 
group that has tried to meet quarterly with VA representatives 
to address issues involved in processing Chapter 33 tuition 
benefits. These meetings always end with both sides walking 
away better informed about how each of us operates--well, most 
of the time.
    Regarding the Executive Order, we believe most, but not 
all, of the President's principles align with existing U.S. 
Department of Education requirements. Those principles, if 
implemented by DoD and VA, according to the ED guidelines, will 
not inflict additional cost or burden on our Member 
institutions.
    But we do have serious concerns about some of the other 
provisions and their potential implications. Our concerns are 
as follows:
    Section 2(a) requires institutions to provide prospective 
students with a broad range of information on an individualized 
standard form. Prospective students do not routinely identify 
themselves based on their Federal aid eligibility, making it 
difficult for institutions to know who should receive the form 
until they are actually enrolled and on campus.
    Furthermore, the VA has not developed procedures to 
communicate with schools about veterans and their eligibility 
for educational benefits.
    Section 2(f) mandates institutional refund policies in a 
manner similar to ED's policies used for returning unearned 
Title IV student aid refunds. Outside of Title IV aid, the ED 
permits colleges and universities to set their own refund 
policies. If the new policy will differentiate from ED's 
policy, then this will create significant enrollment planning 
and budgeting challenges for institutions of higher education.
    Section 29(g) requires institutions to provide education 
plans for all individuals using Federal military and veterans' 
educational benefits. The intent of this provision is not 
altogether clear to us. If it is similar to the agreement 
recently reached by institutions and DoD on it's Memorandum of 
Understanding, then institutions will be able to comply. If 
not, further discussion will be necessary.
    Section 3 requires schools to track student outcomes which 
may be difficult to measure and may be misleading. Veterans and 
servicemembers are often nontraditional students with 
educational goals that may differ from the traditional 
students. Progress should not be measured solely on graduation 
rates.
    In conclusion, let me reiterate the commitment of NACUBO's 
membership is to ensuring that our servicemembers receive the 
education they deserve. However implementation of the 
requirements in the President's recent Executive Order requires 
further clarification and discussions so that all parties can 
gain understanding and move towards consensus on developing an 
efficient, sensible policy.
    Thank you again for the opportunity to testify today.

    [The prepared statement of Judith Flink appears in the 
Appendix]

    Mr. Stutzman. Thank you.
    Mr. Gunderson, you are recognized for five minutes.

                  STATEMENT OF STEVE GUNDERSON

    Mr. Gunderson. Thank you very much, Mr. Chairman, and 
Members of the Committee. I am delighted to return back and 
speak to you on this issue that is important to you and it is 
important to us. We are honored to be able to say that over 
152,000 veterans have attended our school since the enactment 
of the Post-9/11 GI Bill. We are proud of that and we are proud 
of them.
    As a sector, we have engaged in working with the 
Subcommittee, and others, to identify and develop protocols 
that best meet the academic needs of our veterans. As you know, 
on January 31st APSCU joined with others, including some of our 
harshest critics in letters to the President, to this Committee 
and to the Senate Committee supporting two very basic, but 
critical, ideas for ensuring quality educational experience, 
increased educational counseling and a protocol to ensure that 
legitimate complaints are heard and resolved.
    We have also been working with others on this Committee and 
in the Senate to develop a bipartisan consensus around the best 
protocols for protection of veterans education experience. So 
you can imagine that we were a bit surprised and disappointed 
that the news of an impending Executive Order was made without 
any advance notice from the White House circumventing the 
ongoing, bipartisan, bicameral discussions. Today's hearing is 
to look at the impact of that proposed Executive Order. Our 
position remains one of constructive engagement and pursuit of 
consensus and common sense policies.
    You may remember from my earlier testimony before this 
Committee, we must find new and better ways to calculate 
academic progress and graduation rates for veterans as well as 
all adults, part-time students, and others returning to school. 
If we can identify such metrics, we do everyone a favor, 
starting with the veterans. Today, only 18 percent of all post-
secondary students are captured by the IPEDs calculations.
    A second area of concern is the complaint process, and that 
it be one that appropriately serves and protects the veteran 
and the school. We need to know where and how many legitimate 
complaints really exist. Therefore, the letter yesterday from 
Chairman Miller and Senator Byrd to the Secretary articulates 
the importance of appropriate data collection, that this 
process must be fair and it should be focused on seeking 
resolution. We want every legitimate complaint by a veteran to 
be heard, but we do not want this to become a vehicle for 
anonymous complaints for those who are not veterans who have a 
political agenda very different from the interests of the 
veteran students.
    On both issues we requested and the White House assured us 
that all parties, including colleges and universities would be 
a part of a constructive, collaborative process to reach 
agreement on these issues before the Executive Order went into 
effect. We are concerned because one-third of the way towards 
the deadline for implementation of the Executive Order, as of 
Monday no institution or organization on behalf of higher ed 
had been invited for such discussions.
    In moving forward in pursuit of further and appropriate 
protections for our veterans, we ask that such additional 
criteria be developed with current regulatory and enforcement 
powers in consideration. The current authority, as you know, 
covers many Federal and state authorities, including but not 
limited to, the Department of Education, State licensing 
authorities, national, regional and program-specific 
accreditation, the Securities and Exchange Commission, the FTC 
regarding false and unfair advertising, the Veterans 
Administration's authority under the 9/11 GI Bill, the 
Department of Defense and others.
    We ask that the current authority be used to go after those 
engaged in misconducted before we indict an entire sector.
    You should also know that our sector is currently taking 
the misrepresentation issue one step further. Our Board 
requested a student recruitment taskforce develop guidelines 
for our membership and we now are creating what is called a 
self regulatory organization to deal additionally with this 
specific concern.
    In conclusion and by chance, Mr. Chairman, long before this 
hearing was scheduled, I had a commitment yesterday to visit 
ECPI college in Virginia Beach. This school is important to 
this conversation because no less than 30 percent of their 
student body are veterans. The primary reason veterans choose 
this school, and I spent literally half an hour visiting with a 
classroom of veterans, is because they deliver academics in 
ways that move the veteran from the field through the school 
into the workplace as quickly as possible.
    During my visit with the school, the veterans told me their 
number one complaint was not about the school. It was about the 
VA's problems in processing their payments in a timely and 
proper manner.
    I have submitted to the Committee, but I want to lift up 
for your attention the ECPI Standards or Best Practices for 
Veterans Education because I want you to see what these 
individual schools are doing on their own to make absolutely 
sure that they engage in the best education practices and the 
best interest of the veterans. This is the way we focus on the 
ultimate outcome which is to make sure the veteran has a 
positive education experience that moves them from the field of 
battle into education and into the workplace as soon as 
possible.
    Thank you very much.

    [The prepared statement of Steve Gunderson appears in the 
Appendix]

    Mr. Stutzman. Thank you.
    Ms. Baechtold, you are recognized for five minutes.

                STATEMENT OF MARGARET BAECHTOLD

    Ms. Baechtold. Chairman Stutzman, Ranking Member Braley, 
and Members of the Subcommittee, thank you for this opportunity 
to testify today on behalf of the National Association of 
Veterans Program Administrators regarding Executive Order 
13607.
    Again, my name is Margaret Baechtold. For over five years I 
have served as the Director of Veterans Support Services at 
Indiana University. A veteran myself, I retired from the United 
States Air Force after 20 years of service and I am now also 
the Legislative Director for NAVPA.
    NAVPA's membership is comprised of approximately 400 
educational institutions from all education sectors and we 
advocate for what we believe are the best interests of student 
veterans at our institutions.
    Our expertise lies in the administration of veterans 
programs at colleges, universities, and other education 
providers. Our leadership is comprised of non-paid staff 
members who voluntarily serve NAVPA in an effort to better 
serve the veterans on our campuses.
    As a voluntary organization, NAVPA does not police its 
membership regarding any of the issues raised by this Executive 
Order. Our mission is to provide professional development to 
member institutions, collect and disseminate best practices for 
student veteran support and advocate on behalf of students and 
our institutions. We believe strongly that all educational 
institutions should be forthright and open with all students, 
particularly with regard to veterans' and military 
servicemembers' unique needs and circumstances.
    Like so many others, NAVPA has been dismayed at news 
reports of unscrupulous organizations' treatment of 
unsuspecting veterans and we strongly condemn any abuses to 
which veterans might have been subjected at the hands of these 
institutions. While we believe that there are no doubt costs 
and burdens involved in implementing this Executive Order, we 
cannot object to any initiative that seeks to ensure that 
veterans are appropriately recruited, advised, and supported 
while in school. NAVPA is pleased that the President has taken 
such a direct interest in the educational needs of our Nation's 
veterans.
    We recognize, however, that the requirement in this 
Executive Order to provide personalized financial advising will 
be exceptionally challenging to implement. This advice can only 
be provided if the institution has full access to all 
eligibility information required to determine all possible aid 
alternatives.
    At present, eligibility information is generally not 
provided directly to institutions, and we must rely on student 
veterans to furnish us with such information. NAVPA has long 
advocated for direct access to student information from the VA, 
for example, and we will continue to do so.
    The timing of institutional and agency business practices 
will also make implementation of this requirement difficult. 
Students cannot even apply for certain Federal benefits such as 
Army tuition assistance until after they have already enrolled 
in classes. Schools cannot effectively predict in advance how 
much funding might be provided by military tuition assistance, 
or even Veterans Affairs education benefits, prior to 
enrollment, application to those agencies and benefit 
authorization.
    Furthermore, many benefits are based on actual enrollment 
levels, actual institutional charges, and the receipt of other 
financial awards. Many financial awards must be adjusted 
whenever a student receives other financial awards. The Post-9/
11 GI Bill is a perfect example of a program that pays a net-
cost which must be readjusted whenever any other tuition-
restricted awards are received.
    NAVPA supports efforts to better inform students about 
their financial benefits, but we recognize the challenges 
involved with implementing the services required in this 
Executive Order.
    We hope and expect that as policies are developed, we might 
contribute to the conversation about how best to provide the 
financial information needed by prospective student veterans 
and their families.
    Regarding student outcomes, all schools are interested in 
assessing the success of their students. It will be critical to 
define success appropriately for each educational environment 
and to develop data collection methods that are robust, 
accurate, and meaningful. We hope and expect that educational 
institutions and the organizations that represent them 
including NAVPA will be involved in developing these desired 
outcomes and metrics.
    We support efforts to improve information resources for 
prospective students, absolutely. We also encourage continued 
efforts to provide schools access to data about individual 
student's benefits and eligibility so that we can accomplish 
the tasks required of us.
    NAVPA fully supports efforts to ensure veterans are 
appropriately recruited, advised, and supported in school. 
Requiring disclosure by schools should not be a substitute for 
solid oversight, however. The agencies administering these 
programs are in need of further oversight resources to provide 
training and enforce the provisions of this Executive Order as 
well as the currently existing regulations. The VA needs 
assistance with compliance tasks now that the Post-9/11 GI Bill 
has become so complex. Diverting State Approving Agency 
resources to that role has proven problematic, however, and 
leaves no one to fulfill the SAA's historic role of providing 
training and supervision to institutions on broader education 
issues. There are varying roles within the oversight arena and 
tasks should be distributed to the agencies best suited and 
situated to accomplish them.
    Mr. Chairman, this concludes NAVPA's statement. As a 
veteran and on behalf of the members of NAVPA, I would like to 
thank you and the Members of the Subcommittee for your 
leadership on issues of critical importance to America's 
veterans. Thank you.

    [The prepared statement of Margaret Baechtold appears in 
the Appendix]

    Mr. Stutzman. Thank you.
    Mr. Nassirian, you are recognized for five minutes.

                 STATEMENT OF BARMAK NASSIRIAN

    Mr. Nassirian. Thank you, Mr. Chairman, Mr. Ranking Member, 
distinguished Members of the Committee.
    My name is Barmak Nassirian. I am Associate Executive 
Director with the American Association of Collegiate Registrars 
and Admissions Officers which we mercifully abbreviate to 
AACRAO. We are delighted to be able to participate in this 
discussion. I have submitted written testimony for the record, 
but I would like to take this opportunity to in plain language 
raise four specific issues for the Subcommittee's attention, 
and I shall do so dogmatically because of the shortness of 
time, but we can certainly talk about the underlying reasons.
    One, the for-profit sector in higher education has a 
significant and pervasive problem with waste, fraud and abuse. 
This is not anything against the profit motive. We endorse the 
profit motive. The building we sit in, presumably, was built by 
somebody who hopefully was doing it for-profit and did a good 
job, but when you compare how we put up buildings in this 
country with building codes and inspections and heavy 
penalties, if somebody undersizes the beams, we understand that 
the profit motive needs to be framed with proper oversight.
    What I am here to suggest to you, as somebody who spent 
almost a quarter century looking at this stuff we have a lot of 
procedural and very burdensome regulations. We do not have 
substantive safeguards to ensure that an entity purporting to 
be a college or university is actually doing any teaching and 
that is equivalent to buildings falling on people's heads on a 
daily basis, and the basic reason here is simple. When you put 
a building up or you take a color TV home, there are very 
obvious performance tests on the basis on which you know what 
you got.
    Education is a lifetime experiential service. You can show 
people all kinds of promises on the front end that they will 
only learn 20 years later didn't actually pan out. So that is 
one point.
    I raise an issue that has been raised before by my other 
colleagues about the 90-10 rule. This Subcommittee should pay 
particular attention to that because what the 90-10 rule does 
is it makes every dollar of VA benefits worth 9 extra dollars 
of Title IV money and, therefore, vets today are walking around 
with big target signs on their backs because their dollars are 
the means by which these entities that have almost no other 
purchaser. And this is really the issue, what are they selling 
that nobody else is willing to reach into their pocket and put 
a dollar of hard-earned cash on the table for.
    Now, veterans earn their benefits, but these are Federal 
benefits and these benefits are being used to leverage other 
Federal benefits. So the notion of for-profit--I am for market-
based profit making the right way, but it is a funny kind of 
capitalism we are talking about. It is capitalism consisting of 
100 cents on the dollar coming from the feds. There is 
something wrong there.
    My colleagues from the VSOs talked about the glut of data 
in the Navigator. I am mechanically challenged. When I buy a 
car, all I want to know is where the key goes and where the gas 
goes. I can't even take it to the oil level being right. So 
that is the reason, unless you want to get a Ph.D. in 
mechanical engineering, we consult consumer reports and attempt 
to understand what car is right for us. Very tough to do with 
education.
    Disclosures are not a substitute for gate-keeping. When I 
go to the supermarket, I don't want to have toxic food on the 
shelves with a Ph.D. dissertation hanging under each item as to 
whether it is going to kill me or it is edible. We should take 
toxic programs off the table so vets and servicemembers are not 
victimized.
    And finally, with regard to the Executive Order, we support 
it as an imperfect substitute for what we believe only you can 
do. You are the folks who write these laws. You have done so 
with leadership and with the best of intentions and I believe 
if this Committee takes a look at the situation and addresses 
gate-keeping, we could simplify a lot of things that we have to 
do circuitously otherwise.
    I appreciate the opportunity and look forward to any 
questions. Thank you.

    [The prepared statement of Barmak Nassirian appears in the 
Appendix]

    Mr. Stutzman. Thank you.
    Dr. Gibralter, you are recognized for five minutes.

               STATEMENT OF JONATHAN C. GIBRALTER

    Mr. Gibralter. Chairman Stutzman, Ranking Member Braley, 
and distinguished Members of the Subcommittee. I am Dr. 
Jonathan Gibralter. I am the President of Frostburg State 
University in Maryland. We are a rural university in Western 
Maryland and part of the university system of Maryland's 11 
campuses.
    I am here today testifying on behalf of the American 
Association of State Colleges and Universities, commonly known 
as AASCU, which represents over 400 public institutions and 
university systems.
    Thank you for holding this hearing. I would also encourage 
Members to view my written statement for further detail and 
explanation of this testimony.
    Frostburg serves the majority of veterans and active 
military connected to our region's National Guard and Reserve 
units. The number of veterans we serve varies significantly 
from year to year. Our overall enrollment right now is about 
5,500 students. We are currently serving about 102 veterans.
    Our growing online programs, in particular our accredited 
MBA and our new Bachelor of Science in Nursing, are proving 
particularly popular with veterans since these programs are 
designed to be very flexible.
    AASCU, which also serves as the administrative agent for 
the servicemen's opportunity colleges supports the intent of 
the issued Executive Order. Our Nation's veterans and military 
personnel should be able to obtain quality information about 
institutions and their programs.
    AASCU and its member institutions, including my own campus, 
value the perspective and experience that servicemembers and 
veterans bring to our institutions. As such, we take our 
commitment to providing them a quality educational experience 
very, very seriously.
    As the conflicts in Iraq and Afghanistan wind down and over 
2,000,000 troops are withdrawn from those areas, more and more 
veterans will be arriving on college campuses to use the 
educational benefits they have earned serving our country.
    In addition, our active duty military are combining service 
to the country with higher education. The text of the Executive 
Order as written raises a number of concerns for AASCU 
institutions regarding implementation. Those of us on the 
ground are also most aware of the human issues of the 
individuals that we work with.
    For example, as there is no requirement that students 
identify themselves as veterans, some choose not to do so. 
Meaning, they may be missing out on services that we can and 
should provide.
    The Executive Order requires the Secretaries develop a 
comprehensive strategy for developing servicemember and veteran 
student outcome measures that are comparable across Federal, 
military and veteran's educational benefit programs.
    While AASCU appreciates the Order's statement that, ``To 
the extent practicable, the student outcome measures should 
rely on existing administrative data to minimize the reporting 
burden on institutions participating in these benefit 
programs,'' there is considerably more burden to finding 
available data for these outcome measures than meets the eye.
    The issues of data definition and collection raised by the 
Executive Order's requirement to develop national level outcome 
measures become even more significant for institutions. First, 
the Federal government does not collect veterans and military 
student specific data from institutions. Second, institutions 
and states vary in their ways of defining veteran and military 
students based on what data is available to them.
    Given the complexity of data identification and collection 
on this topic, higher education institutions will inevitably be 
asked for data that may or may not be possible to obtain.
    This leads to another concern, that of the reporting burden 
and associated costs. In 2010 the government accountability 
office completed an analysis of the burden placed on 
institutions to comply with expanded mandatory IPEDs reporting. 
Among other issues, the GAO found that schools reported time 
burdens ranging from 12 to 590 hours compared with the 19 to 41 
hours education estimated.
    GAO further reported that institutions incurred a total 
estimated salaries and computer costs of over $6,000,000. The 
call for specific comparable outcome measures in the Executive 
Order would be an expansion of current reporting requirements 
and may require institutions to incur considerable back-office 
costs.
    Another key concern that was mentioned earlier is the 
complaint system outlined in the Executive Order that would 
create a centralized complaint system for students receiving 
Federal military and veterans educational benefits. Instituting 
a centralized complaint system without first establishing 
whether an individual has already attempted to resolve their 
complaint with the university or college's Veterans Affairs 
Office represents a concern. Too often complaints are raised to 
the highest level when, in fact, they may better be resolved on 
the campus.
    We strongly suggest that higher education stakeholders have 
significant input into the conceptualization of this 
centralized complaint system.
    In closing, Frostburg State University and other AASCU 
institutions are eager to continue meeting the needs of our 
military members and veterans as well as their families. Our 
experience is that these returning military become solid 
students and campus leaders.
    We support the Administration's efforts to ensure that 
servicemembers and veterans can make the best informed 
educational choices. Thank you for the opportunity to speak 
about this legislation.

    [The prepared statement of Jonathan C. Gibralter appears in 
the Appendix]

    Mr. Stutzman. Thank you. And I will begin the questions. I 
am going to start with Ms. Baechtold. If you could describe to 
us an average student veteran at IU, what's their experience 
like in transitioning into college life compared to an average 
18-year-old freshman coming into school?
    Ms. Baechtold. Mr. Chairman, I would be hard pressed to 
define an average student veteran. Every one of them is so 
unique in their situation, in their needs, in their experiences 
and how those experiences have impacted them and what that 
means for them as they now transition into their civilian life 
that we really think of them across an entire spectrum of 
experiences.
    We do find that as they come to school, they have a greater 
focus on education, they have a different value on education 
than perhaps the average traditional 18-year-old freshman 
student might have. They tend to be very interested in their 
success there. They tend to be very concerned about their 
finances. They tend to be fairly reticent to seek assistance, 
even when they know they need it because they come from a 
tradition where that is not necessarily looked on as being a 
positive value to reach out and ask for help and we work hard 
to try to provide that assistance to those who need it and 
never assume that those who are doing fine are somehow just 
concealing a need that we are not aware of.
    So again it runs the full gamut of students who walk in our 
door once, sign up for classes, and they are good to go and no 
different than any other student to someone who spends most of 
three days a week in the office because they have a need to 
reconnect with other veterans because they have a need to seek 
out other support services or because they just feel lost in a 
school of 42,000 students. So I am afraid that is not a very 
good answer other than to say there is not an average one out 
there. Every one of them is unique and special and different.
    Mr. Stutzman. Sure. Sure. And that is probably the case for 
every individual. Every individual is looking for something 
maybe different in one way or the other.
    But Mr. Gunderson, given all of the variables and student 
demographics, the availability of jobs, is it reasonable to use 
data such as salaries to judge the quality of a school's 
education? Could you just discuss a little bit about the 
variables in what you see, and then also, if you could maybe 
follow-up a little bit on the question that asks Ms. Baechtold 
as well?
    Mr. Gunderson. Yeah. Actually, when you asked the first 
panel that question, I actually put down some notes of some 
things that I think would be very helpful on College Navigator 
to the typical veteran who is trying to make a decision. One of 
them is placement in employment.
    Let me quickly, in the interest of time, suggest in terms 
of College Navigator, one would be placement of employment. The 
second would be the percent of graduates for 100 FTEs. That way 
we would be able to evaluate all colleges equally, the percent 
of FTE, together with the returning students protocol on higher 
education--has on their Web site as we are looking at. The 
third, take a look at time. For example, I mentioned to you 
earlier that the school UCPI, they literally produce associate 
degrees in 14 to 18 months because they concentrate on 
academics. That is what the veteran wants. They have been in 
that battlefield. They want to get that training. They want to 
get that job, so let us look at that issue. Fourth issue, 
Schedule E. Thank you.
    Mr. Stutzman. The Executive Order, the current data is that 
to what extent will this Order, Administrative Order, Dr. 
Gibralter, if you could maybe touch on that, is that 
information valuable for students that are looking to your 
school?
    Mr. Gibralter. Well, there certainly is data and also if 
you look at the voluntary system of accountability, that many, 
the AASCU, you will find that there is a lot of really useful 
and easy to read information for anybody, including veterans. I 
think the issue that I have heard discussed today is in part 
the availability of that information, but it is also the issue 
of promoting that the symptoms of accountability for veterans 
regretably have failed to do that, so it is a part. Not 
necessarily how many items are added but, you know, how you 
present that to veterans, sounds like, is an important issue.
    Mr. Stutzman. Okay. Thank you. Mr. Braley.
    Mr. Braley. Dr. Gibralter, let me start with you. You self 
identified as working at a rural university.
    Mr. Gibralter. That is right.
    Mr. Braley. And to Mr. Stutzman and I, rural America isn't 
a policy. It is where we are from.
    Mr. Gibralter. Yes.
    Mr. Braley. And rural America has a disproportionate 
contribution to the defense of this country. And so when we 
have young men and women returning, looking for educational 
opportunities, we have a moral obligation to reward that 
sacrifice by giving them an educational experience that moves 
them on the way to fulfilling their career and educational 
goals. I don't think you disagree with that.
    Mr. Gibralter. I absolutely agree.
    Mr. Braley. But one of your statements confused me where 
you said that there is no requirement for students to identify 
themselves as veterans.
    Mr. Gibralter. Right.
    Mr. Braley. And yet we are talking about funding from the 
GI Bill and Military Tuition Assistance Benefit, so how can 
colleges and universities not identify that that is a veteran 
when they are receiving those benefits?
    Mr. Gibralter. I think you are talking about two different 
issues. I think that where we struggle is that there are 
students who are on our university campuses who don't ever tell 
us or indicate in any way that they are veterans. They don't 
want themselves to be known. That is what I am talking about. I 
am not talking about those students who are, therefore, also 
receiving benefits. If they are receiving benefits, sir, we do 
know about it.
    Mr. Braley. And you also raised a point that I alluded to 
in my opening remarks, and that is if you asked 100 percent of 
the population whether they think there is too much government 
red tape, you are going to get a 100 percent yes, okay. And to 
the average person, the average business, that is a twofold 
problem.
    One is the conduct that is being regulated and whether it 
should be regulated in the first place and the other is if that 
regulation or the documents that communicate with people about 
their expected behavior, a written and incomprehensible 
gobbledegook so people waste their time trying to understand 
what is expected of them. And I know that you are all 
intelligent highly educated people, but if you are telling us 
that you are dealing with Federal regulations that are 
incomprehensible gobbledegook to you, we have a big problem and 
that is why I introduced the plain language in the government 
relations bill to get to the root cause of what we are talking 
about. And Mr. Nassirian, you mentioned that, thankfully, in 
your opening comments, but this gets to the greater problem.
    When you have got companies like Turbotax that can greatly 
simplify the time it takes the average veteran college student 
to do their tax return and if you give them those same tax 
forms and the booklet that is 150 pages long that tells them 
how to do the same thing, we have a lot to learn on how we 
process information and get you the data you need in the least 
inconvenient format possible and that is what frustrates me. So 
how do we get there?
    Mr. Gibralter. I think that these conversations need to 
continue and I think that we need to be involved in and 
continue to be involved in the conversation and, you know, I 
would use as a reference the voluntary system of accountability 
that, at least initially, colleges and universities did not 
have to participate in, but many chose to.
    I think if you really look at that, you will see at least 
from my view, a much more easily understandable interface that 
students can get information about, you know, acceptance rates, 
graduation rates, percentage of students that get financial 
aid, any number of data points about colleges and universities.
    Mr. Braley. Mr. Gunderson, welcome home.
    Mr. Gunderson. Thank you.
    Mr. Braley. I would like to remind you that Iowa used to be 
part of Wisconsin territory, but we beat you into the United 
States by two years and I won't get into that. But I wasn't 
clear from your testimony whether your concerns are that on 
behalf of your member institutions you are opposed to the 
Executive Order in itself or you are opposed to the 
implementation of the Executive Order?
    Mr. Gunderson. Great question because I am not sure we are 
opposed to either. I mean, I was disappointed that an Executive 
Order would preempt all the bipartisan efforts to reach 
consensus here on the Hill. That was my disappointment.
    Second, what I have lifted up is that the Executive Order, 
if it is developed with all of us and all of you in working out 
the kinks and the issues that need to be defined, this could be 
good. But we got to deal with those two big issues, a complaint 
process and a calculation of the information for the veteran on 
graduation rates, academic achievement, et cetera, in ways that 
works for the veterans and works for higher education. If we do 
that together, this is a win-win for everybody. If we don't do 
it, it is a disaster for everybody, the veteran, the schools, 
you all trying to get the information and the general public.
    The verdict on whether it is good or bad is yet to be 
determined, but we only got 60 days left before that 90-day 
window is to be concluded and this goes into effect. And like I 
said, I talked to my colleagues at the ACE on Monday, and I 
said we haven't been asked and we were promised by the White 
House we are going to be asked. Have you been asked? They said, 
no, we haven't been asked and we are the ones who volunteered 
to convene all the higher ed groups, so nobody in higher ed has 
been asked to come to the table and help work out these issues.
    Mr. Braley. Well, I think one of the things that all of us 
would tell you is that an Executive Order lasts only as long as 
the person who signs it is in office as a practical matter. And 
Chairman Stutzman and I and other members of this Subcommittee 
are actively engaged because we know that ultimately there has 
to be a legislative solution that takes into account the best 
interest of the veterans, the people receiving these funds and 
the U.S. taxpayers and the institutions who have to administer 
them.
    So we look forward to working with you and we encourage you 
to continue to engage with all the veteran service 
organizations who have testified today and Members of Congress.
    And with that, Mr. Chairman, I yield back.
    Mr. Stutzman. Thank you. Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman and Ranking Member, and 
thank all of you for your testimony and your expertise in 
helping us understand this. I am very proud of the work we did 
on the Post-9/11 GI Bill. It was sorely needed. It is going to 
open up and has opened up countless opportunities and it comes 
back again our--we have a couple of major requirements on this 
Committee, making sure that we provide all of the earned 
benefits that our warriors so rightfully deserve, while at the 
same time making sure that as stewards of the taxpayer dollars 
we get them there, and I think, for you, I see that very 
similar mission. You are trying to deliver and make the 
opportunities available.
    I want to be very clear that as we do things, that we are 
making sure that we are not contracting the opportunities of 
the GI Bill offers, that we are not making it more difficult 
for the bulk of our warriors to get their benefits because of a 
few bad actors that are in this.
    And would you all characterize it as a few bad actors or is 
this a systemic problem that truly did need an Executive Order? 
Anybody want a try at that one? Go ahead, Mr. Nassirian.
    Mr. Nassirian. I think you would not be surprised. The 
politically correct thing to say is that it is a few bad 
apples. The data argue otherwise. You are looking at 11 percent 
of all enrollments, consumer, your Pell Grant dollars 
accounting for half of all student loan defaults, capturing 50 
percent of the DoD Tuition Assistance Funding, 37 percent of 
all VA benefits.
    The numbers, you know, you can bring--the plural anecdote 
is not data. The data speak to a systemic issue.
    Mr. Gunderson. Can I respond to that, Mr. Chairman?
    Mr. Stutzman. Certainly. Sure.
    Mr. Gunderson. I appreciate that because I respect 
everybody's right to disagree with the concept of private 
sector education. I think, though, that we ought to understand 
exactly who private sector colleges and universities happen to 
serve in America today and what would happen if they didn't 
exist. This tends to be career oriented education. The reality 
is that today 94 percent of all the students who attend private 
sector colleges and universities in this country are eligible 
for Title IV student financial aid assistance.
    We ought to be commending the schools for serving students 
that otherwise would not have access to post-secondary 
education, the skills, the jobs, the incomes and the middle 
class families that they are able to obtain through that.
    When I hear people who criticize us because we serve a 
disproportionate number of veterans or active duty military, I 
say, you got this all mixed up. You ought to commend these 
schools for the design and delivery of academic programs that 
serve the needs of today's veteran. Don't blame these schools. 
Congratulate them in that regard.
    Mr. Walz. Mr. Gunderson, do you think this was a chainsaw, 
then, instead of a scalpel that should have been used on this 
because you had something interesting in your testimony I would 
follow up on. You talk about the VA having the authority to 
prohibit enrollment of eligible veterans in the poor performing 
schools and you talk about how the VA could join in agreement 
with FTC to do some things here. Have they done those things?
    Mr. Gunderson. No, and that is my frustration. You know, I 
spent 16 years in the Congress promoting all of higher ed. I am 
a big fan of public sector colleges and universities, private 
non-profits, the private sectors, everybody. There is so much 
out there today in terms of regulatory authority to go after 
the bad conduct that all we ask is use your present authority 
and go after that school and you will never hear me or my 
association here defending one bad apple engaged in misconduct 
of a veteran or any other student, but let us not indict all of 
higher ed or even just the private sector colleges and 
universities for the misconduct of one school.
    Mr. Walz. Ms. Baechtold, and several of the rest of you, 
you hit on this and I don't say this facetiously in any way. I 
am the staunchest supporter of the VA but I will also be their 
harshest critic. One of the prescriptions for a better way of 
doing this is communication and getting data from the VA. Good 
luck with that and I say that, as I said, not facetiously. They 
do a lot and there is a lot of things that maybe we put on them 
with privacy data and concerns about that.
    So I do know that. I couldn't agree with you more. I think 
as Mr. Braley hit upon, we have to do better at how we get that 
data. We have to do better at how we process. How do we engage 
VA better? What are some of your solutions on this or how do we 
get that communication working better because this is a sticky 
point for us across a lot of issues?
    Ms. Flink, you mentioned it also. If you have anything, 
please.
    Ms. Flink. I have been involved in the NACUBO Committee 
that is having conversations with the VA and one of the things 
we have continually brought up is that if we could simply have 
a release that a veteran would sign that would allow people at 
the institution to talk to them. It is a pretty simple concept.
    We do have people at our institutions that can talk to 
them, but they are usually in Margaret's role. It is not people 
in my area where we do the billing and all of those types of 
processing. So we will call up and we will try to get some 
questions answered for the veteran and we are immediately shut 
down.
    So we have been trying to work with them to have a very 
simple form that a veteran can sign. We could fax it to them. 
You could create an online form. But just giving other----
    Mr. Walz. What was the feedback you got from them on that 
because I can tell you I think this is a fundamental reform 
both in the processing of benefits claims, burial claims and 
others. My county Veteran Service Officers don't have the 
ability of what you are asking for. These are licensed, you 
know, basically licensed and bonded folks who say that we are 
going to protect this data, and they can't get it. Have they 
have been responsive to you on the potential?
    Ms. Flink. In the conversations we have, they continue to 
say they have to have conversations internally, but we have 
been asking for well over 24 months, but that is just an 
example of how we could help the veterans move the process.
    Mr. Walz. We could go down this line. I have been asking 
for six years. Mr. Gunderson might say he was asking for 16 
years.
    Ms. Flink. Right.
    Mr. Walz. I do think that is a problem though, and I am 
troubled by this and I very much, I mean, the predatory nature 
of some of these folks doing this, I know it appalls all of 
you. It appalls all those veterans. It is a disservice to our 
veterans. It is despicable and all that, but I also understand 
where you are coming and am somewhat-- not somewhat, I am 
troubled by the idea of Executive Order without the input. And 
the last time many of you were here testifying there was a good 
faith effort to include you. I don't think we will truly get at 
the heart of this if we don't include everyone in this 
decision-making who is actually processing the data and going 
up.
    But I also think Mr. Nassirian's right. I can't ignore the 
data that shows this, and we need to hammer down on this. There 
is a lot of money here and lot of those things, but how we get 
to that point of communication is still troubling me.
    I went over my time. I yield back to the Chairman.
    Mr. Stutzman. That is not a problem.
    Ms. Baechtold, did you have a comment, I think, you wanted 
to make?
    Ms. Baechtold. I just wanted to respond a little bit more 
to Mr. Walz's question. It has been baffling to school 
certifying officials, for example, that we can get full 
eligibility and payment information for almost every other 
chapter except the Post-9/11 GI Bill. That is and has always 
been accessible to us through the VA once, you know, data 
interface that we use to report information to the VA, and so 
it appears it is a combination of perhaps misplaced privacy 
concerns since we obviously are entitled to that information 
for every other chapter and limitations on IT systems that may 
have other priorities right now, but pretty soon this needs to 
become a priority or we will not be able to continue to do many 
of the things and provide many of the services that we do on 
our campuses. Thank you.
    Mr. Stutzman. Thank you. I have got just a couple of other 
questions. Mr. Gunderson, you mentioned ECPI University and it 
sound like they are having a lot of success. Is there something 
that they are doing differently that we should be paying 
attention to?
    And also, I think everyone of us here would agree, that if 
there are bad apples out there, do we have the tools to deal 
with those now currently in place?
    Mr. Gunderson. You know, one of the things I enjoy every 
day is when I hear a new news release that frankly is going 
after one of our schools, not because I enjoy that they go 
after our schools because it confirms your point, that the 
tools are already there to go after those schools engaged in 
misconduct, if it is used, so we ought to start with that.
    Now, what ECPI has done, which is go above and beyond the 
Federal and the state minimums to establish a voluntary set of 
best practices, and if ECPI were sitting here today rather than 
Steve Gunderson, what they would tell you is, you know what, 
when we are engaged in onsite education of veterans, all we 
need to do is screw up once and that commander will never again 
direct any of his enlistees to our school.
    Mr. Stutzman. So when you say if a school is being 
disciplined or they are going after a school, what practices 
are they performing that requires them to discipline or to 
investigate?
    Mr. Gunderson. Oh, I think the biggest allegation against 
our sector over the last four years has been misrepresentation. 
And as I tried to show, certainly in my written testimony and 
to a degree much more quickly in my oral testimony, is that 
there is between the accrediting standards and between the 
birth of the VA and the Department of Education as well as the 
FTC, all of them prohibit misrepresentation in advertising or 
sales. And so there is a lot of different avenues where you can 
go after that particular enforcement. That's number one.
    Number two, and why we support counseling is because I 
think if the veterans that I have talked to at these schools 
would tell you they have a complaint, it is that they don't 
know the right questions to ask at the beginning. And they will 
tell you as they have told me personally what I thought it was 
going to cost to get a degree and what it really costs was 
different because there was an annual increase in tuition costs 
or because the original tuition and books cost only covered 
online books, and if you want to buy a hard copy book--it is 
questions like that where I think that counseling becomes such 
a key part of equipping the veteran to know what they are 
pursuing, even on the transferability.
    We all know that if you are nationally accredited, you 
probably don't have a good shot at getting transferability to a 
regional accreditation. It can be in the paperwork and if it is 
not lifted up to that veteran, I got to be honest, I am not 
sure when I was enrolling in college I would have had any idea 
to ask about national versus regional versus program-specific 
accreditation, what its impact would be.
    Those are the kind of things, I think, we all want.
    Mr. Stutzman. Thank you. Any further questions?
    Mr. Braley. Mr. Nassirian, I want to just follow up on one 
of the comments you made in direct response to what we have 
just been talking about. You talked about the challenge of 
eliminating waste, fraud and abuse in these program areas, and 
yet the fact that there were burdensome regulations that were 
intended to attack that very problem and yet we are not having 
the desired results of providing accountability and due process 
and enforcement that then changes behavior.
    So what can we do to change that system?
    Mr. Nassirian. Greater focus on outcomes. I think the 
ordinary citizen, I think your approach to the regulatory, to 
the turgid pros of regulatory government is right on the money. 
The ordinary citizen understands intuitively that the taxpayers 
of this country has a moral obligation and recognition of the 
service that our servicemembers have provided to this Nation, 
are providing for educational benefits. The question should not 
be accreditation, licensure and a stack of papers that a 
skillful law firm can correctly fill out.
    The simple question is did this veteran leave this place 
better off or worse off, and I think this Committee can make 
tremendous strides by simply focusing on that bottom-line 
question, are these billions of dollars that are being spent 
actually improving the lot of veterans or are they being 
actually left worse off despite the expenditure of funds and 
the massive amount of paperwork that legitimate institutions 
are dealing with because of the fact that we have a problem we 
don't want to stare in the face. We want to be circuitous.
    And with regard to the Executive Order, it is very much 
that challenge. The Executive Order is an attempt at taking the 
right steps. The problem is we have easier ways of getting 
there. It requires legislation. It requires test and market 
viability. It requires tests of good outcomes for the veterans, 
as well as for the taxpayers of this country.
    Mr. Braley. Well, we talked to a lot of veterans, and 
specifically on this Committee, about how you transition out of 
the military into a civilian workforce or into a civilian 
education environment, and a lot of the veterans we talked to 
who go through those programs talk about what we commonly refer 
to as death by PowerPoint. And these are men and women who have 
given so much and have sacrificed so much and are so burdened 
with that transition and just want to get it behind them and 
move on with their lives.
    And I think, Mr. Walz, you were there at a joint hearing 
with the Senate on this, and I sat there listening, and I tried 
to think of this the way somebody in Iowa would, sitting around 
their kitchen table, and Holly Petraeus was one of the 
witnesses who was testifying there. And I said, you know, if 
you are concerned about making sure that somebody has access to 
an 800 number or a Web site or a Facebook page that they can 
access, we put that on a refrigerator magnet because that is 
what we do and we want to know where to find something.
    Senator Rockefeller looked at me and he seemed very 
intrigued by that concept. I don't know that he has a lot of 
refrigerator magnets but it is one of those simple things that 
really can have far ranging benefits to people who are so 
burdened with information, they don't even know where to start 
to get the answers to the questions that they have, and I think 
sometimes we have well-meaning people who are highly educated, 
who want to do the right thing and want to take into account 
every potential contingency and forget the underlying objective 
of the original program.
    So I appreciate all of you being here today. And thank the 
Chairman again for holding this important hearing.
    Mr. Stutzman. Thank you to all of you and I appreciate you 
being here and your information has been very helpful and very 
valuable.
    We do have votes at 5:00, so I think we will go ahead and 
excuse you all and we will bring up the last and final panel.
    With us today representing the National Association of 
State Approving Agencies is Mr. Chad Schatz. Thank you. Who is 
accompanied by Mr. Skip Gebhart. And I would like to remind 
everyone that the SAAs are a critical link in approving schools 
and courses for GI Bill benefits.
    And then next we have Retired Major-General Rob Worley. 
General Worley is the new Director of VA's Education Service 
and has been on board for about a month and we welcome him to 
his new post. And welcome to the Subcommittee. We thank you for 
your years of dedicated service to our country and the U.S. Air 
Force as well. So Mr. Schatz, is that correct?
    Mr. Schatz. Schatz.
    Mr. Stutzman. Schatz, okay. We will recognize you for five 
minutes for your testimony.

 STATEMENTS OF CHAD SCHATZ, DIRECTOR, VETERANS' EDUCATION AND 
 TRAINING SECTION, MISSOURI STATE DEPARTMENT OF ELEMENTARY AND 
       SECONDARY EDUCATION; ACCOMPANIED BY SKIP GEBHART, 
   ADMINISTRATOR, OFFICE OF VETERANS EDUCATION AND TRAINING 
 PROGRAMS, WEST VIRGINIA HIGHER EDUCATION POLICY COMMISSION ON 
BEHALF OF THE NATIONAL ASSOCIATION OF STATE APPROVING AGENCIES; 
    GENERAL ROBERT M. WORLEY, II, US AIR FORCE, (RETIRED), 
 DIRECTOR, EDUCATION SERVICE VETERANS BENEFIT ADMINISTRATION, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

                    STATEMENT OF CHAD SCHATZ

    Mr. Schatz. Mr. Chairman, Ranking Member Braley, Members of 
the Subcommittee on Economic Opportunity, we represent every 
school and college and training program relative to the usage 
of the GI Bill.
    The idea of adopting and applying Principles of Excellence 
as outlined in the Executive Order is consistent with sound 
educational philosophy and practices and is currently 
recognized, respected and implemented throughout much of the 
education community. Our experience tells us that while some of 
the proposed requirements of the Executive Order may be helpful 
to the achievement of the President's goals, they also could 
result in the establishment of measures and systems that 
duplicate other approaches and services that already meet the 
objectives, although in varying degrees of comprehensiveness. 
Full execution of the Executive Order principles could lead to 
increased work for institutions and other entities without 
proportional value being added to the process of helping 
Veterans reach their career goals.
    For example, the principles related to the availability of 
other types of financial assistance and information regarding 
debt, and those which address the development of educational 
plans and the designation of points of contact for academic and 
financial advising are important to the vast majority of 
educational institutions and are generally integralled to the 
services that they presently provide.
    Similarly, the information about outcome resources referred 
in Section 2, subparagraph A and further elaborated upon in 
Section 3, subparagraph C is currently available through 
various systems managed by the Federal government and reputable 
private sector organizations. We suggest that these areas of 
concern receive additional study and analysis before mandating 
their presentation or publication in another separate and 
distinct format.
    We support efforts to discover false advertising and 
fraudulent recruiting practices and to tighten policies and 
procedures that discourage such practices. Section 3696 of 
Title 38 provides an excellent framework from which to work for 
G.I. Bill purposes. We suggest that the Subcommittee consider 
holding a work session to address these issues.
    We do not support the concept advocated in Section 2, 
subparagraph D. It appears to limit the use of the G.I. bills 
and discriminate against enrollment in some very good non-
accredited programs of education, some of which are offered by 
a quasi-governmental and not-for-profit entities. Section 3676 
of Title 38 provides the basic framework for state governments 
through their state approving agencies to insure the quality 
and integrity of non-accredited programs. We encourage the 
Subcommittee to conduct a careful review of existing consumer 
safeguards and student information initiatives.
    Additionally, we offer the following recommendations. 
Number one, convene a working group of stakeholders whose 
purpose would be to research problems associated with the 
successful administration of G.I. bills and make 
recommendations to the Subcommittee on changes necessary in law 
and/or policy to address the problems.
    Number two, reinstate the approval and disapproval 
authority held by state approving agencies prior to the 
enactment of Section 203, Public Law 111-377. Remove the deemed 
approved provision from Section 3672 and re-designate state 
approving agencies as having disapproval authority in Section 
3679.
    These changes would help to restore the partnership between 
the Federal and the state governments that helped to make the 
G.I. Bill successful for over 65 years. The changes would 
provide the authority to states, and state approving agencies, 
to take definitive action to help resolve problems in areas in 
a timely manner with minimal disruption to the perspective and 
currently enrolled Veteran students. States have the 
infrastructure, experience and the expertise necessary to 
assist Congress and the VA in meeting the challenges 
forthcoming by increasingly complex educational delivery 
systems. Where improvements in the process used by state 
approving agencies become necessary, there are already existing 
provisions in law to help, such as mechanisms in Section 
3674(A).
    Mr. Chairman, the National Association of State Approving 
Agencies suggests that there are many aspects of the Executive 
Order that require technical clarification with respect to 
current law. With the Subcommittee's agreement, NASAA would 
appreciate the opportunity to submit a letter in this regard.
    In closing, Mr. Chairman, NASAA expresses to, its 
appreciation to both majority and minority staffs for their 
many courtesies.

    [The prepared statement of Chad Schatz appears in the 
Appendix]

    Mr. Stutzman. Thank you. General Worley, you are recognized 
for five minutes.

             STATEMENT OF GENERAL ROBERT M. WORLEY

    General Worley. Thank you, Mr. Chairman. Mr. Chairman, 
Ranking Member Braley, and distinguished Members of the 
Subcommittee.
    I am pleased to be here today to discuss the Department of 
Veterans Affairs' efforts to implement Executive Order 13607, 
entitled Establishing Principles of Excellence for Educational 
Institutions Serving Service Members, Veterans, Spouses, and 
Other Family Members, which is designed to strengthen 
oversight, enforcement and accountability within educational 
benefit programs.
    The VA fully supports the Executive Order which directs VA 
and other Federal agencies to develop and implement these 
principles of excellence to ensure servicemembers, veterans, 
spouses and other family members using military and veterans 
education benefits have comprehensive educational and financial 
aid information so they can make informed choices in selecting 
educational programs which will best meet their educational and 
readjustment needs.
    Further, the Executive Order will put in place enhanced 
oversight and enforcement mechanisms to ensure beneficiaries 
are protected from deceptive practices and have avenues to 
resolve effectively their complaints. In Fiscal Year 2011, the 
VA provided educational benefits to nearly one million 
veterans, servicemembers, and dependants, under the Post-9/11 
G.I. Bill and our legacy educational benefit programs. While we 
continue to focus on processing education claims accurately and 
timely, the VA has been working to expand our focus from 
benefit delivery to providing more comprehensive information 
and support throughout a veteran's academic career.
    In 2011, we updated the G.I. Bill Web site to include 
resources such as ``Choosing Your School'' guidebook, as well 
as links to the Department of Education's College Navigator 
tool set, and the Department of Labor's ONET occupational 
handbook.
    As you know, the VA also sponsors the VetSuccess on Campus 
program and offers vocational counseling through Chapter 36 for 
all students eligible for VA benefits.
    The strong impetus of the Executive Order will help build 
on these types of efforts and provide additional support to 
best serve our veterans. An additional key aspect of the 
Executive Order deals with developing a strategy for the 
development of comparable student outcome measures. This is an 
important issue and one measure the VA is taking in this regard 
is the initiation of a longitudinal study of veterans who are 
using post-9/11 G.I. Bill benefits.
    This study will track three cohorts of beneficiaries over 
20 years and will measure outcomes in four key areas: 
employment, educational attainment, income, and home ownership. 
The first survey for this effort is out for public comment now 
and is anticipated to be put out next year, 2013.
    The VA is aware of concerns of improper recruitment of 
veterans by educational institutions and continues to work to 
enhance our oversight and response. With the passage of Public 
Law 111-377, the Veterans Educational Assistance Improvements 
Act of 2010, VA is leveraging existing relationships with state 
approving agencies in an expanded compliance role, to provide 
additional oversight, and we are building upon existing 
collaborations with the Departments of Education, Justice, 
Defense, Labor, the Federal Trade Commission, and the Consumer 
Financial Protection Bureau to expand oversight, share 
information, and develop a strategy for implementing the 
centralized complaint system which is required by the Executive 
Order.
    VA has already begun implementing some of the requirements 
of the Executive Order. This week we will disseminate the 
Principles of Excellence to G.I. Bill schools, and seek their 
response with respect to their intent to comply with the 
Principles of Excellence or not. In addition, we've already 
initiated the application to the Patent and Trademark Office 
for the registration of the term, G.I. Bill.
    Mr. Chairman, Ranking Member Braley, the VA is committed to 
working with all stakeholders to implement the provisions of 
this Executive Order to ensure veterans are informed consumers, 
and schools meet their obligations in training this Nation's 
next greatest generation.
    This concludes my statement. I look forward to your 
questions.

    [The prepared statement of General Robert Worley appears in 
the Appendix]

    Mr. Stutzman. Thank you. General Worley, in your written 
testimony you say that there have been numerous reports of 
aggressive and deceptive targeting of servicemembers. Can you 
explain and verify how many of those have been verified? What 
were the findings on those?
    General Worley. I'm sorry. Mr. Chairman, could you repeat 
the question?
    Mr. Stutzman. In your written testimony you have towards 
the Executive Order headlined, ``Since the post-9/11 G.I. Bill 
became law, there have been numerous reports of aggressive and 
deceptive targeting of servicemembers.'' Can you elaborate on 
that a little bit more? What were, are there findings? Is there 
any investigation? How many of those reports have been 
verified?
    General Worley. Mr. Chairman, I don't have specifics of, 
well, I mean, I haven't delved into the specifics of which of 
those reports have been verified or not. This is in response to 
reports that are out there, and what I can tell you is that 
through the Compliance Program that we have and we cooperate 
and help the state approving agencies do. That has identified 
even in my short time in the job institutions where either 
deceptive practices or other issues have been raised that have 
resulted in either suspension or withdrawal of those 
institutions as G.I. Bill approved schools.
    So I have knowledge of some specifics about schools that 
have engaged in those kinds of activities. But as far as the 
actual reports of specific veterans, I don't have that.
    Mr. Stutzman. Okay. Is that, could you submit those names 
to the Committee staff at some point?
    General Worley. Yes, Mr. Chairman.
    Mr. Stutzman. Okay, and then also, is there a definition 
for aggressive recruiting, fraudulent actions that are being 
taken? Can we have specifics and better definitions on what 
that actually is?
    General Worley. My response to that, Mr. Chairman, would be 
when we do compliance surveys of these institutions, we are 
assessing their programs against the requirements for G.I. Bill 
approval. So consistent with those definitions and those 
specifications is how that's done.
    Mr. Stutzman. Okay, and finally, Mr. Gunderson of a 
previous panel stated that the education community has not been 
asked to meet with the Executive Branch as part of the 
implementation of the Executive Order. Do you know will that 
happen, or has that happened?
    General Worley. Mr. Chairman, I anticipate that to happen. 
I mean, this is the early stages. We'll be, again, 
collaboratively working with the Department of Education, DoD, 
and so forth to work all of these issues. The Executive Order, 
as you know, directs each of those institutions to, in some 
cases, lead a particular provision or task, others to co-lead 
or collaborate in consultation with. So those, that work is to 
be done and we'll be working with all of those agencies.
    Mr. Stutzman. Okay. Thank you, and then, Mr. Schatz, in 
addition to your suggestion to restore the SAA's role in 
approving schools and courses, what specific ways can the SAAs 
assist VA in preventing what is being called predatory 
practices?
    Mr. Gebhart. I'll be happy to answer that, Mr. Chairman. 
Contrary to the General's statement and with great respect, 
compliance surveys do not necessarily look at that sort of 
thing. Compliance surveys look at payment appropriate, or the 
appropriate payments, things like that. I was on a compliance 
survey not long ago at one of our larger institutions and with 
a VA employee, who asked the school to provide copies of their 
advertising, and we looked at it and it was perfectly fine. 
It's hard to tell what a predatory practice may be in a 
compliance survey. It's much easier to talk to veterans and 
say, ``Why did you choose this school?''
    Another thing that came out when I was participating in a 
GAO interview about predatory practices with several of our 
NASAA colleagues, one of the questions was basically what is a 
predatory and aggressive recruiting practice? And one of my 
colleagues said, ``You know, it may be that what we perceive to 
be aggressive is what veterans perceive to be good marketing 
and good student customer service.'' For example, many schools, 
probably private proprietary schools more than public, will 
assist veterans and all students with filling out financial aid 
forms. Public schools typically do not do that. They say, ``Go 
to the Web site, fill out the form.''
    So a person who is unfamiliar with the college experience, 
the college environment, and all those forms is going to say, 
``Wow. This is a really good school because they're helping me 
fill this out.'' That is perhaps aggressive, but it may be good 
customer service. It's very difficult to go to a school and 
say, yes, they're being predatory and aggressive, or no, 
they're not, in the kinds of reviews that we have done in a 
compliance survey.
    Now, when the SAAs formerly would do supervisory assistance 
visits to schools, we would talk to a lot of people. We could 
sit down and interview. We could look around and we could see 
what's happening. We could talk to veterans and see what's 
happening much more easily than we can do now in a compliance 
survey.
    So that's one reason that we are advocating going back to 
more of the role that the SAAs used to have, because we had 
more flexibility, and two, we're out there every year. This 
year in my state, for example, I have 114 approved 
institutions. Last year we saw almost each one of them. This 
year, I've been tasked to do 28 compliance surveys, and the VA, 
my VA colleague is doing about ten. That's fewer than half of 
the facilities that we have in West Virginia that are approved. 
That means fully half of them get no visit, no assistance, and 
no oversight this year. We think that that's not an improvement 
in oversight, but rather a step backward.
    It also does not allow us to help the schools to fix any 
problems that we might find that we can, could easily work with 
them to solve very quickly.
    Mr. Stutzman. Is that in both for-profit and not-for-profit 
institutions?
    Mr. Gebhart. In all facilities.
    Mr. Stutzman. And would you say that bad practices are 
limited to for-profit schools, or do you find it in not-for-
profit schools as well?
    Mr. Gebhart. Absolutely not. They're limited to schools. 
Period. We find as many issues in public schools as we do in 
private proprietary schools or private non-profit schools. 
Administratively speaking, the proprietary schools probably do 
a better job with the paperwork because, you know, that's part 
of their business practice, to do things right because they 
depend upon that approval on doing things correctly to continue 
getting the benefits.
    Where the public schools do not have a profit line to worry 
about, they don't necessarily worry about the administrative 
things as much, either. Now, that's not to say that all public 
schools mess up their paperwork and all private schools don't. 
But there is probably a tendency to say in reviews that I've 
done over the last several years, I find more problems in the 
public schools in terms of accurate reporting and so on, than I 
do in the private schools.
    Mr. Stutzman. Thank you. Mr. Braley?
    Mr. Braley. Well, Mr. Gebhart, it seems like we have a 
collective amnesia in this room about the abusive practices 
that have been well documented by the general accounting 
organization and others, and so let me just start and see if I 
can refresh everyone's memory.
    This is an April 26, 2012 article called, Accountability in 
Military Education by Holly Petraeus, and I think we all know 
who she's married to, and in this article she refers to the 
interviews that her bureau, the Consumer Financial Protection 
Bureau had. She describes an active duty military spouse in 
Fort Campbell, Kentucky, who filled out an interest form and 
was called ten to 15 times a day until she enrolled. That 
sounds like an abusive practice to me.
    And then in another article she wrote for the New York 
Times on September 21, 2011, titled, For Profit Colleges, 
Vulnerable G.I.s, she noted the financial reality of what we're 
talking about. Between 2006 and 2010, the money received in 
military education benefits by just 20 for-profit companies 
soared to an estimated $521,000,000 from $66,000,000, and we 
all know that the for-profits are getting a lion's share of the 
G.I. Bill benefits and military assistance benefits, based upon 
the proportion of students they enroll.
    The Des Moines Register recently did an editorial called, 
For-Profit Colleges Need Close Scrutiny from Congress, and they 
cite the GAO study which used undercover Congressional 
investigators to pose as prospective college students applying 
for admission to 15 for-profit schools. They were mislead about 
financial costs, aid, graduation rates, while being hounded to 
enroll. One was called 180 times in a single month. A recruiter 
said a massage therapy certification for $14,000 was a good 
value, even though the same certificate could have been earned 
at a nearby community college for $520.
    A recent USA Today editorial that just came out refers to 
schools stretching the truth or worse, 13 of the 15 colleges 
investigated by the GAO gave agents posing as applicants 
questionable even deceptive pitches about graduation rates, 
guaranteed jobs or likely earnings, and that editorial 
concluded, ``This is a shoddy way to treat any student and it's 
a dubious way to invest taxpayer money. It's just all the more 
offensive when it's applied to veterans.''
    So I don't think we should ignore the realities that this 
subject has been part of a lot of intense scrutiny and even our 
former colleague in responding and providing an opposing 
viewpoint, Mr. Gunderson said, ``All schools should be measured 
by the same standards. No more, no less. And when the 
Administration and Congress apply such standards to all post-
secondary institutions, we applaud their hard work.''
    I think that's what we're trying to get to here is a system 
of transparency that holds all institutions getting Federal 
dollars accountable. But we also have to be aware of where the 
lions share of that funding is going and making sure people 
aren't being mislead into pursuing education that have no 
realistic expectation of completing or getting a good paying 
job. And when you look at the default rates on these loans an 
on these payments there is another highly disproportionate 
figure that stands out. So, I'm not trying to pick on anybody. 
I think all of these institutions have a place in the portfolio 
of educational services to veterans. But we also can't ignore 
some of these realities.
    Mr. Gebhart. I thank you, sir. My point was on a compliance 
survey or on a review at a school, it's difficult to see those 
predatory practices. I'm basically a one person operation in 
terms of professional staff, I can't go undercover. Most of us 
don't have the resources to do an undercover study like GAO 
did.
    When we get that kind of information we do react to it, we 
do respond to it and I can say in the State of West Virginia we 
now have a law--State law that probably was passed--the 
regulations were passed today I hope at our commission meeting, 
that requires all of our schools, public and private, to 
provide the very kind of information that the Executive Order 
requires, that the Senator Webb's bill requires and Senator 
Murray's bill requires.
    We've already taken that step in West Virginia for all 
students for all schools, because you're right it is a big 
issue. People do need to understand how to make the choice. If 
we had more ability to look harder at some of these schools, 
perhaps we would find more, but we don't have the resources at 
this point.
    We've had $19 million for about seven years to fund our 
program and nobody's been able to hire any extra people. And 
that's what it would take to do the increased oversight.
    Mr. Braley. Do you think that the laws on the books at 
present provide enough remedies to pursue people who are 
engaged in fraudulent and deceptive practices?
    Mr. Gebhart. Yes and no.
    Mr. Braley. Let's talk about the no part.
    Mr. Gebhart. They're vague to some extent and I'm not 
suggesting that we can come up with a cutting score that will 
say well, if you get to this level you're okay and if you're 
below that level you're not, because the metrics are very, very 
difficult as a number of people have said today, to nail down.
    But with SAA's doing the approval and disapproval as we 
used to do, we have more flexibility to find and remedy those 
things. Right now, half of our schools, at least in my state 
maybe more in other states--half of the schools are no longer 
under my jurisdiction for all practical purposes.
    Mr. Braley. And I'm sorry and my time is up Mr. Chairman, 
but why is that?
    Mr. Gebhart. Section 203 Public Law 111-277 said, ``All 
public accredited and private not-for-profit accredited 
programs are deemed approved.'' And we have no authority to do 
anything about that, if we find deceptive practices or bad 
educational outcomes or anything.
    Mr. Braley. Thank you.
    Mr. Stutzman. Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman. I'd follow-up on that. 
Would it be your contention, Mr. Gebhart, that if we change 
that and gave you that ability to go look at those things that 
that would help the situation?
    Mr. Gebhart. I believe it would.
    Mr. Schatz. Absolutely it would. No question about it.
    Mr. Walz. Because this one, I think Mr. Braley did a very 
eloquent job of this and the frustration. There is fraud in 
this and I have to be very clear, this is to me the most 
despicable kind. It's putting a target on the backs of those 
veterans who already risked their lives for the country.
    I also am very cognizant not to paint with a gross 
generalization across every institution, but we have got to 
figure out a way to weed these folks out.
    Mr. Gebhart, you said something I have never heard anyone 
say yet. Were you intimating that the public institutions are 
worse than the private? Is that the case in West Virginia?
    Mr. Gebhart. In terms of paperwork processing, yes, I would 
say so. That doesn't mean that they're educationally worse. It 
means we find more errors in those kinds of schools then we do 
in the private schools. At least that's my experience. I think 
Mr. Schatz would agree.
    Mr. Schatz. I share that. And with respect to the 
supervisory visits we've done in the past and now the 
compliance surveys, I think that lines up exactly with what Mr. 
Gebhart says. My experience is exactly that.
    Mr. Walz. So, we're not getting good data then? We don't 
have access to good data? I mean, listening to Mr. Nassirian 
and others and Mr. Braley was laying out, I'm concerned about 
this, is it shy on paperwork or is it--I'm just kind of at loss 
here.
    I'm just trying to get my mind wrapped around well, first 
and foremost how big the problem is, secondly, how we approach 
and tackle the problem.
    That's going to be very hard to do if what you're telling 
me is we're not even sure we're not getting good paperwork in.
    Mr. Schatz. Well, I think it's a mixed bag here. We have a 
little bit of both and certainly the issue is, if we're not 
involved on the front side--think of it like a physician, the 
other hand, a mortician, we're in the mortician's role right 
now. Where when we were the physician we helped things where we 
fixed problems before they became big issues. And with this 
change we are definitely the mortician. We're not the engineer, 
we're the mechanic.
    Mr. Walz. It's that gatekeeper analogy where Mr. Nassirian 
said, ``Well, wouldn't it be better to keep the bad food off 
the shelf instead of warning people about it after the fact 
that it's there.''
    Mr. Schatz. And that's appropriate.
    Mr. Walz. And we can do that. And you don't think do you--
is the frustration boiled up to an Executive Order that says do 
it and do it now? Do you believe this will be the key to fix 
this? This Executive Order as it's implemented?
    Mr. Gebhart. I think it will go a long way in some areas, 
but it still doesn't do as much in oversight. You know the fact 
that I'm only seeing half of the institutions and training 
facilities that I saw last year says things could be going on 
in that other half that need to be addressed and won't even be 
discovered.
    Mr. Walz. I think you're hitting on something right there 
and my fear is is that we've got a lot of partners I think 
could help us. In listening to this last panel they feel like 
they were isolated away from being part of the solution and now 
they're being deemed as part of the problem and I would hope 
the case wouldn't be that there would be resistance put up, but 
I think you could see it where there's more requirements coming 
down without looking at the data and I think there's a sense of 
institutional pride that's going to come with a lot of these 
places. That, dang it, we're doing a pretty good job, we're 
showing you these numbers, but it's still not making any 
difference, we're getting hammered down with everyone else.
    Mr. Gebhart. If we are--if the SAA's are out visiting all 
of the schools every year as we have always done up until this 
year, oversight will be improved, responsiveness will be 
improved. We can fix problems on the spot in many cases.
    You know, working for the chancellor of higher education, I 
can go to a president and say, you have a problem here because 
your data system doesn't work right to tell your clerks what to 
do when a veteran drops a class.
    Mr. Walz. Yeah.
    Mr. Gebhart. Instead of a manual check. I can fix that. The 
other thing is, I get a sense that there is some feeling that 
we are against VA and against compliance. That is far, far, far 
from the truth. We have always done compliance reviews, we've 
shared the information with VA, we just haven't done it on 
their forms and in their process.
    We would be very willing--we are very willing to help VA 
with doing compliance. What that entails is gathering data in 
the field and then analyzing VA payment records to see if they 
paid correctly.
    Mr. Walz. You're going to have to be trusted with some of 
their data then. It goes back to the question I made in the 
earlier panel.
    Mr. Gebhart. Well, no, not really.
    Mr. Walz. Really?
    Mr. Gebhart. We can provide data from the school to say, 
this is what the school said would happen on the VA 
certification form and we look at their academic records and 
their financial records and we say, this is what did happen. 
When they don't match up, we have a discrepancy. We can send 
that data to VA and they can then look at their records, which 
are very cumbersome and complicated for most SAA's to even get 
into. I don't have access yet, Chad doesn't have access yet, 
about half of our people do.
    So, if we were to simply say or VA were to say we want you 
to look at these 30 cases, get us the data on them, we could 
very easily do that because we've always done that anyway.
    Mr. Walz. General Worley, doesn't that make sense to see 
these partners and have this resource that's out there to do 
that? To be able to do what Mr. Gebhart is saying as a 
collaborative effort?
    General Worley. Thank you, Congressman. A couple of points 
on this issue. The pre-approved, if you will, institutions 
under the 111-377 law are not, certainly, prohibited from being 
visited. They're in the mix, so they get compliance visits just 
like other people.
    The magnitude of the expansion, if you will, if I could 
give you some numbers, last year we conducted, without SAA's 
being involved, approximately 1,700 compliance surveys. This 
year to date, this fiscal year to date, we've done about 2,700.
    And so, being able to use the resource of the SAA's to do 
these kinds of surveys is truly been and expanse of the effort.
    The other thing to understand is, the compliance surveys 
that they're conducting related to the post 911 GI Bill are a 
little bit more complex, they take a little bit longer to do. 
I'm not sure if that's what accounts for fewer numbers in the 
cases you've heard here, but that may account for some of it.
    And as we look at these things, although it may be 
difficult to determine deceptive practices and those kinds of 
things, the compliance surveys are able to identify, in some 
cases, some serious enough misrepresentation or improper 
practices that the SAA's are pulling approvals.
    Mr. Walz. Well, thank you, Mr. Chairman. Thank you for your 
candidness to help us understand this. I appreciate it.
    Mr. Stutzman. Thank you. I'd like to follow up on that and 
I'm not sure which one of you all can answer this. But, these 
aren't just hypothetical situations out there, these are real 
cases that veterans are experiencing. But as you're collecting 
that information, do we even have a way of classifying that? Do 
we have a way of categorizing these specific cases, so we know 
what the problem is? Is there a continual problem with a 
specific institution? Is there a problem across the board for 
veterans that they're experiencing?
    In one of the previous panels, actually, Mr. Gunderson said 
that the number one complaint that he received at the school 
done in Virginia was payment from the VA.
    So, we're talking about aggressive or deceptive actions 
here, I mean, is there any way--do we even have any categories? 
Is this what the Executive Order is requesting? Is that what 
we're going to get? Any comments?
    Mr. Gebhart. We don't have a database, but we have the data 
points. Every time we did a visit, we would know what we had 
seen and what we had done. That was transmitted to VA if there 
were issues, but we don't have a nationwide database. I don't 
believe VA does, but I'm not sure.
    General Worley. Mr. Chairman, I'm not sure if we have a 
database to get at what you're asking. But, again, as these 
things are identified as we go along, the more serious issues 
are addressed. Smaller issues are also addressed that aren't to 
the degree of withdrawal or a suspension of a school as Mr. 
Gebhart has described, so there's a lot of corrective actions 
that happen along the way to help educational institutions 
comply with what they're supposed to be doing.
    Mr. Stutzman. I guess what I'm trying to find is the number 
one complaint that we heard from all three panels, the one that 
was mentioned was payment issues. What else out there--what 
other problems are we hearing about that veterans are 
experiencing? We're hearing aggressive tactics, deceptive 
tactics. Are veterans experiencing disappointment in the 
services that they receive? How are we going to address that? 
Is there a plan?
    General Worley. Well, as you know, Congressman, there are 
many--I'm sorry, Mr. Chairman, there are many avenues for 
veterans to make their complaints known to us and then we 
address those either through our call center or the Web site 
and we take actions on that.
    Whether they are issues with payments or issues with 
timeliness, again, we work hard to process the claims in a 
timely way and to pay accurately. And we're, occasionally, of 
course, like all humans we might make a mistake and we work to 
correct that and restore, the proper benefit to the veteran.
    Mr. Stutzman. Would you say that the VA has tools already 
in place to deal with bad apples out there if there's an 
egregious case that you can deal with them? Are there schools 
that already have had payments withdrawn or are taken out of 
eligibility?
    General Worley. There are schools who have either been 
suspended or withdrawn as GI Bill approved schools, based on 
things found either through compliance surveys or through State 
inspections or reviews, yes sir.
    Mr. Gebhart. Mr. Chairman, if I may give an example, I 
think too--to back up just a moment, VA has done a fantastic 
job of dealing with an extremely complicated benefit package 
and initially there were lots of difficulties as there were 
with every GI Bill and getting payments out. Things are going 
much, much better.
    It's the same thing if you ask a military member, how's the 
food in the chow hall? They're going to say well, it's not 
mom's home cooking. If you ask them how their VA payments are 
going? Well, it's not fast enough. That's a fact of life. There 
are some legitimate concerns, VA is working on them. VA works 
quickly and well to try to resolve individual situations.
    And then I lost my train of thought.
    General Worley. Keep going.
    Mr. Gebhart. Yeah, keep going. In any case, VA is doing a 
good job of catching up on things. I think at the school level 
there is frustration among the schools because they're not 
getting the help they used to get from State approving agencies 
because we're not out there as much.
    And, yes, we may visit them, we may do a compliance survey 
if VA assigns one to us, but under our contract we will not be 
reimbursed for the cost of making those kinds of visits unless 
they're compliance surveys.
    So, that's why we're saying we're not doing the oversight 
that we used to do, because we can't afford to do it. You know, 
we don't have State money that's flowing into our pockets. We 
are reimbursed for the contracts we have, in essence, with 
Congress through the VA. So, that has been limited and we can't 
make the kinds of visits we used to make.
    We would like to be out there more. We would like to head 
off the problems. We can fix them on the spot. We notify VA of 
the problems we find and sometimes they have to do a compliance 
survey.
    Just as a bit of background, I was with VA for 23 years, I 
started doing compliance surveys in 1975 and I was on two that 
ended very badly for the schools. We closed one school 
completely, it was a private proprietary operation that was 
just not a good thing. And we came very close to closing a 
public community college and we cost a president his job 
through the State approving agency back then.
    This is not new stuff, it's complicated more by Chapter 33, 
the post 911 GI Bill and the many ways payments are made and so 
on.
    It's not that terribly new, but with VA and the SAA's 
working together in the past, those problems have been dealt 
with for 65 years.
    Now, when--we have not been in that kind of partnership 
recently. We want to be. We want to be able to help VA. We want 
to be able to say we're looking at the educational quality, 
we're looking at all those things, we're looking at 
appropriateness of reporting. Let VA look at the 
appropriateness of their payments. We don't feel we should be 
auditing a Federal systems payments or a Federal entitlement 
programs payments, which is, in essence, what we're doing with 
these new compliance surveys.
    We are more than happy to provide them all the information 
they need from our campuses to do their audits and we would 
welcome the chance to continue that relationship, but do it for 
all of our schools like we've been doing.
    Mr. Schatz. I might add--I'm sorry.
    Mr. Stutzman. Sure.
    Mr. Schatz. If I might add, historically there was a period 
of time that when some of the states, including my state, the 
State of Missouri, Oklahoma in the reign of on the job training 
and apprenticeship, we did--we had data gathering assignments 
and we assisted with the compliance on that end, which is, I 
think, is basically what Skip is speaking to as a possibility 
in the future and this worked extremely well. That practice, at 
some point, was abandoned, but it was successful.
    Mr. Stutzman. Okay. Thank you. Mr. Braley, any further 
questions or comments?
    Mr. Braley. Just a couple. Mr. Gebhart, that chow in the 
chow hall may not be like mom's home cooking, but my impression 
is it's a heck of a lot better than it used to be.
    Mr. Gebhart. I understand it's improved, yes.
    Mr. Braley. And General Worley, I just want to follow-up a 
little more question with you. I recently had the honor of 
flying to Iwo Jima with 12 World War II veterans who served 
there with my dad 67 years ago. One of them is the president of 
the University of Richmond.
    And these were the original beneficiaries of the GI Bill. 
And Holly Petraeus' September 21st, 2011 article in The New 
York Times--she wrote one of the most egregious reports of 
questionable marketing involved a college recruiter who visited 
a Marine barracks at Camp Lejeune, North Carolina. As the PBS 
program Frontline reported the recruiter signed up Marines with 
serious brain injuries. The fact that some of them couldn't 
remember what courses they were taking was immaterial as long 
as they signed on the dotted line.
    When I read that I get furious, because we dishonor every 
veteran when we allow practices like that to take place and 
don't find an effective way to swiftly and appropriately punish 
people who would do that to the men and women who defend this 
country.
    So, I'm going to give you the last word and ask you, how do 
we do a better job once these practices are identified, in 
getting that information to the appropriate agency for swift 
and effective corrective action?
    General Worley. Thank you, Ranking Member Braley. As a 
veteran myself with a son who's actually stationed at Camp 
Lejeune, I couldn't agree with you more.
    The particular issue that you talk about should be 
addressed as part of this Executive Order, perhaps not newly 
identified necessarily, but on the Department of Defense side, 
as you know, the Executive Order will require more focus on 
access to educational institutions going on to military 
installations, to put more rigor behind even letting the access 
happen in the first place,--in addition, as you know, the 
Executive Order talks about enhancing the enforcement, some 
kind of centralized complaint process. This will take some work 
and collaboration between the various agencies because we have 
one version or another of a complaint system that we use to try 
to address complaints by veterans or try to address these types 
of issues. Bringing that together would be some significant 
work that needs to be done in order to implement the provision 
of the Executive Order. And we stand ready to work those kinds 
of issues vigorously. Thank you.
    Mr. Braley. Thank you.
    Mr. Gebhart. Can I have about 30 seconds?
    Mr. Stutzman. Yes.
    Mr. Gebhart. Regarding such practices we will take action 
immediately. An example is, in my own state, a large private 
non-profit university, whose accreditation is now under severe 
scrutiny because the nursing program accreditation was 
withdrawn by the nursing board.
    My first action was to withdraw their approval for GI Bills 
in the program. The Higher Learning Commission has come in, for 
a study on campus. They will be meeting in June to consider 
that school's entire accreditation. If they take that away, my 
first step would be to withdraw their approval as well, then 
ask them to apply as a non-accredited school and take a hard 
look at what they're doing.
    So, if we know about things like that, if we're told that, 
we do take action. A similar case in Texas, I think--and I 
can't think of the name of the school, but our State Approving 
Agency in Texas immediately suspended that school because of 
the violation. So, when we find about things, action is taken. 
It's a question more of how we find out and those things are 
very difficult to see from looking at school's paperwork. Thank 
you.
    Mr. Stutzman. Thank you very much. I apologize for the 
microphone situation. I want to thank you for being here, for 
your service and testimony today. We, obviously, know the 
challenge that we face in that our veterans aren't getting the 
service that they deserve or expect.
    And if there's nothing further, I think I'm going to go 
ahead and call the meeting. I want to thank everyone that's 
here and testified today. I ask that all members have five 
legislative days in which to revise and extend their remarks 
and include any extraneous material in regards to today's 
hearing. Without objection. This hearing is adjourned.

    [Whereupon, at 5:10 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

          Prepared Statement of Hon. Marlin Stutzman, Chairman
    Good afternoon everyone.
    As you all likely know, there has been considerable discussion on 
the other side of Capitol Hill and in the press about instances of 
questionable practices by schools as well as the need to increase 
transparency to the operations colleges and universities.
    President Obama recently issued an Executive Order directing VA, 
the Department of Education, and DoD to take steps to improve the 
information and services available to veterans and to police the 
college education market.
    We are here today to listen to many of the stakeholders involved in 
veteran education and I am eager to hear from them regarding the 
possible effects of the President's order.
    I would note that the Executive Order contains some elements in 
legislation we considered in our March hearing, introduced by Mr. 
Bilirakis and myself, as well as many other items. For myself, I am 
open to things that will add to veterans' ability to make informed 
choices while not reinventing the wheel.
    For example, the Department of Education's College Navigator Web 
site has 272 categories of data, many of which are further subdivided 
by various demographic and financial subcategories. After reviewing 
those categories, other than the number of veterans attending a school, 
I believe it would the rare veteran who would need more information to 
choose a school than now contained in those of 272 data points.
    Before we begin with the first panel, I would like to note that in 
reviewing today's testimonies, several witnesses have testified that 
there needs to be a coordinated effort on the part of the various 
oversight organizations.
    In my opinion, this Subcommittee's role in that effort should begin 
with ensuring that the membership of VA's Advisory Committee on 
Education reflects that need. We also must ensure that the Advisory 
Committee has the opportunity to present its views on these types of 
issues to the Secretary and Congress as required by 38 USC 3692.
    I am disappointed that since Congress revised the advisory 
committee's membership in Public Law 111-275, the Committee has not met 
in the past year and possibly longer. Therefore, I hope Director Worley 
will inform us of his plans to make use of the advisory committee.
    Also, in reviewing the membership of the advisory committee, I 
think we should consider bringing in some experts in compliance and 
enforcement and I look forward to working with the Ranking Member and 
the Subcommittee to enhancing the role of the advisory committee.
    I now recognize the distinguished Ranking Member for his remarks. I 
would note that as a graduate of both Iowa State University and the 
University of Iowa, he must have no difficulty getting tickets to 
autumn's civil war between the Cyclones and Hawkeyes. Since this is an 
election year, I will not ask him which school he roots for. Mr. 
Braley.

                                 <F-dash>
              Prepared Statement of Hon. Bruce L. Braley, 
                       Ranking Democratic Member
    Thank you Mr. Chairman for conducting this hearing today, I look 
forward to discussing the President's recently issued Executive Order.
    The purpose of the Post-9/11 GI Bill is to provide our 
servicemembers, veterans, and their dependents with access to a quality 
education. Although many policy changes have taken place since the 
implementation of the Post-9/11 GI Bill, we continue to provide 
oversight on this generous veterans education benefits. And we owe it 
to veterans and taxpayers to make sure money for this program is being 
spent wisely.
    Veterans deserve to have accessible, standardized information 
regarding educational institutions and degree programs in order to make 
informed choices on how best to get the education they have earned 
under the Post-9/11 GI Bill. Unfortunately, I have heard some reports 
of aggressive and deceptive targeting of servicemembers and veterans by 
some educational institutions.
    As US Supreme Court Justice Louis Brandeis famously stated, 
``sunlight is the best disinfectant.'' I agree, and that is why I am 
pleased the Administration is trying to address these abuses through an 
Executive Order that provides servicemembers and veterans with the 
information they need to make informed choices and to find the best 
educational institutions and course of study that are right for them.
    The Executive Order was prompted in part by a call for action from 
thirteen different veteran and servicemember groups when they wrote a 
memo called the ``Military & Veteran Students Educational Bill of 
Rights.'' The order establishes Principles of Excellence for 
educational institutions. These Principles provide added enforcement, 
oversight, and most importantly transparency for prospective students 
seeking to use their Post-9/11 GI Bill.
    The Principles would require that educational institutions collect 
and provide information to help prospective students make an informed 
decision when deciding on an educational program. Participating 
institutions will provide detailed information such as a ``Know Before 
You Owe'' form, which discloses information about tuition and fees, 
financial aid, estimated student loan debt upon graduation, and 
graduation rates.
    These Principles will aid in making informed educational decisions. 
By providing needed information in an easily-accessible form, Executive 
Order 13607 will help curb fly-by-night recruiting techniques, and 
provide protections to servicemembers whose deployment may require 
short absences.
    This information is critical for veterans, a good number of whom 
may be the first in their families to attend college. It is imperative 
that we provide these veterans, and all of our veterans, with the tools 
they need as they work their way through the college application 
process.
    I do not believe there is such a thing as ``too much information'' 
to provide veterans and servicemembers making decisions that will 
affect the rest of their lives.
    I look forward to hearing from our witnesses and from the VA on the 
steps they are taking to implement this Executive Order and make the 
Post-9/11 GI Bill the keystone veterans benefit for the 21st Century.
    Thank you Mr. Chairman and I yield back.

                                 <F-dash>
                     Prepared Statement of Joe Wynn
INTRO:
    Good Afternoon, Chairman Stutzman, Ranking Member Braley, other 
members of this Subcommittee, fellow veterans, and guests.
    Let me first thank you for the opportunity to come before you on 
behalf of the veteran's organizations I represent to share some of my 
views on the President's recent Executive Order #13607 entitled 
``Establishing Principles of Excellence for Educational Institutions 
Serving Service Members, Veterans, Spouses, and other Family Members'' 
and its impact on schools and veterans.
    With more and more reports coming out over the past 2 years about 
how For-Profit Colleges and Institutions that receive GI Bill funding 
are providing a disservice to students who are veterans; this Executive 
Order is a generous step towards offering an opportunity for these 
institutions to rectify this situation before pending legislation is 
passed that will impose more severe regulatory remedies.
    Though my time of service was many years ago, as a veteran of the 
US Air Force with the 66th Strategic Missile Squadron, I still have 
very vivid memories of the military experience. I also remember quite 
well the tough time I had finding employment after going to a For-
Profit Institution that provided no placement assistance and counseling 
though they advertised that that would. My experience just serves as an 
example of what many veterans from Iraq and Afghanistan have been going 
through in the past few years.
    According to recent reports by the Government Accountability 
Office, the National Bureau of Economic Research and Harvard University 
researchers, students at For-Profit Colleges have lower success rates 
than similar students in public and nonprofit colleges. Reports also 
show lower graduation rates, employment outcomes, with higher debt 
levels and loan default rates. Ongoing analysis being done by the U.S. 
Senate Committee on Health, Education, Labor and Pensions (HELP 
Committee) shows that the For-Profit Colleges receiving the largest 
sums of money also have a large number of students dropping out.
    Since our young men and women stepped up to serve this country 
following the devastating attack on our nation on 9/11; many returning 
as veterans who served with honor, and many who received distinguished 
honors for displaying valor and courage during their periods of 
military service for this country; they don't deserve to be taken 
advantage of. Every effort should be made by every institution, 
government agency, and commercial enterprise to ensure that these 
veterans receive all of the benefits they are entitled to and deserve.
    A new generation of veterans now exists; they are well trained, 
loyal, battle-tested and under-employed. `As a Nation, we have been 
unsuccessful in providing the originally promised assistance our 
veterans have earned, deserved, and required so that they would have 
the opportunity to be as successful in their civilian pursuits as they 
were in their military assignments.' (VET-Force Report to the Nation 
2012)
CAVEAT EMPTOR for VETERANS
    Caveat Emptor is a Latin phrase for ``Let the buyer beware.'' The 
term is primarily used in real property transactions meaning that the 
buyer must perform their due diligence when purchasing an item or 
service. In other words, consumers need to know their rights and be 
vigilant in avoiding scams. For example in the private purchase of a 
used car, the onus is on the buyer to make sure the car is worth the 
purchase price because once the transaction is complete the buyer will 
not receive a warranty or return option to the seller.
    But when it comes to shopping for an education, a student/veteran 
should not have to be treated as if they are buying a used car. They 
need to be given all of the information regarding tuition and fees up 
front before they enroll in a program of study. They should not be 
burdened with additional fees after completion of the program that they 
were not aware of initially or that would not be covered by other 
funding sources.
    Students/Veterans should be made well aware of the quality of the 
education offered and their potential for employment pending the 
successful completion of a selected program of study. Counselors should 
be readily available to provide academic advice.
    While For-Profit Colleges play an important role in educating 
students who may not qualify for traditional schools, over the last 
decade, far too many institutions have been cited for burdening 
students with ruinous debt. A report from the Government Accountability 
Office disclosed that fraudulent or deceptive practices were used at 
all 15 of the For-Profit Colleges visited by investigators posing as 
prospective students. Some college officials encouraged applicants to 
falsify financial aid forms and students were also pressured into 
signing enrollment contracts before they were allowed to speak to 
financial aid representatives who would clarify costs.
    According to a New York Times Editorial dated 9/11/10, the programs 
offered at the For-Profit Colleges were substantially more expensive 
than comparable programs at nearby public colleges. In one example, a 
student who inquired about the cost of studying for a massage therapy 
certificate was told that $14,000 was a fair price, even though the 
local community college offered the same courses for $520.
    In addition, too many For-Profit Colleges have been cited for 
enrolling students who have no chance of graduating and tossing them 
out once that flow of aid is exhausted. According to a New York Times 
editorial dated July 28, 2010 the inspector general for the Department 
of Education told Congress that 70 percent of the department's higher 
education fraud investigations were focused on For-Profit Colleges. 
Schools have been caught falsifying data on student enrollment levels, 
attendance and eligibility requirements.
    And yet another Senate report found that many For-Profit Colleges 
spent suspiciously little money on teaching, while spending lavishly on 
recruiting, marketing and administrative costs.
PRINCIPLES OF EXCELLENCE
    Executive Order #13607 issued by President Obama attempts to 
establish a policy that will ensure that our nation's veterans, service 
members and their spouses will not be deceived by For Profit Colleges 
and that specific federal agencies will be directed to provide 
oversight and management of the benefit programs they use for 
educational training. For-Profit Colleges will have to establish fair 
and transparent practices that demonstrate how students/veterans are 
best served.
    For-Profit Colleges and Institutions that receive funding from GI 
Bill, TA, or MyCAA funding will be expected to adhere to a set of 
principles that include the following:

       (A) Provide information about the total cost of the educational 
program including amount of debt owed on any student loans after 
graduation;
       (B) Inform veterans about other forms of financial aid before 
advising them of private student loans;
       (C) End fraudulent and unduly aggressive recruiting techniques 
on and off military installations;
       (D) Obtain approval of the state accrediting agency for new 
courses prior to enrollment;
       (E) Allow service members to be readmitted if they had to 
suspend their attendance temporarily due to military service 
requirements;
       (F) Agree to a refund policy when veterans withdraw prior to 
course completion;
       (G) Provide a plan that details all the requirements needed for 
program completion and the time it will take to complete them; and
       (H) Designate a person(s) to provide counseling with regard to 
academics, financial aid, disabilities, and job searches.
RESPONSIBILITY for IMPLEMENTATION
    The agencies responsible for implementation of the Principles will 
be the Departments of Defense (DOD), Veterans Affairs (VA), and 
Education (EDU). Consultation will be provided by the Director of the 
Consumer Financial Protection Bureau and the Attorney General. These 
agencies will adhere to the following:

       (A) DOD and VA shall reflect these principles in new agreements 
with educational institutions regarding veterans; and VA shall notify 
all participating institutions that they are strongly encouraged to 
comply with the principles and shall post on the VA's website those 
that do;
       (B) The Secretaries of Defense, VA and EDU in consultation with 
the Director of the Consumer Financial Protection Bureau (CFPB) and the 
Attorney General - shall take immediate action to implement this order 
and within 90 days of the date of this order report to the President on 
the progress;
       (C) The Secretaries of Defense, VA and EDU shall develop a 
comprehensive strategy for developing student outcome measures and 
collecting info on the amount of funding received under the Post 9/11 
GI Bill and the Tuition Assistance Program and make them publically 
available; and
       (D) The Secretary of VA in consultation with the Secretaries of 
Defense and EDU shall provide streamlined tools to compare educational 
institutions using key measures of affordability and value through the 
VA's eBenefits portal and include school performance info, consumer 
protection info, and key federal financial aid documents all which 
shall be made available to veterans through education counselors.
ENFORCEMENT and COMPLIANCE MECHANISMS
    The Executive Order calls for the Secretaries of Defense and VA, in 
consultation with EDU, CFPB and the Attorney General to submit to the 
President a plan to strengthen enforcement and compliance mechanisms. 
The plan shall include proposals to:

       (A) Create a centralized complaint system;
       (B) Institute uniform procedures for receiving and processing 
complaints across the State Approving Agencies;
       (C) Institute uniform procedures for referring potential matters 
for civil or criminal enforcement to the Dept. of Justice and/other 
relevant agencies;
       (D) Establish procedures for targeted risk-based program reviews 
of institutions to ensure compliance with the Principles;
       (E) Establish new uniform rules and strengthen existing 
procedures for access to military installations by educational 
institutions;
       (F) Take all appropriate steps to ensure that websites and 
programs are not deceptively and fraudulently marketing educational 
services and benefits to program beneficiaries, including a process to 
protect the term ``GI Bill'' and other military or veteran-related 
terms as trademarks, as appropriate.
IMPACT on SCHOOLS and VETERANS
    As referenced herein, this Executive Order offers For-Profit 
Colleges and institutions an opportunity to improve their performance 
before stricter legislation is passed. If they desire to achieve the 
goals proposed in the Executive Order, compliance should not be 
difficult. Though I suspect that there will be some resistance since 
doing the right thing will undoubtedly affect their bottom line. But 
these educational institutions have to be held accountable.
    Any laws, policies or regulations that will serve to improve the 
likelihood of success for our veterans, military members or their 
families will obviously be well received by them. However, the agencies 
directed to take actions under the Executive Order have to fully and 
continually implement the Principles of Excellence dutifully such that 
all veterans are able to utilize the educational benefits to the 
maximum extent possible.
NEED for MORE LEGISLATION
    The Executive Order does not address the use of federal aid dollars 
that has led many admissions officers to use aggressive recruitment 
strategies targeted to veterans, military members and their spouses 
using the GI Bill, the Tuition Assistance (TA) program, or the Military 
Spouse Career Advancement Accounts (MyCAA) program for funding. Until 
the law is changed GI Bill benefits, TA and MyCAA funds still do not 
technically count as federal education benefits under the U.S. 
Department of Education's 90-10 rule.
    There are at least 2 bills pending that attempt to address this 
long-standing requirement that no more than 90 percent of a For-Profit 
College's revenues can come from federal financial aid. The rationale 
is simple, make GI Bill, TA and MyCAA funding less desirable and 
thereby lessen the predatory tactics used to obtain them.
    Other pending legislation by Senators Webb and Murray appear to 
strengthen the Principles of Excellence referred to in the Executive 
Order. Both Bills were pending prior to the execution of the Executive 
Order and include some of the same or similar principles. Under Webb's 
Bill additional requirements would include: (1) Expanding the training 
responsibilities of the State Approving Agencies by requiring them to 
conduct outreach activities to veterans and members of the Armed 
Forces, to conduct audits of schools, and to report those findings to 
the Secretary of Veterans Affairs; (2) Support services; (3) Compliance 
reviews; (4) Interagency coordination; and (5) Title IV eligibility.
    Under Murray's Bill additional requirements would include: (1) 
Information availability; (2) Counselors for Education and Veterans 
Benefits on site; and (3) Curbing misleading marketing and aggressive 
recruiting.
IN CONCLUSION
    This Congress cannot continue to allow For-Profit Colleges and 
institutions in America to be so big that they can be allowed to take 
advantage of the citizenry of any State, including military veterans, 
members of the Guard or Reserves, veterans disabled in or after 
service, women veterans, Black veterans, minority veterans nor veterans 
homeless or of limited means. Congress needs to provide support to 
reinforce or expand the Principles of Excellence as put forth in 
Executive Order #13607 for the benefit of the persons it is designed to 
serve.
    This concludes my statement.

Executive Summary

    With more and more reports coming out over the past 2 years about 
how For-Profit Educational Institutions that receive GI Bill funding 
are doing a disservice to students who are veterans; Executive Order 
#13607 entitled ``Establishing Principles of Excellence for Educational 
Institutions Serving Service Members, Veterans, Spouses, and other 
Family Members'' is a generous step towards offering an opportunity for 
these institutions to rectify this situation before pending legislation 
is passed that will impose more severe regulatory remedies.
    According to recent reports by the Government Accountability 
Office, the National Bureau of Economic Research and Harvard University 
researchers, students/veterans at For-Profit Colleges have lower 
success rates than similar students in public and nonprofit colleges. 
Reports also show lower graduation rates, employment outcomes, with 
higher debt levels and loan default rates. Ongoing analysis being done 
by the U.S. Senate Committee on Health, Education, Labor and Pensions 
(HELP Committee), shows that the For-Profit Colleges receiving the 
largest sums of money also have a large number of students dropping 
out.
    Enrollment at For-Profit Colleges and trade-schools has tripled in 
the last decade to about 1.8 million, or nearly 10 percent of the 
nation's higher education students. Evidence collected over the past 
few years shows that For-Profit Colleges are misrepresenting their 
programs and tuition costs. Rates are far higher than at public and 
nonprofit institutions. And these schools, partly because they serve 
poorer students who often need more supportive services, receive almost 
a quarter of the federal aid.
    It appears to be those federal aid dollars that has led many 
admissions officers to use aggressive recruitment strategies targeted 
to students who don't qualify academically for traditional colleges and 
who have no chance of graduating and veterans, military members and 
their spouses using the GI Bill, the Tuition Assistance (TA) program, 
or the Military Spouse Career Advancement Accounts (MyCAA) program for 
funding.
    You see, since GI Bill benefits, TA and MyCAA funds do not 
technically count as federal education benefits under the U.S. 
Department of Education's 90-10 rule. An institution can increase 
enrollments of veterans, military members and their spouses without 
violating a rule that is based on a long-standing requirement that no 
more than 90 percent of a For-Profit College's revenues can come from 
federal financial aid. Thus, these institutions are receiving billions 
of dollars in federal financial aid and still more in GI Bill, TA and 
MyCAA funding. It's no wonder why these institutions have been 
receiving increased profits in recent years.
    In light of these findings, it's troubling to read news that For-
Profit Colleges are being allowed to continue these types of practices 
with little or no accountability. No wonder why the Obama 
administration wants to impose stricter operating rules for these For-
Profit Schools and have them establish Principles of Excellence.

                                 <F-dash>
                 Prepared Statement of Ryan M. Gallucci
    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:

    On behalf of the more than 2 million men and women of the Veterans 
of Foreign Wars of the U.S. (VFW) and our Auxiliaries, I would like to 
thank you for the opportunity to testify on the President's recent 
executive order, ``Establishing Principles of Excellence for 
Educational Institutions Serving Service Members, Veterans, Spouses and 
Other Family Members.'' The VFW has been one of the leading voices on 
Capitol Hill working to ensure that our service members and student-
veterans receive the educational opportunities they have been promised, 
and we are happy to see that this Subcommittee takes this issue 
seriously.
    A recent Senate investigation and a series of GAO reports have 
indicated that certain institutions of higher learning make a concerted 
effort to recruit military and veteran students into their programs 
with no intention of conferring relevant educational credentials. While 
arguments can be made as to the validity of these claims, the fact 
remains that these reports have created a perception in Washington that 
taxpayer dollars used to fund military and veterans' education programs 
have gone to waste and veterans are not receiving the education we 
promised to them. During these difficult fiscal times, deficit hawks in 
Washington have seized on this opportunity, looking for ways to scale 
back these critical programs designed to mold a new generation of 
American leaders. Last fall, both the House and Senate Veterans Affairs 
Committees asked the Congressional Budget Office to score a series of 
scenarios to scale back the Post-9/11 G.I. Bill, and included one such 
scenario as a potential cost-savings measure in a ``Four Points'' 
letter to the Joint Select Committee on Deficit Reduction. The U.S. 
Marine Corps also announced that it would pare down its Tuition 
Assistance program--a decision that Marine Corps leaders later 
rescinded. To the VFW, threats to the continued viability of the Post-
9/11 G.I. Bill and military tuition assistance programs are very real, 
which is why we have encouraged the House, Senate and Administration to 
take quick, decisive action.
    On April 27, the Administration took a bold first step in ensuring 
our veterans receive the quality education we promised by signing 
Executive Order #13607, and the VFW vocally supported this effort. Now, 
we encourage Congress to follow the Administration's lead and pass the 
education protection bills now before the committees of jurisdiction.
    Since late last year, the VFW has consistently worked to build 
consensus among the veterans' community and various sectors of higher 
education to better understand the educational landscape encountered by 
our student-veterans and to improve the information with which 
potential student-veterans make academic decisions. In January, the VFW 
spearheaded an effort calling on the House, Senate and the 
Administration to improve front-end consumer education for student-
veterans and to codify complaint processes for student-veterans who 
believe they were victims of fraud, waste or abuse. The letter, which 
was co-signed by many of today's key witnesses, served as one of the 
building blocks of the executive order and has been submitted as an 
appendix to our testimony today.
    As a direct result of this effort, bills have been drafted in both 
the House and Senate that seek to codify exactly how VA can improve its 
consumer education and consumer protection practices. Executive Order 
#13607 reflects many of the ideas included in these bills, and the VFW 
believes it offers VA, Department of Defense and Department of 
Education the opportunity to jump start their collaborative efforts to 
better serve our nation's student-veterans in advance of these 
potential new laws. Some in Congress and in the media balked at the 
executive order, but the VFW unequivocally supports the President's 
efforts to exert his authority over his executive agencies within the 
current limits of the law.
    From conversations with VA and educational leaders leading up to 
April 27, the VFW believes that many of the policy recommendations and 
principles outlined in Executive Order #13607 are already in the works. 
The President's message will now serve as the impetus for agencies to 
act now.
    Executive action, by nature, can be very limited in scope and 
progress can be difficult to assess. With this in mind, the VFW concurs 
with many of our veterans' service organization partners that we must 
establish a formal advisory committee among veterans' advocates to 
routinely monitor progress on implementation and hold agency officials 
accountable for shortcomings, similar to the Advisory Committee on 
Veterans' Entrepreneurship. We also encourage this Committee to host a 
subsequent hearing on Executive Order #13607 at the 90-day mark from 
implementation, at which time VA, DOD and Department of Education can 
provide specific details on progress.
    As VA, DOD, and Department of Education now must lay the groundwork 
for carrying out Executive Order #13607, the VFW would like to explain 
the rationale behind certain provisions of the executive order and how 
we believe the agencies and schools should go about implementing them.
    First, the VFW has heard concerns from schools over potential 
administrative hurdles to comply with new ``Principles of Excellence'' 
established in the executive order. Fortunately, the VFW believes that 
many of these principles will be explicitly codified in the DOD 
Memorandum of Understanding now required for schools to participate in 
the military's tuition assistance program. With schools already 
agreeing to comply with these new standards, the VFW recommends that VA 
adopt similar principles and establish information-sharing protocols 
with DOD to minimize the administrative burden for schools and ensure 
that quality information is available across all departments. The VFW 
recognizes that a failure to adhere to these new standards will not 
preclude schools from their eligibility to receive G.I. Bill dollars. 
The role of State Approving Agencies to inspect and approve academic 
programs must remain intact, and schools will still be listed in the 
WEAMS database. However, VA will now have the leverage to offer 
comprehensive information on schools and programs that see the value in 
participating, offering better information with which student-veterans 
can make a data-driven educational decision.
    Second, the executive order calls on VA to provide data comparison 
tools to student-veterans prior to accessing G.I. Bill benefits through 
the eBenefits portal. This is the direct result of a VFW 
recommendation. The VFW understands that VA seeks to ensure that all 
beneficiaries will be enrolled in eBenefits; meaning access to VONAPP 
and all benefit services will be conducted through the secure server. 
This offers VA a unique opportunity to ensure that veterans have access 
to quality information before they even start to fill out their online 
application. However, the VFW must clarify that a simple link to the 
200-plus data points on College Navigator is insufficient to satisfy 
this data comparison requirement. We argue that College Navigator is 
too difficult to understand and most of the information available is 
completely irrelevant for a potential student-veteran. The VFW 
recommends that VA identify at least five, but no more than 10, 
specific data points with which veterans can compare educational 
programs. We look forward to engaging with VA on exactly which data 
points would be most beneficial to a potential student-veteran, and 
continuing our discussions on how to best implement this provision of 
the executive order.
    Third, the VFW has heard concerns from schools about the proposed 
anonymous complaint process for student-veterans, which we must 
address. The genesis of this concept came from a meeting last fall 
where VA administrators admitted that the agency lacked a formal 
complaint process for student-veterans who believed they were victims 
of fraud, waste and abuse; and that VA lacked the ability to formally 
track and resolve any such complaints. As a result, the VFW and our 
partners in the veterans' community called for a formal complaint 
process and responsible redress mechanisms for student-veterans 
administered by VA. The VFW believes this new complaint process can be 
easily integrated into the current 1-800-GIBILL-1 hotline and the 
eBenefits portal. To the VFW, the ``anonymous'' process only means that 
a student's personally-identifiable information (PII) must be protected 
to ensure students will not face retribution from their school. This is 
similar to Department of Education policies, which must, by law, 
similarly protect student PII. However, the VFW believes that the VA 
must be able to verify a complainant's G.I. Bill status and enrollment 
status at an institution before taking action on behalf of a veteran. 
The VFW also believes that the formal complaint process must be 
conducted in a responsible manner, ensuring that students have properly 
exercised other available avenues of recourse before seeking VA 
intervention. The VFW suggests that VA establish a threshold question 
asking student-veterans who seek to file a complaint whether or not 
they have already sought to resolve their issue with their school 
administrators. The VFW does not want to see a witch hunt against 
schools, but we do believe that student-veterans are entitled to proper 
recourse through the fiduciary of their benefit - VA.
    Finally, the VFW must address the issues facing State Approving 
Agencies (SAAs), who are responsible for ensuring that only quality 
programs are approved for G.I. Bill participation. This has been a sore 
point for the VFW since the implementation of the Post-9/11 G.I. Bill 
and the subsequent changes to the traditional roles of the SAAs. While 
the executive order calls for the role of SAAs to be codified within 
the complaint process, the VFW believes more must be done to ensure 
that the front-line troops in education accountability have the 
policies and resources in place to do their jobs. The VFW calls on this 
Committee to host a subsequent hearing on the role of the SAAs to 
ensure that policies are clear and relevant, to formally evaluate the 
SAAs' relationship with VA, and to ensure that proper resources are 
allocated to responsibly fulfill the mission of the SAAs.
    The VFW recognizes that Executive Order #13607 is just the first 
step in ensuring our student-veterans have the consumer education and 
consumer protection resources they need to succeed in higher education. 
Executive orders can go away. We still need protections outlined in 
code to ensure that we can best serve our student-veterans. The Post-9/
11 G.I. Bill stands to be a transformative benefit for this generation 
of war-fighters, helping to mold our nation's Next Greatest Generation 
of leaders. We must protect this benefit at all costs. Unfortunately, 
over the last few months, the VFW and our partners in veterans' 
advocacy have felt hamstrung by an overwhelming lack of quality 
information on student-veterans to either confirm reports of fraud, 
waste and abuse, or to demonstrate student-veteran success in G.I. Bill 
programs. Many of the provisions of Executive Order #13607 and the 
bills currently before Congress will help to gather this kind of data 
to help ensure future viability of the program and continued student-
veteran success in higher education. We hope that the executive order 
will motivate Congress to quickly move legislation through both the 
House and Senate to protect our nation's investment and ensure success 
for our student-veterans.
    Mr. Chairman, this concludes my statement and I am happy to answer 
any questions the Subcommittee may have.
Appendix:
                      Serving our Student Veterans
                            February 2, 2012
    President Barack Obama
    1600 Pennsylvania Avenue
    Washington, DC 20006

    Dear Mr. President:

    On behalf of the undersigned advocates in veterans' education, it 
has come to our attention that many veterans choosing to pursue higher 
education are actually becoming victims of institutions that fail to 
fulfill their obligations to educate veterans eligible for the Post-9/
11 G.I Bill. In an effort to rein in bad actors across all sectors of 
higher education, we urge your Administration and Congress to develop 
and reform two key areas that will foster responsible decision-making 
and protect veterans who seek to use their G.I. Bill benefits. At a 
minimum, we ask you to respectfully consider these two ideas: Mandating 
upfront counseling and developing a formal complaint process.
    First, we believe VA has an obligation to ensure veterans receive 
all of the educational counseling to which they are entitled under 
Chapter 3697A of Title 38. VA must mandate this kind of up-front 
counseling to student-veterans who use any chapter of the G.I. Bill; 
particularly the robust Chapter 33 benefit. Only with proper counseling 
can student-veterans make informed decisions about their benefits and 
how best to meet their educational goals. Mandatory counseling could be 
accomplished in a variety of ways, whether it is through the TAP 
program, VA's eBenefits portal or other available outlets; but the 
counseling must take place before veterans choose to enroll in an 
academic program. Veterans who wish to waive this counseling should 
still have this option through an ``opt-out'' system during the G.I. 
Bill application process, but the current ``opt-in'' system, which less 
than one percent of G.I. Bill beneficiaries utilized in 2010, leaves 
many student-veterans inadequately prepared for academic life.
    Second, to better understand the scope of problems facing today's 
student-veterans, VA must establish a system to process and track 
student complaints through existing infrastructure at the VA call 
center, as well as an online portal, where student-veterans can 
formally file complaints about benefits and report fraud, waste, and 
abuse. Veteran complaints should be assigned a case file number and 
tracked as VA works with State Approving Agencies, accrediting 
agencies, individual schools, the Departments of Education, Justice, 
Defense, and other agencies to find resolutions to their problems. A 
clearing house for documented consumer complaints will allow VA and 
other stakeholders to take decisive action against fraud, waste, or 
abuse when necessary. Currently, student-veteran conflicts are resolved 
on an ad-hoc basis with little communication among stakeholders.
    Our coalition thanks you for your attention to these issues, and we 
stand ready to assist, ensuring that our brave service members receive 
the educational opportunities they have earned. These two proposals are 
critical first steps in accomplishing this goal, while preserving 
student-veteran choice in the marketplace. Thank you for taking the 
lead on this initiative and for your continued support of our armed 
forces and veterans. We look forward to working with you.

    Sincerely,

    Signature blocks enclosed

    Jerome H. Sullivan
    Executive Director
    American Association of Collegiate Registrars and Admissions 
Officers

    Terry W. Hartle
    Senior Vice President
    American Council on Education

    Tim Tetz
    Legislative Director
    American Legion

    Brian J. Moran
    Interim President & CEO
    General Counsel
    Association of Private Sector Colleges and Universities

    Tom Tarantino
    Deputy Policy Director
    Iraq and Afghanistan Veterans of America

    Joyce E. Smith
    Chief Executive Officer
    National Association for College Admission Counseling

    Chad Schatz
    President
    National Association of State Approving Agencies

    Michael Dakduk
    Executive Director
    Student Veterans of America

    William Pepicello Ph.D.
    President
    University of Phoenix

    Raymond C. Kelly
    Legislative Director
    Veterans of Foreign Wars of the U.S.

 Information Required by Rule XI2(g)(4) of the House of Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2012, nor has it 
received any federal grants in the two previous Fiscal Years.

                                 <F-dash>
                  Prepared Statement of Tom Tarantino
    Mister Chairman, Ranking Member, and members of the committee, on 
behalf of Iraq and Afghanistan Veterans of America's 200,000 Member 
Veterans and supporters, thank you for inviting me to testify on the 
President's Executive Order establishing principals of excellence for 
education.
    My name is Tom Tarantino and I am the Deputy Policy Director at 
IAVA. I proudly served 10 years in the Army beginning my career as an 
enlisted Reservist, and leaving service as an Active Duty Cavalry 
Officer. Throughout these 10 years, my single most important duty was 
to take care of other soldiers. In the military they teach us to have 
each other's backs and, although my uniform is now a suit and tie, I am 
proud to work with this Congress to continue to have the backs of 
America's service members and veterans.
    IAVA welcomes and supports Executive Order No.13607, which will 
help empower student veterans to make educational choices that meet 
their needs. We believe that with proper implementation, this order 
will begin to provide veterans and their families with clarity about 
their educational choices. We also believe that this order complements 
several more robust legislative initiatives already under consideration 
in both the House and the Senate. By signing this executive order, the 
President has initiated a process that, if addressed by legislation 
alone, the various agencies would have to wait months to work on. We 
firmly believe that sound implementation of this executive order 
coupled with passage of bills offered by this Committee and your 
counterpart in the Senate will provide timely clarity for student 
veterans about their educational choices. In addition, it will prevent 
consumers from falling pray to bad information and predatory practices 
in higher education.
    Thoughtful implementation of this executive order will be the key 
to its success and the potential success of any forthcoming legislative 
initiatives. To achieve success, we must address two questions: 1) What 
are the outcomes that consumers need to make sound choices? 2) How will 
benefits and/or federal aid pay for the education that veterans and 
service members need?
    For most students, chosing a school is not a data-driven process. 
This is largely due to the lack of usable consumer information 
available to prospective students. While schools are required to report 
a wide range of information to the Department of Education, there is no 
clear way to synthesize that information into a usable tool to empower 
consumers to make choices that fit their needs. The National Center for 
Education Statistics' College Navigator is a tool that displays 
hundreds of data points. However, the information that is displayed is 
not clear, uniform or useful to consumers deciding where to spend their 
GI Bill dollars. Furthermore, an even cursory review of College 
Navigator exposes broad inconsistencies in the information reported to 
the Department of Education. For example, Patten College is a private 
nonprofit college in Oakland, CA. A review of their data from College 
Navigator shows an unremarkable demographic distribution of students 
(See tables below). However, when you look at graduation rates, the 
data indicates that of the 64% of students who graduate all are Asian 
females. Either there happens to be a strong cultural bias in the 
curriculum of Patten University, or the information on College 
Navigator is not displayed or reported in a usable manner. While this 
is an extreme example, inconsistencies like this are common when using 
College Navigator. It is clearly not designed to be a consumer 
education tool. Although I do not believe that this Executive Order 
will necessarily clean up bad reporting, it will expose schools that 
are reporting bad numbers and give consumers an indication that a 
school might not be entirely on the level.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    IAVA is also concerned about the multiple reported abuses from the 
for-profit industry. Currently, there is no clear method to separate 
schools that provide quality programs from the ones that are only 
trying to profit from veterans' benefits.
    Several for-profit colleges are valued participants in higher 
education. They provide veterans with a service that is not widely 
available in traditional non-profit universities, including online and 
vocational programs that offer highly technical degrees that are 
largely unavailable at traditional non-profit, public and private 
colleges. Essentially, they give veterans and their families the 
flexibility to obtain the career-ready education required to be 
competitive in the workforce.
    Unfortunately, it's difficult to separate the good actors from the 
bad actors in for-profit education. Many for-profit schools are 
excessively expensive, plagued with high drop out rates, and engage in 
very aggressive and sometimes deceptive marketing and recruiting 
practices targeted at veterans. By clearly displaying data on student 
success and engaging veterans with robust consumer education, we can 
separate the good schools from the bad actors and allow student 
veterans to make a more informed choices. While all for-profit schools 
are required to report gainful employment metrics, there is no uniform 
or usable way to synthesize that information for consumers. There are 
for-profit institutions like the East-West College of the Healing Arts 
(where my sister received an excellent education) that report student 
outcomes on their website in a full and useful manner (See table 
above). Their reporting is useful to prospective students, who want to 
understand how attending the school will affect their employment 
prospects after graduation. In contrast, finding data from the 
University of Phoenix is a laborious exercise in frustration. When 
using College Navigator to compare like programs at many of these 
institutions, the data often do not match up. This executive order does 
not solve all of the problems with the for-profit industry. However, 
coupled with legislation currently before Congress, it will help 
student veterans obtain the information they need to choose a quality 
degree that meets their needs.

        Full-Time Programs. Students who enrolled in the full-time 
        programs (4-term 600-hour, 4-term 801-hour and 5-term 1002-
        hour) from April 2008 through January 2009:
        <bullet>  124 began these programs, 103 completed these 
        programs
        <bullet>  The completion rate is 83%
        <bullet>  Of the 103 who completed these programs, 97 were 
        eligible for employment, and we were able to verify employment 
        for 70.
        <bullet>  The placement rate is 72%
        Part-Time Programs. Students who enrolled in the part-time 
        programs (6-term 600-hour, 6-term 801-hour or 7-term 1002-hour) 
        from July 2007 through April 2008:
        <bullet>  137 began these programs, 80 completed these programs
        <bullet>  The completion rate is 59%
        <bullet>  Of the 80 who completed these programs, 78 were 
        eligible for employment, and we were able to verify employment 
        for 57.
        <bullet>  The placement rate is 73%

    Even if this executive order coupled with legislation fixes 
the errors and inconsistencies with student outcome data, we 
must tie that data to a tool that student veterans can use to 
determine what benefits or aid they are eligible for and how 
they may be used to help pay for their education. For our part, 
IAVA has developed and successfully produced and distributed a 
free GI Bill calculator for veterans at www.newgibill.org. This 
calculator remains the only comprehensive tool available for 
prospective student veterans to determine how to best use their 
Post-9/11 GI Bill. Nothing like this calculator currently 
exists from the VA or Department of Education. Identifying 
metrics students can use to choose a college is important, but 
these ultimately must be coupled with the ability to determine 
how they can use their benefits to help achieve their goals.
    IAVA is also concerned with trademarking the phrase ``GI 
Bill.'' There is a clear problem with deceptive websites 
misusing the phrase GI Bill to mask marketing for services. 
Searching ``GI Bill'' on Google reveals pages of deceptive 
websites that are designed to market for-profit schools to 
prospective students without providing them useful information 
about their benefits. Veterans who submit their information to 
these websites are often subjected to aggressive recruiting and 
harassment. Trademarking a phrase like ``GI Bill'' will allow 
the government to restrict many of those deceptive practices. I 
am concerned, however, that there is no instruction in the 
executive order to protect websites like IAVA's 
www.newgibill.org that provide students with critical 
information and assistance with their benefits that the 
government is unwilling or unable to provide. When implementing 
this order, there must be clearly defined exceptions. Almost a 
million veterans have used IAVA's www.newgibill.org to 
calculate their benefits, gather information about changes to 
the GI Bill, and receive help in understanding this complex 
benefit. We must ensure that we are protecting veterans, not 
inadvertently restricting the ability for veterans to gain 
valuable information, especially when the DoD and VA are not 
yet providing it.
    IAVA is also concerned about housing a consumer information 
tool in the eBenefits portal. eBenefits is a helpful tool for 
veterans to gain information about their DoD and VA services. 
But access to eBenefits remains a serious problem and continued 
improvement is necessary. Currently, access to eBenefits is 
tied to enrollment in the DoD's DEERS system. While efforts to 
enroll separating service members in eBenefits during the 
Transition Assistance Programs (TAP) is an excellent step, a 
significant number of Iraq and Afghanistan veterans are no 
longer serving. For these veterans, access to eBenefits is far 
too complicated to be useful. Even if you develop the best 
consumer education tool in the world, it's useless if consumers 
have trouble accessing it. To remedy this, IAVA recommends 
that, in addition to being housed at eBenefits, the consumer 
information tool must also be available at www.gibill.va.gov.
    IAVA applauds the President's directive to establish a 
consumer complaint system and wants to ensure that the system 
is effective. One of the biggest problems with the GI Bill is 
that there is currently no method for student veterans to 
report problems with their benefits or report fraud, waste, and 
abuse by their school. Judging by the amount of complaints I 
see regularly from our members submitted to IAVA's 
www.newgibill.org, there is a clear need for the government to 
establish a basic customer service and complaint mechanism. For 
the program to be effective, the intake must be housed in the 
VA. All intakes must be integrated with 1-888-GIBILL-1 and 
located at www.gibill.va.gov. The VA is the face of veterans' 
services within the government. Housing this service anywhere 
else makes zero sense from a practical or business perspective.
    Executive Order No.13607 will not solve all the problems 
faced by student veterans, however it is a good start. Congress 
must be vigilant in addressing many of the implementation 
issues that have been addressed here today. Additionally, 
Congress must continue its work to pass pending legislation 
such as H.R. 4057 (Bilirakis), H.R. 4052 (Stutzman) that will 
make many of the provisions of this Executive Order more robust 
and permanent. Congress also must address several of the 
regulatory loopholes that are being exploited by many schools 
by passing H.R. 4055 (Speier), and H.R. 4390 (Grijalva). These 
bills will help restore free-market control to the for-profit 
school industry and will prevent veterans from being harassed 
by marketers and aggressive recruiters.
    The Post-9/11 GI Bill is the most significant veterans' 
benefit since World War II. With it, veterans and their 
families have the opportunity build a first class future and 
shape the destiny of the New Greatest Generation. As veterans, 
advocates, educators, and lawmakers we all have a shared 
responsibility to ensure that every student veteran is 
empowered to use their benefits wisely and build a first class 
future. This is why IAVA supports the President's Executive 
Order No.13607 and looks forward to working with Congress to 
pass pending legislation on this issue.
    Thank you for your time and attention.

                                 <F-dash>
                  Prepared Statement of Michael Dakduk
    Chairman Stutzman, Ranking Member Braley and members of the 
Subcommittee:

    Thank you for inviting Student Veterans of America to address the 
Subcommittee on the President's Executive Order 13607, ``Establishing 
Principles of Excellence for Educational Institutions Serving Service 
Members, Veterans, Spouses, and Other Family Members.'' Student 
Veterans of America (SVA) currently has over 450 Chapters at colleges 
and universities across the nation assisting veterans in their 
education experiences on a daily basis. This direct contact gives SVA a 
unique perspective on the needs and obstacles faced by our nation's 
veterans as they return to their communities to enroll in educational 
opportunities and later, reintegrate into the civilian workforce. Our 
goal is to provide the resources and support for student veterans to 
thrive in post-secondary education and contribute to civilian society 
in meaningful ways. As you are likely aware, we recently conducted an 
annual review of all of our chapters, both for-profit and non-profit, 
and found that 26 for-profit schools were suspected of creating fake 
chapters in order to recruit student veterans. We subsequently revoked 
their memberships per our charter. That perspective provides the 
framework for our testimony this morning.
    The issues addressed in Executive Order 13607 carry great 
significance for our nation's veterans, service members, and families. 
It reflects highly on this Subcommittee and the Executive Branch that 
such attention is being paid to addressing and resolving the challenges 
faced by some veterans who are targeted by `bad actors' in the 
education system. Without the vigilance and oversight of the Congress, 
and this Subcommittee in particular, we cannot hope to craft the 
policies that will protect those who serve, and have served, and ensure 
that we have an effective and functional G.I Bill. We strongly believe 
that the education and protection of our nation's warriors is not a 
partisan issue, and we are heartened to see that under both parties 
this Committee has always worked towards those ends.
    Because SVA is so regularly and intimately involved with the 
obstacles and challenges of our nation's student veterans, we believe 
we have an effective institutional lens to measure the success of 
today's educational programs for veterans. Executive Order 13607 takes 
up a few very important unresolved issues that impact the lives and 
educational experiences of some veterans who enroll in programs that 
take may advantage of them as well as the taxpayer.
    SVA is deeply invested in this matter. Educational institutions, 
for profit schools, private corporations, federal, and state 
governments must work together to protect those using the G.I Bill and 
tuition assistance. Without protections, fraud would run rampant and 
the benefit will not meet its objectives. We appreciate the initiative 
that President Obama has demonstrated in signing this order; it is a 
strong first step. However, we believe there are issues identified in 
the Executive Order that may require the force of law, and that can 
only be addressed by the Congress. Those issues are outlined below.

    With respect to Section 1 of the Executive Order:

    SVA agrees that there are institutions that have engaged in 
improper behavior with respect to their recruitment of veterans and 
service members. The vast majority of these are for-profit educational 
institutions. However, we also recognize that many of SVA's members 
studying at technical and vocational training programs that run on a 
for-profit basis have been treated well, are happy with their 
experience, and go on to find meaningful employment. SVA is a strong 
supporter of online education and vocational training. We believe that 
policies and the law should target bad actors, whether they are for-
profit or non-profit, without unduly burdening good actors in the 
industry. A set of ``Principles of Excellence'' is an appropriate step 
toward addressing this issue.

    With respect to Section 2 of the Executive Order:

    Section a: Choosing an educational institution is an expensive and 
life-altering decision. Many veterans are the first people in their 
families to attend college. Others have been without a high school 
guidance counselor for more than a decade. Complete information is 
essential for those using the G.I. Bill and Tuition Assistance to make 
sound decisions. By understanding the costs of these programs, their 
likely level of indebtedness, and probable outcomes, student veterans 
will be able to choose their educational programs more wisely. Better 
choices will lead to better outcomes and a more efficient use of 
taxpayer dollars. It serves no one to spend taxpayer dollars to produce 
students who are deeply in debt, have no marketable job skills, or 
transferable credits when they leave.
    SVA also recognizes that schools may be burdened by the requirement 
to collect and provide this information. However, it is our position 
that this burden is far outweighed by the benefits of attracting those 
veterans who are eligible for education benefits, and remain convinced 
that schools would need to only provide slightly more information to 
the VA to paint an accurate picture. Veterans, service members, and 
military families not only bring large amounts of federal funding, but 
also bring rich diversity and spirit to any campus. Veterans bring a 
unique set of experiences with them that enrich the classroom and the 
dialogue on campus. Few college students have faced the challenges or 
overcome the hardships that military members and their families deal 
with every day.
    We believe most schools want to make themselves attractive to this 
population for more than just financial gain. Therefore, we support the 
provision of information collection and believe schools have a 
responsibility to report required data and information on student 
veterans.
    Taxpayer dollars must be directed to those educational institutions 
that can best provide for this constituency. Good schools have nothing 
to lose by demonstrating the merits of their programs and SVA has no 
concerns for either the burden to, or any loss of enrollment from, bad 
actors as a result of these policies.
    Section b: Notification of eligibility for federal aid reduces the 
burden on already overburdened students. Reducing the long-term debt 
that a student must incur increases the likelihood of positive outcomes 
and makes money spent on those students more efficient. SVA supports 
this provision.
    Section c: SVA strongly believes it is important to enact 
safeguards for Service members. The American public expects that the 
military and other federal agencies will protect our troops on the 
battlefield. It is only right to expect that these Service members and 
their families will be protected from fraud and abuse at home.
    Section d: SVA also believes it is essential that federal dollars 
be spent on programs that are likely to lead to meaningful employment 
and good careers. Requiring accrediting agency approval ensures the 
integrity of new course offerings and protects both students and 
institutions. That being said, we also believe that some accrediting 
bodies are part of the problem, in that they do not provide strict or 
meaningful standards for schools to meet. We once again call on the 
Congress to require the Department of Education to clearly define 
accreditation standards on public websites, and especially to define 
the difference between ``national'' and ``regional'' accreditation. 
This is one of the greatest complaints we hear from our membership and 
continues to lead to great confusion. This Subcommittee would be well 
suited to hold a hearing on accreditation standards as they relate to 
student veteran enrollment, retention and the transfer credit 
nightmares that result from this simple yet misleading distinction
    Sections e and f: Interruptions in education due to military 
service obligations are not uncommon. They are necessary and reasonable 
given the enormous responsibilities that Service members carry. 
However, these interruptions can be disastrous for the student veteran. 
Those affected can be left with wasted benefits, education plans that 
are completely derailed, and lifelong goals cast into uncertainty. The 
immediate loss to educational institutions is far less than the overall 
waste of taxpayer money resulting from policies that require forfeiture 
of tuition and fees payments. Additionally, it is in the interest of 
all educational institutions to provide good outcomes for their 
students. A refund-reenrollment policy that allows for service related 
absences helps to facilitate those outcomes by reducing uncertainty and 
protecting the student's progress.
    Therefore, SVA strongly supports this provision. We encourage 
Congress to consider enacting even stronger legislation, as 
appropriate, to protect the progress of students who are forced to 
curtail their education due to military Service obligations. In this 
regard, SVA stands ready to assist the Subcommittee in drafting such a 
Bill and monitoring its implementation.
    Sections g and h: Student veterans and Service members are highly 
skilled and highly trained. However, they are not generally trained in 
the development of education plans. As a consequence, they require 
assistance to develop realistic goals. Having a good academic plan and 
regular academic advising and other counseling improves their chances 
of completing their programs and graduating with marketable 
credentials. We believe it is reasonable to require that schools take 
every measure to establish policies that facilitate the success of 
students receiving the G.I. Bill and tuition assistance. These simple 
measures will do a great deal to facilitate that success.
    Most schools already provide some form of assistance and advising 
to all students. Those that do not ought to. If schools without these 
programs in place expect the extraordinary amounts of G.I. Bill funding 
to continue, they should do as their peers do and take steps to ensure 
the success of their students. The burdens of such provisions are 
unlikely to fall heavily on schools already invested in their students 
because they already have such policies in place.

    With respect to section 3 of the Executive Order:

    Sections a, b, and c: SVA believes the agencies that are listed in 
this section of the Executive Order are appropriate to execute it. We 
remain available to assist both the Congress and the Executive Branch 
with the development and implementation of these Principles of 
Excellence. Of all of the Veterans' Service Organizations, SVA is most 
deeply affected by these principles and we are eager to ensure that 
they are crafted and implemented to the greatest advantage for student 
veterans, Service members, and military families.
    We strongly believe that subsection c, which requires outcome 
measures, is essential for the long-term viability of the Post 9/11 GI 
Bill and other such benefits. The 1944 GI Bill is repeatedly cited for 
its economic impact and creating the middle class. This is only 
possible because we know how many returning Service members completed 
degrees when they returned home. How is it that we have this 
information about the 1940s and 50s, and not since 2001? SVA has been 
calling for uniform standards to track graduation and outcome rates 
since the Post 9/11 GI Bill was written, and we call on the Congress to 
join us. This is not only important for data on which schools are 
performing better than others, but also for the essential Congressional 
oversight that this Subcommittee is charged with conducting.
    Though the Executive Order establishes protections for students 
using educational benefits, SVA recognizes that it is not possible for 
the Executive Branch to enact policies to the extent they are needed. 
Specifically, provisions requiring a refund-readmit policy are based on 
participation in the Yellow Ribbon Program. This gives schools the 
option to simply opt out of provisions they find burdensome. However, 
were such protections given the force of law, schools would have to 
openly decline all federal funding in order to opt out of these 
provisions.
    For example, because existing law does not extend to protecting 
Service members whose education is interrupted, Congress should 
consider strengthening certain provisions of the Uniformed Services 
Employment and Reemployment Rights Act (USERRA). By amending USERRA to 
include a requirement for schools receiving federal funding to have a 
refund-readmit policy for the protection of students whose educations 
are interrupted, Congress will safeguard both taxpayer dollars and 
student success.
    Section d: SVA supports the improvement of the eBenefits portal 
operated by the Department of Veterans Affairs. We know from experience 
that the easier it is to compare opportunities, the more likely it is 
that students will make good decisions. All institutions should be 
transparent, and they should include tools for comparison and 
evaluation that help student veterans make better decisions. Successful 
programs will win out over unsuccessful programs, as they should in a 
free market.

    With respect to Section 4 of the Executive Order:

    Sections a, b, c, and d: SVA strongly supports the establishment of 
a unified system for accepting complaints by those using educational 
benefits. While State Approving Agencies (SAA) already have provisions 
in place for complaints, these systems are often difficult to access 
and they lack uniform standards for conduct. We also know from 
experience that SAAs will refer most complaints back to the VA anyway. 
By establishing a more formal complaint process, VA can clarify roles 
and responsibilities for each Federal agency involved. It is only 
logical that a Federal agency be involved in the enforcement and 
protection of a Federal benefit like the GI Bill or Tuition Assistance.
    Such a system should be developed in cooperation with SAAs and 
include clear mechanisms for enforcement and resolution of complaints. 
SVA does not believe it is proper for the VA to dictate to SAAs how to 
operate their complaint systems, but rather feels that it is in 
everyone's best interests to create uniformity and clarity in the 
system that already exists.
    SVA believes that Congress can strengthen this system by mandating 
a cooperative process between the VA and SAAs to establish a national 
system for the acceptance and resolution of complaints by students 
receiving educational benefits. It is essential that there be a 
workable, reliable and credible mechanism by which students can seek 
resolution to complaints regarding their institution or benefits. 
Lacking such a resource, many veterans and Service members simply 
choose to curtail their education. This wastes not only the valuable 
potential of those students, but also the taxpayer monies spent prior 
to curtailment. It is far better to provide an outlet for complaints, 
and a mechanism for their resolution, than to accept the loss to the 
nation, both tangible and intangible, that results from students 
dropping out.
    Section e: SVA knows it is entirely reasonable and necessary for 
the Department of Defense to restrict access to military bases. In this 
regard, SVA can be an important resource because our Chapters and 
members are available to assist the Department, the military services, 
or individual base commanders with institutions requesting access to 
military bases. SVA does not support a blanket prohibition of 
educational institutions from visiting military bases. On the contrary, 
we support strengthening and unifying a vetting and compliance process 
for any institution requesting access to military facilities.
    Section f: SVA strongly supports the trademarking of the term, ``GI 
Bill'' and any other related terms to prevent deceptive marketing 
practices. We believe it is important for Congress to support a 
trademark process because these terms need to be protected to ensure 
their integrity regardless of who is responsible for their protection.
    While it is not specifically addressed in this Executive Order or 
in today's Subcommittee Hearing, SVA would like to take this 
opportunity to call for an amendment to the so called, ``90/10 rule.'' 
SVA supports the various bi-partisan and bi-cameral Bills pending that 
would effect such a change. Common sense dictates that schools that are 
required to receive no more than 90% of their income from the federal 
government should not be able to skirt this rule by accepting the 
overage in veterans' benefits. Requiring competition for 10% of revenue 
is a reasonable mechanism for ensuring this and strengthens the free-
market in education.
    Quite frankly, any business that complains about having to compete 
for 10% of their customers should not be in business. We strongly 
challenge the sentiment that a change to 90/10 or the requirements 
contained in this Executive Order somehow inhibits a school's ability 
to compete. Any school that claims they would have to raise prices on 
student veterans in order to accommodate the change is free to do so. 
SVA is confident that student veterans will vote with their feet, 
especially considering the astronomical profits that these schools 
return to their shareholders on Wall Street while still charging the 
taxpayer full price. A mere fraction of what most for-profits spend on 
marketing and recruiting should more than cover any imposed cost with 
being honest brokers of this money.
    In conclusion, SVA believes the provisions of the Executive Order 
requiring transparency, accountability, and preventing fraud, waste, 
and abuse are reasonable to ensure better educational opportunities for 
veterans and fair competition for educational institutions. It is all 
together proper for the federal government to mandate that educational 
institutions provide information to veterans about their programs 
regardless of where they attend classes. The Executive Order, 
strengthened by legislation SVA has recommended, will make it more 
likely that institutions providing good value and service will win out, 
just as they should in a free market.
    Student Veterans of America is grateful for the opportunity to 
provide this testimony. We thank the Chairman and the Subcommittee 
members for their time, attention, and devotion to the cause of higher 
education. We look forward to continuing to work with this Subcommittee 
and the Congress in the future to ensure the success of all generations 
of veterans through education.
    Thank you for allowing Student Veterans of America to participate 
in this important Hearing.

Executive Summary

    Student Veterans of America (SVA) strongly supports any action that 
protects student veterans, their families, and their benefits. Our 
efforts will always be dedicated to ensuring that those who have served 
our country can use the benefits they earned to advance their lives and 
careers. Any school that attempts to gain from the generous Post 9/11 
GI Bill, and other military and veteran federal benefits, without 
providing outstanding education and outcomes to the student veterans 
who place their trust in their hands should be vigorously prosecuted. 
Despite numerous bi-partisan efforts by the Congress to address this 
growing issue, taxpayer dollars continue to be wasted on highly-
marketed, but poorly-performing schools with high loan-default rates 
and low graduation-rates. SVA Executive Order #13607 in order to curb 
these trends and calls on Congress to continue on the momentum to make 
long-lasting protections a reality.
    SVA supports full disclosure of debt loads and institutional 
performance before enrollment. We know from our extensive experience 
with this population that there is simply too much bad or misleading 
information out there about schools claiming to be ``veteran-friendly'' 
and their supposedly strong academic records. Requiring schools to 
disclose accurate information before a student veteran enrolls levels 
the playing field and enables student veterans to make well-informed 
decisions. This action will ultimately allow the market economy to 
choose which schools provide the best outcomes and thus deserve to be 
stewards of GI Bill dollars.
    SVA supports the requirement of every student veteran to have an 
academic advisor and academic plan. This is commonplace in most 
reputable schools, and those institutions that do not currently offer 
this must implement this immediately to ensure our veterans are working 
towards a realistic academic or career goal.
    SVA strongly supports publishing outcome measures and graduation 
rates. Without data and statistics, it will be impossible to know the 
true impact of benefits as generous as the Post 9/11 GI Bill. This 
information is also critical to effective Congressional oversight, and 
we remain concerned that the program's impact up to now will be lost 
without retroactive efforts.
    SVA supports a unified system to report complaints at schools. We 
have consistently asked for a formal, well-publicized process for 
student veterans to raise issues with their educational institutions to 
the appropriate federal authorities. Given the amount of federal 
dollars being made available, it is essential to create a centralized 
complaint center that allows student veterans to raise legitimate 
concerns about bad actors in the post-secondary education space.
    SVA supports uniform policies for access to military bases by 
educational institutions. We constantly hear about some schools being 
allowed on base in some places, and others not, and this makes it 
challenging for Service members to start their academic pursuits while 
in uniform. Having consistency across all bases will help ensure that 
good schools have access and predatory ones are kept out.

                                 <F-dash>
                   Prepared Statement of Judith Flink
    Mr. Chairman and Members of the Committee: My name is Judith Flink. 
I serve as Executive Director of University Student Financial Services 
for the three campuses of the University of Illinois. I have worked in 
the University's business office and been actively involved in higher 
education for over 30 years. I am testifying today on behalf of the 
National Association of College and University Business Officers 
(NACUBO), which represents chief financial officers and their staff at 
more than 2,100 public and nonprofit colleges and universities. 
NACUBO's mission is to promote sound administrative and financial 
management of institutions of higher education. On behalf of the 
University of Illinois, NACUBO, and my colleagues at institutions 
across the country who strive to encourage and support our nation's 
veterans, service members, and their families seeking higher education, 
I thank you for this opportunity to testify. In particular, I would 
like to thank Rep. Stutzman and his staff for this invitation - it is 
an honor for me to be here today.
    NACUBO shares the President's goals as outlined in his April 27th 
Executive Order establishing principles of excellence for educational 
institutions serving veterans, service members and their families. We 
affirm that these students--indeed all students--deserve high quality 
academic and support services that enable them to make informed 
decisions about their education. We strongly support safeguards against 
abusive and deceptive recruiting practices.
    Most, but not all, of the President's principles align with 
existing U.S. Department of Education (ED) requirements for 
institutions that participate in Title IV federal student aid programs. 
Those principles will not inflict additional cost or burden on our 
member institutions. But we do have serious concerns about some of the 
provisions and potential implications of the Executive Order. Our 
concerns are as follows:

       1. Section 2(a) requires institutions ``prior to enrollment, 
[to] provide prospective students who are eligible to receive Federal 
military and veterans' educational benefits with a personalized and 
standardized form . . . to help those prospective students understand 
the total cost of the educational program; the type and amount of 
financial aid they may qualify for; their estimated student loan debt; 
information about student outcomes; and other information to facilitate 
comparison of aid packages offered by different educational 
institutions.'' The intended outcome of this requirement may sound 
beneficial but in reality it makes assumptions about what institutions 
know about prospective students and when they know it. Prospective 
students seldom identify themselves by which federal aid benefits they 
are eligible to receive. Often, particularly at open access community 
colleges, students don't file their Free Application for Federal 
Student Aid (FAFSA) or identify themselves as eligible for veterans' 
benefits until after they have enrolled. They routinely wait until 
after classes start to apply for aid and veterans' educational benefits 
rendering this requirement impossible for schools to administer and 
enforce.
       The requirement also fails to understand that institutions do 
not have access to the information that would enable them to accurately 
estimate a student's eligibility for veterans' educational benefits. ED 
relies on the privacy strictures of the Family Educational Rights and 
Privacy Act (FERPA) to trust institutions with detailed information 
about students concerning the amount of their federal financial aid 
package. The Department of Veterans Affairs (VA), on the other hand, 
historically had little or no direct communication with schools until 
the advent of Chapter 33. So the VA has not developed procedures to 
communicate that information to schools and holds tightly to 
information about veterans and their eligibility for education 
benefits.
       Furthermore, the requirement under Section 2(a) assumes that 
institutions will use a prototype of the standardized financial aid 
award letter being drafted by ED and the Consumer Financial Protection 
Bureau. However, consensus on this issue has not been reached in the 
higher education community. While there is broad support for the use of 
standardized terms and definitions, we are concerned that imposition of 
specific formats will not serve the needs of students and their 
families given the enormous variation in educational programs. The 
National Association of Student Financial Aid Administrators has 
convened a task force to make recommendations in this area. We strongly 
encourage the President, VA, and Department of Defense (DoD) to await 
and consider the task force's final report which is expected to be 
released soon.
       2. Section 2(e), to allow service members and reservists to be 
readmitted to a program if they are temporarily unable to attend class, 
needs further clarification. It fails to stipulate how long an absence 
might be termed temporary or what an institution is required to do when 
service members return to a program that has been eliminated during 
their absence.
       3. Section 2(f) is even more ambiguous. It requires institutions 
to agree to an institutional refund policy aligned with the rules for 
unearned student aid developed by the Department of Education. While it 
references ED's statutorily mandated return of Title IV funds policy, 
it appears to go further and could create significant enrollment 
planning and budgeting challenges for institutions of higher education.
       The Department of Education's refund policy applies only to 
federal aid and permits colleges and universities to set their own 
institutional refund policies. Some institutions have aligned their 
refund policies with the ED policy but the vast majority has not. This 
is because when a student enrolls in a class and takes that seat, the 
institution has committed its resources to provide the promised 
instruction. If the student drops out, the institution cannot go out 
and find another student to fill that slot, so the committed resources 
are lost.
       If the intent of this provision is to dictate an institution's 
refund policy for Veterans' educational benefits, that policy will be 
costly for schools to administer. The cost will vary depending on the 
institution and the number of veterans served. But all institutions, 
especially those that enroll significant numbers of veterans and 
service members, already struggle to keep up with the manual effort 
required to certify veterans. In many instances, institutions must 
certify a service member twice, once for their housing allowance and 
once for tuition and fees. Schools must also comply with DoD billing 
and payment processes that are not standardized across the various 
branches, as well as untangle the inevitable knots of confusion that 
arise in both programs. Creating a separate refund policy for this 
population of students would add yet another layer of disruptive, if 
not prohibitive, administrative burden associated with educating these 
students.
       4. Section 2(g) also needs clarification. Its requirement to 
``provide educational plans for all individuals using Federal military 
and veterans' educational benefits'' is similar to the confusing 
provision that appeared in the DoD Memorandum of Understanding for the 
Tuition Assistance program last year. The confusion caused by that 
requirement took months to clarify and turned out to mean something 
very different to institutions than it did to DoD. In order to 
forestall needless confusion and misunderstanding, it is important that 
institutions have the opportunity to discuss the intent of the 
underlying policy before it is implemented.
       5. We support the requirement in section 2(h) that institutions 
``designate a point of contact for academic and financial advising . . 
. to assist service member and veteran students and their families...'' 
Those of us at the University of Illinois, and my colleagues at other 
colleges and universities who assist service members and veterans, are 
passionate about providing the best possible advice and support to 
these students. Many schools have instituted special programs designed 
to help ensure their success. Much as we support this requirement, 
however, our ability to provide adequate financial counseling to 
veterans is severely impeded by the VA's tightly held control over most 
veteran information including their eligibility for VA education 
benefits and their indebtedness to the agency. College and university 
advisors cannot assist veterans who have debts to settle with the VA, 
or inform them about the consequences of failing to make payment 
arrangements, if we do not know the debt exists. Nor can we help 
veterans resolve payment discrepancies when VA staff members refuse to 
speak with us. So we ask Congress to consider revising applicable 
privacy statutes to allow the VA to share pertinent debt and benefit 
eligibility with the veteran's educational institution. Without that, 
it will be challenging for institutions to comply with this provision.
       6. Section 3 which addresses student outcomes is not directed at 
institutions, but we are concerned because it will have an impact on 
us. Student outcomes may be difficult to measure and may prove 
misleading to the public. Many veterans and service members are 
nontraditional students; many attend multiple institutions during their 
educational career and each of the institutions contributes to the 
student's success. Some veterans and service members achieve their 
educational goals by completing a small number of classes that provide 
specific knowledge or skills required for their service or employment. 
These students would regard their completion of these courses as a 
successful outcome, whereas the measurements included in the Executive 
Order which are based solely on graduation rates would not.

    Mr. Chairman, I have outlined problems that NACUBO and its members 
have with Executive Order 13607. In light of these significant 
concerns, we ask that the agencies tasked with implementing this 
Executive Order actively consult with institutions and the 
organizations that represent them (like NACUBO, ACE, AASCU, and AACRAO) 
as they develop the necessary rules. ED is required by law to utilize a 
negotiated rulemaking process when drafting Title IV rules. This 
process solicits input from stakeholders thereby giving ED a clearer 
understanding of the impact, obstacles, and potential consequences of 
its actions enabling it to write better rules. The lack of similar 
negotiated rulemaking processes or consultation between the DoD, VA, 
and educational institutions has created mountainous obstacles due to a 
simple lack of understanding of each party's policies, procedures, and 
language. Greater collaboration in the development of rules and sub-
regulatory guidance would much better serve not just the DoD, VA, and 
institutions, but most importantly, the veterans, service members, and 
their families we all strive to serve. Indeed when discussions between 
the VA, DOD, and institutions have occurred, consensus, clarity, and 
workable policy have been achieved.
    I can personally attest to the success of such dialogue. Since 
implementation of the Post-9/11 GI Bill, I have had the pleasure of 
participating in a NACUBO work group that has met quarterly with VA 
representatives to address issues involved in processing Chapter 33 
tuition benefits. These meetings always end with both sides walking 
away better informed about how the other party operates. VA 
participants gain a better understanding of institutional processes; 
institutional participants gain a better understanding of VA policies, 
procedures, and challenges. These meetings have established a 
productive relationship that we hope will continue. We sincerely 
appreciate the dedication of our VA participants and the difficult 
challenges they face as they implement a large scale educational 
benefits program.
    And while these dialogues have been helpful, there is no 
established or formal structure to them. They have occurred only 
because of the willingness and commitment of the parties involved in 
the process. I would therefore like to propose the creation of an 
official Advisory Group with a defined membership and structure to work 
in partnership and develop workable solutions as we implement new VA 
and DoD policy and procedures. I believe this will go a long way to 
bring consensus and efficiency to the schools, our partner agencies in 
the Federal government and service members alike.
    In conclusion, let me reiterate the commitment of NACUBO's 
membership to ensuring that our service members receive the education 
they deserve in a streamlined and efficient process. We understand the 
need to protect our returning soldiers from unscrupulous practices but 
we have significant concerns with the implementation of the 
requirements in the President's recent Executive Order. We believe that 
further clarification and discussions are necessary so that all parties 
can gain understanding and move toward consensus on developing an 
efficient, sensible policy.
    Thank you again for the opportunity to present NACUBO's position on 
Executive Order 13607. I'd be happy to answer any questions that you 
might have.

Executive Summary

    The National Association of College and University Business 
Officers, representing over 2,100 public and nonprofit colleges and 
universities, shares the President's goals as outlined in his April 
27th Executive Order (EO) establishing principles of excellence for 
educational institutions serving veterans, members of the armed 
services, and their families. These students deserve high quality 
academic and support services to enable them to make informed 
decisions. We strongly support safeguards against abusive or deceptive 
recruiting practices.
    Most, but not all, of the President's principles align with 
existing U.S. Department of Education (ED) requirements for 
institutions that participate in Title IV federal student aid programs. 
Those principles will not inflict additional cost or burden on our 
member institutions. But we do have serious concerns about some of the 
provisions and potential implications of the EO, including the 
following:

       1. Section 2(a) requires institutions to provide prospective 
students with a broad range of information on an individualized 
standard form. Prospective students do not routinely identify 
themselves by federal aid eligibility, making it difficult for 
institutions to know who should receive the form, nor are institutions 
able to accurately estimate veterans' benefits. While there is broad 
support for the use of standard terms and definitions and the 
development of model formats, the imposition of specific formats will 
not serve the needs of students given the enormous variation in 
educational programs.
       2. Section 2(f) would mandate institutional refund policies in a 
manner similar to the ED's policy used for returning unearned Title IV 
funds. The ED policy permits colleges and universities to set their own 
refund policies. If a student drops out, the institution cannot go out 
and find another student to fill that slot, so the committed resources 
are lost.
       3. We support the requirement in section 2(h) for a designated 
point of contact for academic and financial advising, but our ability 
to provide adequate financial counseling is severely impeded by the 
VA's tightly held control over most veteran information, including 
their eligibility for VA education benefits and indebtedness to the 
agency.
       4. In section 3, we are concerned that student outcomes may be 
difficult to measure and may be misleading to the public. Veterans and 
service members are often nontraditional students with educational 
goals that may differ from traditional students. They often attend 
multiple institutions and each contributes to their success. Progress 
should not be measured solely on graduation rates.

    We hope that the agencies tasked with carrying out the EO will 
actively consult with key constituencies as they develop the necessary 
rules. Lack of consultation between DoD, VA, and educational 
institutions has created obstacles due to a simple lack of 
understanding of each party's policies, procedures, and language.
    In conclusion, I reiterate the commitment of NACUBO's membership to 
ensuring that our service members receive the education they deserve in 
a streamlined and efficient process. We understand the need to protect 
our returning soldiers from unscrupulous practices but we have 
significant concerns with the implementation of the requirements in the 
President's recent Executive Order. We believe that further 
clarification and discussions are necessary so that all parties can 
gain understanding and move toward consensus on developing an 
efficient, sensible policy.

                                 <F-dash>
               Prepared Statement of Hon, Steve Gunderson
    Mr. Chairman, Ranking Member Braley:
    Thank you very much for this invitation to testify before you 
today. It is great to be back again before this distinguished 
Subcommittee. APSCU shares your commitment to ensuring that every 
postsecondary institution provides the highest level of service to each 
and every veteran. We take great pride that our schools - with the 
support services, flexible schedules, and focused delivery of academics 
- are designing and delivering education in ways that meet the needs of 
today's veteran-students. As one representative of our Nation's 
postsecondary education system, I believe it is our moral imperative to 
ensure that our servicemembers and veterans receive the education they 
deserve with the benefits they earned at every institution of higher 
education.
    As a sector, we have been engaged in working with the Subcommittee, 
and others, to identify and develop protocols that best meet the 
academic needs of our veterans. On January 31st, APSCU made what some 
might call a surprising step by joining some our harshest critics on 
letters to the House and Senate Veterans Affairs Committees, and the 
President supporting two very basic, but critical, ideas for veterans: 
increased educational counseling and a way to have their complaints 
heard and resolved fairly. It was in the spirit of these tenets that 
Rep. Bilirakis (R-FL) first introduced legislation, H.R. 4057, 
directing the Secretary of the Department of Veterans Affairs (VA) to 
develop a comprehensive policy to improve outreach and transparency to 
veterans and members of the Armed Forces through the provision of 
information on institutions of higher learning. I was honored to 
represent private sector colleges and universities at a hearing on 
March 8th in support H.R. 4057. On the other side of the Capitol, other 
Members of Congress, also driven by their deep conviction to protect 
our veteran-students as they enter postsecondary education, introduced 
legislation modeled very much on the principles included in our letter. 
APSCU is committed to continuing our good faith discussions to ensure 
that the bill that best represents the needs expressed by veterans 
emerges from the House and Senate.
    Mr. Chairman, you can imagine our surprise and disappointment, 
after sending the letter to the White House and meeting with senior 
White House officials, that news of an impending Executive Order 
reached APSCU without any advance notice from the White House, 
circumventing ongoing, bipartisan, bicameral legislative discussions. 
Our Nation's veterans deserve the best effort put forth by the 
Administration, Congress, veteran service organizations, and all 
sectors of higher education to achieve consensus on the best ways to 
meet the educational needs of our veterans through a constructive, 
collaborative process.
    Quite obviously, Executive Orders have been a widely-used and 
accepted privilege afforded to our Presidents, starting with George 
Washington and currently with President Obama. However, we have some 
concerns regarding the anticipated implementation and potential 
negative impact on institutions resulting from Executive Order #13607. 
As I earlier stated, APSCU supports the creation of a centralized 
complaint system. But, the Executive Order language provides little 
guidance on the framework of the system, leaving much open to 
interpretation. Ultimately, we want a system that is fair to both 
veterans and institutions. But, most importantly we want a complaint 
system that leads to a resolution of any problem or misunderstanding. 
What we do not want to happen is for the complaint system to become a 
conduit for politically-motivated attacks, submitted anonymously, by 
those whom are intent to destroy the reputation of any institution. In 
order for the process to operate seamlessly, fairly, and ensuring a 
resolution, there must be clear accountability and transparency for all 
parties involved - the veteran submitting the complaint, the VA, and 
the school. When the White House briefed the higher education sector on 
the impending Executive Order the night before it was issued, I 
requested that all sectors of higher education be at the table to 
openly participate in the development of a fair, transparent system. We 
continue to hope this will occur. But, we are somewhat concerned by the 
very short timetable the Administration has established for completing 
this work, and no such conversation has yet to occur.
    You may recall that during my testimony earlier this spring we and 
others at the table, engaged in an extended dialog about the need to 
change the way academic progress and/or graduation rates are calculated 
for those whom comprise the new, ``normal'' college student - adult-
learners, including veterans. We are encouraged that the Executive 
Order calls for developing new, appropriate metrics to measure a 
veteran's academic progress - individually and collectively - and stand 
ready to work with the Administration, Congress, and all interested 
parties to develop a fair, appropriate measurement. Until that process 
is completed, no set of data will be relevant for or related to the 
realities of either a servicemember or veteran's educational 
experience. Therefore, we have concerns with the use of the, ``Know 
Before You Owe'' form, as availability of military and veteran 
population and outcomes from IPEDS is nascent or does not adequately 
reflect the nontraditional student. Additionally, the ``Know Before You 
Owe'' form is not sufficiently nuanced to reflect the complexity of 
military and veteran educational assistance, nor does it reflect 
crucial student demographics, such as Pell-eligibility. Institutions 
are also unable to identify on the form if tuition discounts are 
offered to military or veteran students. The Consumer Financial 
Protection Bureau's (CFPB), ``Know Before You Owe'' financial aid 
shopping sheet prototype does not reference military or veteran 
benefits at all, and while the CFPB's college cost comparison tool does 
include a military aid calculator, it does not appear that this 
particular tool is what the Executive Order is recommending. These 
tools, as identified in the Executive Order, cannot adequately, or even 
accurately, reflect the unique situations and characteristics of the 
military- and veteran-student population. Rather than providing the 
resources and information prospective-students would need to make sound 
educational decisions, they will instead receive incomplete, 
misrepresentative data that will likely cause more confusion than 
assistance. We extend an invitation to the Administration to work 
collaboratively to create a form that is representative, accurate, and 
serves as a true resource for prospective-students. However, before a 
form can be created, it is imperative that the current data-collection 
system is fixed.
    Regarding the new enforcement and compliance provision concerning 
institutional access to military installations, we understand that some 
institutions with existing Department of Defense (DoD) Memorandums of 
Understanding (MOUs) have been warned by installations that they will 
be banned from the base, as a consequence of the Executive Order. There 
needs to be additional clarification, as to whether or not the 
Executive Order has had the effect of invalidating all existing DoD 
MOUs. Additionally, as outlined in the Executive Order, the new refund 
policy will cause an increased cost and administrative burden on 
institutions, as it is inconsistent with our existing refund 
procedures. We would also like to work with the Administration on 
identifying a suitable refund policy compromise.
    Solutions to many of the other areas of concern raised by the 
President, and even by Capitol Hill, can be addressed through the 
existing oversight framework already in place. In fact, private sector 
colleges and universities are one of the most highly-regulated groups 
in the country, and the so-called ``triad'' - a reinforcing network of 
federal, state and non-governmental accrediting bodies - provides an 
enhanced level of oversight to ensure minimum levels of program and 
institutional quality are achieved. More specifically: the Department 
of Education (ED); state licensing entities; and national, regional, 
and programmatic accrediting bodies comprise the ``triad'' of 
oversight, which private sector colleges and universities and their 
programs are subject to for the purposes of eligibility to participate 
in Title IV federal student aid programs. Additionally, publicly-traded 
private sector colleges and universities are also subject to Securities 
and Exchange Commission (SEC) oversight. Virtually all institutions are 
subject to state and federal consumer protection laws, Federal Trade 
Commission (FTC) rules against unfair and deceptive statements through 
advertising, promotion, and marketing, and finance disclosure laws if 
they make loans to students, and state corporation laws. Institutions 
serving military- or veteran-students are also held accountable through 
the DoD MOU process, and oversight by the VA and the State Approving 
Agencies (SAAs).
    All institutions of higher education, not just private sector 
colleges and universities, are required under federal and state law to 
provide truthful and unambiguous communications with the student 
consumer about the educational services being offered. However, the 
recently-implemented changes to the ED's Misrepresentation Rule 
provides yet another layer of consumer protections, which private 
sector colleges and universities must adhere to in order to remain 
eligible to receive Title IV federal student aid. If an institution has 
engaged in ``substantial misrepresentation of the nature of its 
educational program, its financial charges, or the employability of its 
graduates,'' made any false, erroneous, or misleading statement that 
has the likelihood or tendency to deceive or confuse without regard to 
materiality or intent, or ``substantial misrepresentations'' are made 
by a third-party vendor hired to ``provide educational programs, 
marketing, advertising, recruiting or admissions services,'' the 
repercussions for the institution are severe, including, suspension or 
termination an institution's Title IV eligibility. Consequently, 
institutions must exercise tremendous caution in how they, and their 
third-party vendors, state information concerning their educational 
programs, the employability of their graduates, financial aid 
availability, costs to students, accreditation, and transfer of credit. 
Following the release of the final rule last year, APSCU's Board of 
Directors requested that our Student Recruitment Task Force develop 
guidance for our membership outlining the potential risks posed by the 
conduct and practices of third-party vendors retained by institutions 
for student recruitment services. On October 11, 2011, APSCU released 
Guidance for APSCU Members--The Misrepresentation Rule and Third-Party 
Vendors, which additionally urges institutions to conduct a careful 
review of all of their printed and electronic marketing and advertising 
materials. The guidance is included as an attachment to my submitted 
statement. Issuing this guidance document, online training seminars 
identifying best practices on ethical enrollment processes, and hosting 
multiple webinars addressing marketing, advertising, and recruiting in 
the new Program Integrity Rules environment are just a handful of 
concrete examples of how APSCU has tried to provide our members with 
the resources and tools to ensure they are complaint with the law. 
APSCU also continues to work with our members and other stakeholders on 
initiatives designed to promote clear and unambiguous communications 
with students and prospective students. For example, industry 
stakeholders are engaging in preliminary negotiations towards the 
creation of a credible, self-regulatory mechanism to monitor the 
marketplace and distinguish the good actions from the bad. While only 
in its infancy stage, it is an opportunity for APSCU, our member 
institutions, and representatives from the lead-generation industry to 
engage in critical conversations about the best practices for the 
sector in approaching marketing, recruiting, and advertising, today and 
tomorrow.
    There are many other existing avenues to enforce misconduct by an 
individual school. One such example is our accrediting agencies. 
Founded in 1912, the Accrediting Council for Independent Colleges and 
Schools (ACICS) is the largest national accrediting organization of 
degree-granting institutions, including professional, technical, and 
occupational programs. The organization is recognized by both ED and 
the Council for Higher Education Accreditation (CHEA). Institutions 
accredited by ACICS, admissions and recruitment standards are clearly 
outlined in the document, ``Accreditation Criteria Policies, 
Procedures, and Standards.'' The policy places the ultimate burden on 
the institution to oversee the activities of an institution's employees 
and non-employees (third-party vendors or contractors) with respect to 
admissions and recruiting referral, recruiting, evaluation, and 
admissions and ensure that any information used as part of recruiting 
and enrollment activities are clear and accurate. Institutions are also 
provided strict guidance concerning employment on third-party vendors 
or contractors. Recruiting requirements demand ethical conduct that is 
compatible with the educational objectives of the institution, and that 
the financial resources expended to engage in recruiting activities is 
consistent with the stated mission of the institution. Also outlined 
are a list of the minimum standards accredited institutions are 
expected to follow concerning recruitment and enrollment, with a 
notable inclusion of language directing institutions participating in 
Title IV programs to understand regulations imposed by the ED as they 
apply to recruiting practices.
    The Accrediting Commission of Career Schools and Colleges (ACCSC), 
founded in 1967, is a private, non-profit, independent accrediting 
agency also recognized by ED. Institutions accredited by ACCSC include 
private, postsecondary, non-degree-granting institutions and degree-
granting institutions in the United States, as well as those granting 
associate, baccalaureate and master's degrees, which are predominantly 
organized to educate students for occupational, trade and technical 
careers, and institutions that offer programs online. Similar to ACICS, 
ACCSC also requires accredited institutions to exercise ethical conduct 
and procedures in the recruitment of students and also sets minimum 
standards for their institutions to follow. Included in ACCSC's, 
``Standards of Accreditation'', the section devoted to ``Student 
Recruitment, Advertising, and Disclosures`` sets clear parameters for 
recruitment, enrollment, advertising, and misrepresentation, and also 
outlines that a school will be held accountable for the actions and 
representations of its recruiters and representatives. For example, the 
Standards clearly state that ACCSC-accredited institutions must 
prohibit school personnel from recruiting prospective students in 
settings where they cannot reasonably be expected to make sound, 
informed choices about enrollment. ACCSC-accredited institutions are 
required to maintain and enforce a code of conduct for all personnel 
primarily responsible for recruiting and admissions activities, which 
must also meet a minimum set of criteria. The ``Standards of 
Accreditation'' also require institutions to comply with all applicable 
federal and state laws and regulations pertaining to student 
recruitment.
    It might come a surprise to some, but the VA currently has the 
authority to prohibit the enrollment of an eligible veteran or eligible 
person using any VA educational benefits in any course offered by any 
institution of higher education, which utilizes advertising, sales, or 
enrollment practices considered to be erroneous, deceptive, or 
misleading either by actual statement, omission, or intimation. In 
addition, institutions which offer courses approved for the enrollment 
of eligible individuals or veterans are required to maintain a complete 
record of all advertising, sales, or enrollment materials used by, or 
on behalf of, the institution during the preceding 12-month period. The 
institutional record, as well as any materials, including direct mail 
pieces, brochures, printed literature used by sales persons, media, and 
any sales or recruitment manuals, are subject to review and inspection 
by the SAA or the Secretary of the VA. The Secretary of the VA is also 
authorized to enter into an agreement with the Federal Trade Commission 
(FTC), where appropriate, to assist in carrying out investigations and 
reviews.
    ``Private vocational or distance education schools,'' or private 
sector colleges and universities, are specifically subject to the FTCs 
longstanding rules against unfair and deceptive statements through 
advertising, promotion, and marketing, as well as state laws 
prohibiting unfair or deceptive trade practices. The FTC is empowered 
to take corrective action if, after the conclusion of an investigation, 
the Commission has reason to believe that the practices fall within the 
scope of conduct declared unlawful by the statute. For example, it is 
deceptive for an institution to misrepresent, directly or indirectly, 
in advertising, promotional materials, or in any other manner, the 
size, location, services, facilities, or equipment of its school or the 
number or educational qualifications of its faculty and other 
personnel.
    The Servicemembers Opportunity Colleges (SOC) has established 
``Standards and Guidelines'' for all SOC Consortium members about 
recruiting, marketing, and program information. For an institution to 
be eligible to receive DoD Tuition Assistance (TA) benefits, the 
institution must first enter into a MOU with the DoD. A requirement of 
the MOU is for all institutions to adhere the SOC Principles and 
Criteria, which outlines specific parameters for SOC Consortium members 
in their advertising, recruiting, and admissions practices for 
servicemembers. The Principles and Criteria each include information 
requiring that institutions adequately and accurately represents their 
education programs, requirements, and services available, communicate 
with servicemembers in a clear, comprehensive, and completely truthful 
manner; take responsibility for admissions and recruitment policies, 
including being accountable for all recruitment and enrollment actions 
whether conducted by staff, faculty, partners, or other third party 
agents acting on the institution's behalf; are transparent and truthful 
about the cost of attendance or any other costs associated with 
attendance.
    This extensive list outlining, which authorities currently exist to 
address misconduct by any institutions of higher education emphasizes 
two key points: first, misconduct by any institution should not be 
tolerated by the authorities empowered to enforce their rules and 
procedures. The current rules and regulations exist to provide the 
appropriate authorities with the power to take the steps and actions 
necessary to ensure that any school engaging in illegal or improper 
practices is held responsible; and second, we need to stop indicting an 
entire sector of higher education for political reasons using anecdote 
and rhetoric instead of facts. It would seem to me that if problems or 
concerns had been addressed through the existing processes, and 
engaging institutions to be a part of the solution, our conversation 
today could have focused on how all sectors of higher education can 
enhance the academic experience for our veterans rather than 
implicating an entire sector that greatly values its service to 
veterans.
    The Post-9/11 GI Bill was a ``game-changer'' on postsecondary 
marketing and recruiting across all sectors of higher education. 
According to a 2009 Lumina Foundation/ACE report examining the state of 
programs and services for veterans on campuses across all sectors of 
higher education--``From Soldier to Student: Easing the Transition of 
Service Members on Campus''--more than half of the participating 
institutions reported engaging in recruiting efforts specifically 
designed to attract military and veterans. In fact, since September 11, 
2001, 65 percent of colleges and universities that offer services to 
veterans and servicemembers enhanced their services and programs geared 
towards military and veteran students with the establishment of 
marketing and outreach strategies to attract veterans and military as 
one of the top areas of emphasis, regardless of sector. For example, 58 
percent of four-year, public and private non-profit and two-year, 
public institutions reported an increase in their marketing and 
recruitment efforts, with 69 percent of private, four-year, non-profit 
institutions reported increases in this area. The principle of Occam's 
razor states that ``the simplest explanation is most likely the correct 
one.'' The Post-9/11 GI Bill has changed the entire postsecondary 
landscape regarding the education and recruitment of veterans. However, 
since the benefits began in 2009, time-and-time again veteran students 
have cited the reason for their decision to attend public two-year 
institutions and private sector colleges and universities is the simple 
fact that these schools have the greatest capacity to meet their 
educational needs--not because of widespread, ``predatory'' practices. 
I could even use this opportunity to thank those here today for 
spearheading, ``The Military Coalition'' efforts to first get the Post-
9/11 GI Bill enacted, but then pressuring Congress to subsequently 
include non-degree granting institutions as eligible institutions under 
the law. The Coalition recognized that veterans, as non-traditional 
students, value the qualities inherently ingrained into the framework 
of these institutions, such as geographic proximity to home or work, 
institutional emphasis on the adult-learner, flexible class schedules, 
and campuses in other states.
    These qualities were also highlighted in a follow-up to the 2009 
report entitled, ``Service Members in School: Military Veterans' 
Experiences Using the Post-9/11 GI Bill and Pursuing Postsecondary 
Education,'' and report author, Jennifer L. Steele's, subsequent 
Commentary in the Army Times entitled, ``Colleges Can Learn from For-
Profits Emphasis on the Consumer.`` The Report indicates that many 
veteran-students attend private sector colleges and universities, 
including availability of evening and weekend classes, matching skill-
training with marketplace need, and hybrid classroom- and online-based 
academic delivery, and generous awarding of military experience or 
training as academic credit. Access was cited as the most important 
quality to the veterans surveyed, and private sector colleges and 
universities often provided the only access to the required courses 
leading to a degree. Veterans valued the high institutional 
participation in the Yellow Ribbon Program; one-third, or thirty-
percent, of private sector colleges and universities participate in the 
Yellow Ribbon program, and proudly, of the participating schools, 
forty-five percent place no restrictions on the number of veterans 
served or offer the maximum benefit contribution. Private sector 
colleges and universities were also given higher-than-average rates by 
veterans with respect to their academic advising experiences.
    Since the enactment of the Post-9/11 GI Bill, 152,000 veterans, 
spouses, and dependents have chosen to attend private sector colleges 
and universities using the Post-9/11 GI Bill. Since the benefits began 
in 2009, time-and-time again veteran-students have cited the reason for 
their decision to attend public two-year institutions and private 
sector colleges and universities is the simple fact that our schools 
have the greatest capacity to meet their educational needs. As non-
traditional students, veterans in particular value many of the 
institutional qualities, which are inherently ingrained into the 
framework of private sector colleges and universities, such as 
geographic proximity to home or work, institutional emphasis on the 
adult-learner, flexible class schedules, and campuses in other states. 
Qualities Sergeant Michael Kidd (USMC) considered when he chose ECPI 
University because the school gave him the flexibility to continue his 
military service and offered the retraining necessary to pursue a 
career using computers after suffering debilitating injuries during his 
deployment in Iraq. Sergeant Kidd has gone from fighting combat threats 
to learning to fight cyber threats, as part of a DoD initiative aimed 
at getting injured service members back into the military or the 
civilian workforce. Cyber-warfare is an increasingly concerning threat, 
according to a 2011 DoD report, identifying the vulnerability of more 
than 15,000 defense computer networks and seven million computing 
devices across hundreds of installations across the world and civilian 
targets, such as power grids and financial systems. Job prospects for 
wounded warriors in cyber-security fields are favorable, especially for 
those who hold security clearances. Sergeant Kidd is one example of our 
Nation's wounded warriors who are making the transition from the 
battlefield into a non-traditional combat field thanks to the support 
of a private sector university. Comment [SP1]: ECPI student
    Corporal Chad Pfeifer (USA) ret. also represents the face of 
military and veteran education today. In the immortal words of Robert 
Frost, ``the best way out is always through,'' and Chad's story of 
recovery and discovery following an IED detonation which took his left 
leg while serving in Operation Iraqi Freedom in 2007, is nothing short 
of inspirational. Rather than succumbing to depression or the 
limitations of his disability, Chad taught himself to play golf, as a 
way of staying sane during the grueling seven months of physical 
therapy. It is estimated that one that one in five returning combat 
veterans reports coping with at least one disability, and Chad returned 
home needing time to heal from his debilitating, physical loss while 
also readjusting to civilian life. The Army veteran and Purple Heart 
recipient, picked up a golf club for the first time during his 
rehabilitation and never looked back. Hitting balls became a form of 
therapy as he adjusted to life with his new, prosthetic leg, and Chad 
was a natural. It was soon clear that golf had a transformative impact 
on him and when his therapy was complete, Chad returned to his hometown 
to pursue his interest in the golf industry professionally. With the 
support of his family and new colleagues, he entered the National 
Amputee Championship--a tournament that would come to define his future 
education and career path. Chad had tried the ``traditional'' higher 
education route, but it was his chance encounter at the tournament with 
another competitor who was a student at The Golf Academy of America 
that sent him down the path of achieving his dream of a professional 
golf career. In 2011, Chad received an associate degree in Golf Complex 
Operations and Management and the scratch golfer is now working his way 
through the PGA Apprentice Program in Scottsdale, AZ as an assistant 
golf professional. What started out as a form of therapy, ultimately 
became Chad's personal and professional salvation, and with great 
humility, credits The Golf Academy of America for his tremendous 
accomplishments and for making his dreams of hitting a little, white 
ball into the hole a reality. The veteran-centric support Chad received 
at the Golf Academy is evidenced in both the way he ended up enrolling 
there and the way he describes his experience as a veteran-student 
there. Serving military and veteran students is a top priority for The 
Golf Academy of America, as part of the Education Corporation of 
America family, and benefits from the Military Student Center (MSC), 
which was launched in 2009 and is available to all students, faculty, 
and family members. Modeled from the best practices of both private and 
public institutions serving military- and veteran-students, the MSC is 
a clearinghouse of resources for military and veteran students, and 
currently serves more than 2,900 enrolled military and veteran 
students. Military veterans and spouses, who have been given 
specialized training in both DoD TA and VA benefits, assist prospective 
and current students in understanding the complexities of the various 
benefits for which they may be eligible. In the last year, the MSC has 
responded to almost 29,000 phone calls from students in need of 
assistance. Since its formation, the MSC has also awarded more than 
$7.7 million dollars in scholarships to servicemembers, veterans, and 
their families. In addition, Education Corporation of America is a 
member of the SOC and follows guidelines established by the ACE for 
evaluation of both military and college transcripts. But, ECPI and The 
Golf Academy of America are just two examples of how our schools are 
truly serving the needs and addressing the concerns of veterans.
    Unfortunately these stories, and countless others, are not often 
told in the media or on Capitol Hill. The bad actions of some schools 
have set the stage for those with the bully-pulpit to launch an attack 
on the hundreds of thousands of veterans, spouses, and dependents who 
attend private sector colleges and universities. If there is one thing 
we can all agree on today, Sergeant Kidd and Corporal Pfeiffer, along 
with their brothers and sisters in uniform who have fought, died, and 
continue to proudly serve our Nation, are heroes; not pawns in 
Washington's latest political game. To that end, APSCU remains 
committed to working with every stakeholder to identify and resolve any 
problems that might exist. I would like to address these remarks 
specifically to the Members of the Subcommittee, full Committee, 
representatives from the VA and veteran service organizations, and even 
the Administration, when I say for the record that even one bad action 
by any institution of higher education that violates the educational 
principals we have been entrusted with by our military and veteran 
students is one too many. Further, I cannot and will not defend the 
indefensible. The recruitment of any prospective student, veteran or 
civilian, who cannot reasonably be expected to make informed and 
thoughtful enrollment decisions, is unconscionable. Recruitment 
documents that require staff to use psychologically cruel methods and 
strategies to pressure prospective students to enroll are absolutely 
unacceptable[JS2][SP3]. The majority of private sector colleges and 
universities hold the integrity bar very high for their recruiting 
personnel, and expect recruiting activities to follow legal, 
regulatory, and moral standards when interacting with any prospective 
student, however. A veteran who is here in this room today experienced 
the frustration felt by many other veterans who visit a very official-
sounding website in search of information about their education 
benefits, but are instead bombarded by unwanted phone calls and/or 
emails. This is not ok. But, the solution to ensuring that our veterans 
enroll at the institution that best meets their needs, receive the 
support they need to complete with a degree or diploma, and the skills 
and resources to find a job will be found here, in this Subcommittee 
and in the Senate Veterans Affairs Committee, not through a 
Presidential Executive Order. And APSCU appreciates the opportunity to 
further assist the Subcommittee in identifying and facilitating the 
right solution to the challenges facing our Nation's veteran-students.
    [JS2]We need to make clear that if this happens, first it is the 
rare exception NOT the norm. And second there already exist remedies 
for improper representation of a school's education outcomes.
    [SP3]Unfortunately, this comment was not regarding any 
misrepresentation - it was regarding multiple schools' inclusion of 
very objectionable language (ie ``Pain Funnel; Push the Pain Points)
    Ultimately the success or failure of the Executive Order is in the 
hands of the Administration. A promise was made to me that the White 
House would work directly with APSCU and others in the higher education 
sector to address concerns about the complaint process. I will hold 
them to that and I hope you will also. We must address the structure 
and scope of the complaint process to ensure that both the rights of 
the student and the rights of the institution are protected. There are 
also significant deficiencies with the ``Know Before You Owe'' form and 
the use of insufficient, inadequate data. As I said in my opening 
paragraph, if our collective goal is to ensure that our servicemembers 
and veterans receive the education they deserve with the benefits they 
earned at every institution of higher education, then we must put 
politics aside and get to work on a real solution.
    Mr. Chairman and Members of the Subcommittee, I want to express my 
deep appreciation for both your continued commitment to insuring our 
veterans are provided with both the access and the quality they deserve 
using their earned, education benefits; and for your continued 
oversight efforts of this process. It is imperative that we seize this 
opportunity to work together to achieve the outcome we all seek. But 
for that to happen, we must summon a greater spirit of positive 
collaboration among all stakeholders. APSCU is prepared to do the hard 
work that lies ahead and welcomes anyone, at anytime, to join us in 
continuing the evolution of this conversation out of the realm of 
political rhetoric and into thoughtful policy discussions with the end 
goal of arming our veterans with the resources they need to make the 
best academic decisions!
    Thank you. I stand ready to answer any questions you might have.

                                 <F-dash>
                Prepared Statement of Margaret Baechtold
    Chairman Stutzman, Ranking Member Filner, and Members of the 
Subcommittee, Thank you for the opportunity to testify today on behalf 
of the National Association of Veterans Program Administrators (NAVPA) 
regarding Executive Order 13607. My name is Margaret Baechtold. For 
over five years I have served as the Director of Veterans Support 
Services at Indiana University, a major public four-year institution of 
higher education where we believe in Honoring Service, Supporting 
Education, and Serving Veterans. A veteran myself, I retired from the 
United States Air Force as a lieutenant colonel after 20 years of 
service. I also currently serve as the Legislative Director for NAVPA. 
NAVPA's membership is comprised of educational institutions from all 
sectors with an organizational commitment to advocating for what is in 
the best interests of student veterans at our institutions. Our 
expertise lies in the administration of veterans programs at colleges, 
universities, and other education providers and most of our members 
serve as school certifying officials for VA education benefits. Our 
organization represents close to 400 educational institutions nation-
wide and our leadership is comprised of non-paid staff members. We 
voluntarily serve NAVPA in an effort to better serve the veterans on 
our campuses.
    As a voluntary organization, NAVPA does not police its membership 
regarding the issues raised by this Executive Order. Our primary 
mission is to provide training and professional development to member 
institutions, collect and disseminate best practices surrounding 
support for student veterans and military members, and advocate on 
behalf of students and our institutions. As an organization, we believe 
strongly that all educational institutions should be forthright and 
open with all students, particularly with regards to veterans' and 
military service members' unique needs and circumstances.
    Like so many other organizations, NAVPA has been dismayed at news 
reports of unscrupulous organizations' treatment of unsuspecting 
veterans and we strongly condemn the abuses to which veterans have been 
subjected at the hands of some institutions. While we believe there are 
no doubt costs and burdens involved in implementing Executive Order 
13607 at our institutions, we cannot object to an initiative that seeks 
to ensure that veterans are appropriately recruited, advised, and 
supported while in school. NAVPA is pleased that the President has 
taken such a direct interest in the education needs of our nation's 
veterans.
    (Section 2 - Financial Advising) We recognize that a requirement to 
provide specific and personalized financial advising will be 
challenging to implement, and increases the administrative burden on 
schools. This advice can only be provided if the institution has full 
access to all of the eligibility information required to determine 
possible aid alternatives. NAVPA has long advocated for direct access 
to student information from the VA and will continue to do so. At 
present, eligibility information is generally not provided directly to 
institutions, and it is incumbent upon students to furnish such 
information. As students do not always self-identify as military 
service members or veterans prior to enrollment, comprehensive 
information about student benefit eligibility is exceptionally 
challenging to obtain.
    The timing of institutional and agency business practices will also 
make implementation of financial advising requirements difficult. Some 
specific services that may be mandated pursuant to the Executive Order 
require information about student benefit eligibility from both the VA 
and the DOD at a very early stage (prior to enrollment). However, 
students cannot even apply for certain federal benefits or assistance, 
such as Army Tuition Assistance, until after they have already enrolled 
in classes. Schools cannot effectively predict in advance when and how 
much funding might be provided by military tuition assistance - or even 
Veterans Affairs education benefits - prior to enrollment, application 
to those agencies either for general eligibility or for the specific 
term of enrollment, and benefit or award authorization.
    Furthermore, it will be particularly difficult to provide 
individualized financial counseling prior to enrollment when many 
benefits are based on actual enrollment levels, actual institutional 
charges, and the receipt of other financial awards. Many federal, 
state, private, and campus-based financial awards are determined by a 
student's unmet financial need, and must be adjusted when a student 
receives other funding. The Post-9/11 GI Bill is one example of a 
program that pays a net-cost, which must be adjusted when other 
tuition-restricted awards are processed.
    NAVPA supports efforts to improve the information flow to 
prospective students, which will help veterans make better-informed 
decisions about how to use their benefits, but we also recognize the 
challenges involved with implementing the services required by this 
Executive Order. We hope and expect that as policies are developed, we 
might contribute to the conversation about how best to provide the 
information needed by prospective student veterans and their families 
regarding funding options for their education.
    (Section 3 - Data Reporting) We particularly appreciate the 
Administration's efforts to rely on existing data and reporting 
mechanisms to mitigate the potential increase in workload on the part 
of schools. One estimate from a four-year public institution predicts 
the initial time commitment to build a report structure in compliance 
with the broad goals of this Executive Order would be 100-150 man-
hours. The type of aggregate data reporting required would likely not 
come via our members, the School Certifying Officials, but rather from 
school Institutional Reporting offices that now collect, analyze and 
report data for other federal requirements such as those from the 
Department of Education. Collective information is not something that 
certifying officials have the authority to access or release on behalf 
of their institutions.
    (Section 3c - Success Metrics) All schools are interested in 
assessing the success of all their students. The most important factor 
will be to define success appropriately for each academic environment 
and develop data collection methods that are robust, accurate, and 
meaningful. We hope and expect that educational institutions and the 
organizations that represent them including NAVPA will be involved in 
the process of developing these desired outcomes and metrics.
    (Section 3d - Information Sharing) We support efforts to provide or 
improve resources for comparative data for students about prospective 
schools. Links between the VA's eBenefits portal and information 
collected and available through the Department of Education could serve 
to streamline veteran's access to comparative data regarding their 
education options. We also encourage continued efforts to provide 
schools access to data about individual student's benefit eligibility 
so we can accomplish the tasks asked of us by both this Executive Order 
and current regulations. While we understand that these improvements 
will require resources to complete, we feel these are worthwhile 
investments. We do have concerns should the appropriate resources not 
be provided to the entities responsible for implementation.
    (Section 4 - Oversight) As I stated previously, NAVPA fully 
supports efforts to ensure veterans are appropriately recruited, 
advised, and supported while in school. Requiring disclosure by schools 
should not be a substitute for solid oversight, however. The agencies 
administering these programs at all levels are in need of further 
oversight resources to provide training and enforce the provisions of 
this Executive Order as well as the currently existing regulations. The 
VA needs assistance with compliance tasks now that the Post 9/11 GI 
Bill has become so complex. Diverting State Approving Agency resources 
to that role has proven problematic and leaves no one to fulfill the 
SAA's historic role of providing training and supervision to 
institutions regarding education issues beyond the payment of education 
benefits. There are varying roles within the oversight arena and tasks 
should be distributed to the agencies best suited and situated to 
accomplish them
    (Section 4 a--Complaint System) We have no reservations about a 
structured and centralized complaint system. We too want to see every 
institution provide superb education and support for veterans. This is 
another area that will require appropriate resourcing to ensure the 
agencies such as State Approving Agencies tasked with implementing this 
system can manage this along with all other current tasks.
    Mr. Chairman, this concludes NAVPA's statement. As a veteran and on 
behalf of the members of NAVPA, I'd like to thank you and the member of 
the Subcommittee for your leadership on issues of critical importance 
to America's veterans. I appreciate this opportunity to share our views 
today. I look forward to working with you and would be happy to answer 
any questions you may have.

Executive Summary

    NAVPA represents almost 400 educational institutions, advocating on 
behalf of them and the student veterans enrolled at each of them. NAVPA 
has been dismayed at recent reports indicating poor treatment of 
veterans by unscrupulous organizations.
    While we believe there are costs and burdens associated with 
Executive Order 13607, we cannot object to any initiative that serves 
to ensure veterans are appropriately recruited, advised, and supported 
while in school.
    The financial advising required by Executive Order 13607 will be 
challenging due to limited access to information and timing. Schools 
cannot accurately advise students about financial options prior to 
enrollment when benefits are contingent on the student's enrollment 
record and other financial awards. Schools also need direct access to 
student eligibility information from federal agencies such as the VA in 
order to accurately advise students about their various benefit 
options.
    Reporting of aggregate data on student veterans and military 
members will require additional effort on the part of schools that do 
not already track these students as a sub-population. We appreciate the 
efforts in this Executive Order to rely on existing data reporting 
mechanisms to mitigate this increased workload.
    All institutions are interested in measuring the success of their 
students. The challenge lies in appropriately defining success and the 
metrics by which it will be measured.
    We support efforts to collect and disseminate information to assist 
veterans in making informed educational choices.
    We continue to request access to data on individual student 
benefits to better allow us to provide the type of financial advising 
anticipated by this Order.
    Disclosure by schools is not a substitute for robust oversight and 
agencies tasked with that oversight need to be appropriately resourced.
    We have no reservations about a structured complaint system, but 
those charged with its implementation need to be appropriately 
resourced to fulfill these tasks along with all others asked of them.
    NAVPA hopes and expects to be participants in the conversations 
about how to most effectively implement the requirements of this 
Executive Order

                                 <F-dash>
                 Prepared Statement of Barmak Nassirian
    Chairman Stutzman, Ranking member Braley, and Members of the 
Subcommittee.
    My name is Barmak Nassirian and I am Associate Executive Director 
with the American Association of Collegiate Registrars and Admissions 
Officers. AACRAO is a non-profit association of more than 2,600 degree-
granting institutions of higher education and some 11,000 campus 
enrollment services officials. The admissions professionals within our 
membership play a central role in recruitment and academic placement of 
veterans and active-duty Service members. In addition, the registration 
officials within our membership have historically served as 
institutional points of contact with veterans and Service members, and 
serve as school certifying officials on many campuses. I appreciate the 
opportunity to participate in today's hearing on Executive Order 13607 
and its impact on veterans and institutions.
The April 27 Executive Order Provides Needed Protections
    While concerned about its implementation challenges and compliance 
costs, we nevertheless strongly support Executive Order 13607 (``EO'') 
as an important first-step in improving educational opportunities for 
veterans and Service members and in protecting them from predatory 
providers. There is ample evidence that veterans and Service members 
are being specifically targeted by a subset of providers who mislead 
them into enrollment in expensive programs of highly questionable 
educational and employment value. The nearly $10 billion of combined 
federal educational benefits that the Departments of Defense (DoD) and 
Veterans Affairs (the VA) provide for veterans and Service members are, 
of course, sufficient incentives in themselves for unscrupulous 
providers seeking to maximize profits through high-pressure marketing, 
deceptive advertising, and misrepresentation of worthless or subpar 
programs that often cost vastly more than quality programs at 
legitimate institutions of higher education. But a gatekeeping 
provision of the Higher Education Act of 1965 (``HEA''), known as the 
``90-10 Rule,'' which requires for-profit schools to derive at least 10 
percent of their annual revenues from sources other than HEA Title IV 
(``federal student aid'') programs, provides an even more powerful 
economic incentive for the targeting of veterans and Service members. 
This is because revenues derived from programs administered by the DoD 
and the VA, although funded entirely with federal dollars, count as 
part of the 10 percent non-Title IV cash flows of for-profit schools. 
Institutions that have difficulty selling their programs to anyone but 
individuals entirely financed with Title IV funds can thus leverage 
nine dollars of federal student aid funding for every dollar they 
obtain through the DoD or the VA. Enrolling veterans and Service 
members is now a matter of company survival for many for-profit 
corporations, because without DoD Tuition Assistance and GI Bill 
revenues, they would also lose eligibility for Title IV, which is their 
lifeblood and otherwise their sole paying customer.
    It should therefore come as no surprise that for-profit providers 
are resorting to extreme measures in their attempts at recruiting 
veterans and Service members. The pattern of fraudulent and abusive 
marketing and recruitment practices targeting veterans and Service 
members that have come to light over the course of the past few years 
are disturbing and reprehensible. These include aggressive recruitment 
of veterans with traumatic brain injuries, misrepresentation of actual 
costs, and the bundling of ``free'' consumer electronic giveaways with 
expensive tuition charges as inducements for enrollment. In addition to 
the mounting evidence of corrupt and questionable recruitment 
practices, the program utilization data for both the DoD's Tuition 
Assistance Program and the Post-9/11 GI Bill clearly evince signs of 
systemic abuse, with a disproportionate share of program funds flowing 
to institutions with high costs and abysmal retention, graduation, and 
job placement outcomes. The EO represents a constructive attempt at 
providing greater transparency about costs and outcomes and, if 
properly implemented over the coming months, will certainly provide 
veterans and Service members with critical protections lacking today. 
Even the most robust implementation of the EO, however, would not be 
sufficient to root out waste, fraud and abuse altogether. As the 
Subcommittee deliberates about future legislative improvements to the 
Post-9/11 GI Bill, it may wish to consider more effective gate-keeping 
provisions. The single most effective legislative amendment to the 
Post-9/11 GI Bill would be the adoption of an ``80/20'' rule to require 
that participating institutions derive at least a modest 20 percent 
portion of their annual revenues from non-federal sources. The ability 
of companies to sell their services to buyers spending non-federal 
dollars would provide the best market-validation of their offerings and 
would certainly offer an assurance that taxpayers are not the only 
buyers of any provider's worthless services.
Compliance Issues
    Assessing the likely processes through which the directives 
established in the EO would be implemented is extremely difficult at 
this early stage. There can be no doubt that even the most carefully 
crafted implementation of the EO will entail institutional costs, but 
such costs would, we hope, be justified by the added protections for 
Service members and veterans. There are significant administrative 
challenges in coordinating the efforts of the several federal agencies 
involved, and micromanagement and regulatory overreach are distinct 
possibilities. But in conversations with Administration officials, we 
have been assured that the agencies are sensitive to compliance issues 
and institutional burdens, and that every attempt will be made to 
reduce duplicative and unnecessary requirements. The higher education 
community, in turn, stands ready to work with the Administration and 
Congress in implementing the ``Principles of Excellence'' articulated 
in the EO.
Principles of Excellence
    The EO lists eight specific consumer disclosure and protection 
provisions that institutions should comply with to the extent permitted 
by law. Participating institutions would be required (or encouraged) 
to:

       1--provide prospective students who are eligible to receive 
military or veterans educational benefits with a ``personalized and 
standardized'' form that discloses certain cost, aid, and outcomes 
data. While appealing in concept, this requirement will prove 
exceedingly difficult to implement in practice, particularly given that 
institutions often do not know whether an applicant or even a student 
may be eligible for certain federal benefits. Clearly, the mandate 
should apply to all cases where institutions do know about a 
prospective student's likely eligibility, but unless a readily 
available method of verifying eligibility is provided for institutions, 
some interpretive flexibility will be essential. In addition, consensus 
on the specific data to be disclosed will prove quite challenging. On 
this latter issue, we strongly urge the designated agencies to engage 
representatives of higher education institutions in a collaborative 
effort to arrive at reasonable definitions. Understandably, our 
interactions with the Department of Education have been quite collegial 
over the years, and we have established better relations with the 
appropriate offices within the DoD in recent months. Despite its 
increasing prominence given the growing number of student veterans, the 
VA has been generally less accessible and less communicative, and we 
hope to be more engaged with its leadership and officials as well.
       2--inform students who are eligible to receive military or 
veterans education benefits of the availability of federal student aid 
programs. This requirement can and should be carried out for all 
students. The challenge here is how the agencies of jurisdiction will 
attempt to carry out the mandate and how institutions would demonstrate 
compliance. Federal student aid programs are typically less expensive 
and offer greater protections to students than private financing 
arrangements, and all students should be properly counseled of their 
availability before they resort to private borrowing or payment with 
credit cards. Unfortunately, some ill-advised agency policies--the VA's 
on-again, off-again policy of attempting to collect outstanding 
balances from previously certified veterans' educational benefits due 
to institutions, for example--inadvertently promote last-minute private 
financing by cash-strapped veterans, a matter that we hope the 
Subcommittee takes up with the VA.
       3--end fraudulent and aggressive recruiting techniques, 
misrepresentation, payment of incentive compensation, and failure to 
meet State authorization requirements. Institutions participating in 
Title IV are already subject to these strictures and compliance with 
this requirement will not be particularly difficult or costly for them. 
On the issue of fraudulent and aggressive marketing and recruitment, we 
are certainly aware of some the excessive and abusive practices 
documented by the media, veterans' advocacy organizations, and public 
interest groups. As a voluntary association of colleges and 
universities we have no investigative or enforcement powers against 
entities that engage in such behaviors, and believe that the Department 
of Education has not done an adequate job of enforcing the applicable 
regulations. It is our hope that the EO will induce all agencies of 
jurisdiction, including the department of Justice, to step in and 
address the problem through robust enforcement of the law.
       4--btain the approval of the institution's accrediting agency 
for new academic offerings when appropriate under the substantive 
change requirements of the accrediting body. Again, institutions 
participating in Title IV are already subject to these strictures and 
compliance with this requirement will not be particularly difficult or 
costly for them. We believe that accreditation is increasingly 
vulnerable to gaming and manipulation by corporate entities with vastly 
greater resources than their accrediting bodies, but hope that this 
provision of the EO will serve notice to accrediting agencies that they 
need to do more when confronted with rampant waste, fraud, and abuse.
       5--allow Service members and reservists to be readmitted in 
cases of absence or withdrawal due to Service requirements. This is 
current practice at most legitimate institutions, and compliance with 
this provision is not substantively problematic. We hope that the 
agencies will be minimalistic in interpreting this requirement, 
however, because heavy-handedness and micromanagement of policies at 
thousands of schools would be ill-advised, costly, and burdensome.
       6--gree to an institutional refund policy that is aligned with 
return of Title IV rules. This provision can, in its most expansive 
reading, be interpreted to upend current refund policies and prove 
extremely expensive and unworkable for most institutions. It is our 
understanding, however, that the intent of this language is to apply 
the existing Title IV refund provision to institutions that do not 
participate in Federal Student Aid programs, in which case there would 
be no additional costs for the vast majority of institutions.
       7--provide educational plans for Service members and veterans. 
After months of extensive conversations with DoD officials, we jointly 
agreed that a better label for what they hitherto referred to as 
``educational plans'' would be ``degree requirements.'' So long as this 
provision is interpreted in conformity with that understanding, we do 
not believe that it would impose particularly difficult compliance 
challenges for institutions. We have been assured that this provision 
of the EO is intended to mandate the same general disclosures as those 
that the DoD and representatives of higher education institutions have 
discussed.
       8--designate a point of contact for Service members and 
veterans. This is a provision that we support, and would require a 
practice that most institutions already have in place.
Implementation
    The Departments of Defense, Education, and Veterans Affairs must 
take immediate action to implement the EO in consultation with the 
Department of Justice, and the Consumer Financial Protection Bureau; 
and are to provide the President with a progress report within 90 days. 
While some of the requirements articulated in the EO can be imposed 
through administrative, regulatory, or enforcement mechanisms; others 
may require legislative authorization. The DoD, for example, has 
significantly greater discretion in defining the programmatic 
requirements of the Tuition Assistance program than does the VA in its 
management of GI Bill benefits. Indeed, we were initially concerned 
that the EO may delay the release of the DoD's long anticipated 
revision of its Memorandum of Understanding (MOU). But we have been 
informed that the EO's requirements will be included in a future 
version of the MOU, and that the DoD will release the revised version 
sometime this summer as previously announced.
    The choices and decisions that the agencies will make over the 
coming weeks and months will have significant consequences in terms of 
compliance costs and effectiveness of the EO's implementation. Such 
contested and controversial concepts as ``student outcome measures'' or 
``key measures of affordability and value'' will have to be defined, 
and the data needed to generate them will have to be obtained. We urge 
the agencies to consult and regularly communicate with institutions of 
higher education as they proceed, and are ready to provide assistance 
as appropriate. The centralized complaint tracking system, procedures 
for referrals to the DOJ and the configuration of targeted risk-based 
program reviews and audits are, in themselves, quite reasonable 
requirements that we would support. As always, there are dangers 
associated with even seemingly innocuous requirements, and the as-yet-
unknown manner in which these new policies will be implemented does 
lead to compliance and cost concerns. Other provisions of the EO, in 
contrast, are more readily understandable and more immediately 
acceptable to institutions. The EO's requirement, for example, that the 
agencies initiate a process to protect the ``GI Bill'' from misleading 
commercial uses is one that we strongly endorse, as is its call to 
create uniform rules and procedure for access to military bases.
    Mr. Chairman, I thank you for this opportunity to share some of our 
concerns with you and the members of the Subcommittee. AACRAO stands 
ready to assist the Subcommittee in its work on this important issue.

                                 <F-dash>
            Prepared Statement of Dr. Jonathan C. Gibralter
    Chairman Stutzman, Ranking Member Braley, and distinguished members 
of the Subcommittee. I am Dr. Jonathan Gibralter, President of 
Frostburg State University in Maryland. I am testifying on behalf of 
the American Association of State Colleges and Universities, commonly 
known as AASCU. AASCU represents over 400 institutions and university 
systems across 49 states, the District of Columbia, Puerto Rico, Guam 
and the Virgin Islands.
    Thank you for holding this hearing and providing me the opportunity 
to present testimony regarding the President's April 27th Executive 
Order, which establishes Principles of Excellence for Educational 
Institutions Serving Service Members and Spouses. I ask that my 
testimony be entered into the record.
    AASCU appreciates the intent of the issued Executive Order. Our 
nation's veterans and military personnel should be able to obtain 
quality information about institutions and their programs that also 
take into consideration the particular benefits they have earned. AASCU 
and its member institutions, including my own campus, value the 
perspective and experience that servicemembers and veterans bring to 
our institutions. As such, we take our commitment to providing them a 
quality educational experience very seriously.
    In fact, AASCU as a whole has concerned itself with the welfare of 
military and veteran students for decades both as a member of the 
larger higher education community and as the administrative agent for 
Servicemembers Opportunity Colleges (SOC) since 1972. As an association 
representing four-year public institutions--a sector that in 2007-08, 
prior to the Post-9/11 GI Bill's enactment, served roughly 21 percent 
of military undergraduates according to the National Center for 
Education Statistics (NCES)--AASCU represents many institutions that 
have made a commitment to serving this population of students. \1\ 
Therefore, the specifics of our testimony are offered in the spirit of 
assisting the various Cabinet agencies involved in implementing the 
Executive Order to best help the veteran and military students who our 
institutions have educated for years.
---------------------------------------------------------------------------
    \1\ See ``Issue Tables: A Profile of Military Servicemembers and 
Veterans Enrolled in Postsecondary Education in 2007-8"
---------------------------------------------------------------------------
    To discuss my own institution for a moment, the G.I. Bill has had a 
significant impact on the history of Frostburg State University, 
marking its move to the modern era. In early 1945, enrollment in 
Frostburg State Teachers College had dwindled to 62 students and 
Frostburg was slated for closure. With the advent of the G.I. Bill, 
however, enrollment jumped to 272 students in 1946. By 1949, it had 
grown to 427, a six-fold increase in five years. As the G.I. Bill 
transformed our nation, it transformed Frostburg, truly marking the 
beginning of the modern era for our institution.
    Since then, Frostburg State has continued to evolve as the needs of 
veterans have changed over the years. In the 1960s and early 1970s, our 
concern was accommodating the disruption in students' educations, 
especially if they were drafted mid-year, as well as meeting their 
educational and other needs upon their return from service.
    The attacks on September 11, 2001, and the subsequent wars in 
Afghanistan and Iraq have necessitated the nation undertake similar 
measures to serve those who served us. As the conflicts in Iraq and 
Afghanistan wind down and over 2 million troops are withdrawn from 
those areas, more and more veterans will be arriving on college 
campuses to use the educational benefits they have earned serving our 
country. In addition, our active-duty military are combining service to 
the country with higher education. For example, in 2011, 751,000 
active-duty military utilized their Tuition Assistance (TA) benefits by 
enrolling in undergraduate programs. A total of 41,223 undergraduate 
degrees were awarded; including graduate degrees, 44,691 total degrees 
were completed by TA users.
    On the veteran front, the Department of Veterans Affairs (VA) 
stated in its February 2012 budget request that over a million active-
duty military personnel are projected to become veterans over the next 
five years. VA anticipated that if its spending proposals were approved 
by Congress, they would support education benefits for more than a 
million American veterans. According to the same VA document, in FY 
2013, ``The Post-9/11 GI Bill will help pay the educational expenses of 
more than 606,000 service members, Veterans, family members and 
survivors.'' \2\
---------------------------------------------------------------------------
    \2\ February 13, 2012 VA Press Release, downloaded May 10, 2012 
from http://www.va.gov/opa/pressrel/pressrelease.cfm?id=2263.
---------------------------------------------------------------------------
    Specifically, since Frostburg is not near major military 
installations, it serves the majority of veterans and active military 
connected to our region's National Guard and Reserve units. The number 
of veterans we serve varies significantly from year to year. Our 
growing online programs, in particular our accredited MBA, are proving 
popular with veterans since they are designed for flexibility. We 
anticipate that our newly accredited Bachelor of Science in Nursing for 
R.N.s, also online, will be of value to military medical personnel.
    Those at Frostburg who work most closely with our veterans and 
military members recognize the same technical hurdles that my 
colleagues at AASCU do, which I will discuss further in a moment. Those 
of us ``on the ground'' are also most aware of the human issues of the 
individuals we work with. As there is no requirement that students 
identify themselves as veterans, some choose not to do so for a variety 
of reasons, meaning they may be missing out on services we can provide. 
Others arrive at Frostburg without having completed the process to 
become eligible for benefits, which also means they will be unable to 
take advantage of provisions in the Executive Order.
    We understand that the Executive Order was written in more general 
terms than any specific implementation documents will be; however, the 
text of the Executive Order as written raises a number of concerns for 
AASCU institutions regarding implementation. Higher education and 
governmental stakeholders learned in the process of rolling out the 
Post-9/11 GI Bill and revising the DoD MOU that the old adage ``the 
devil is in the details'' is still true today; the process of 
implementing the Executive Order will only reinforce it.
    One of those details is the issue of data availability related to 
the order's requirement that the Secretaries of Defense, Veterans 
Affairs, and Education ``shall develop a comprehensive strategy for 
developing service member and veteran student outcome measures that are 
comparable, to the extent possible, across Federal military and 
veterans educational benefit programs, including, but not limited to, 
the Post-9/11 GI Bill and Tuition Assistance Program.'' While AASCU 
appreciates the order's statement that ``To the extent practicable, the 
student outcome measures should rely on existing administrative data to 
minimize the reporting burden on institutions participating in these 
benefit programs,'' there is considerably more burden to finding 
available data for this type of outcome measure than meets the eye.
    Currently--as explained in the report from an Integrated 
Postsecondary Education Data System (IPEDS) Technical Review Panel 
(TRP) convened in November 2011 to address the topic of collecting 
higher education data on servicemembers and veterans \3\--IPEDS does 
not collect data on veteran and military students. The panel was 
composed of 43 representatives including the Department of Defense 
(DoD), VA, AASCU and other members of the higher education community, 
state governments, and veteran/military student associations. After 
lengthy discussion, the panel came to the conclusion that ``There is 
value in collecting more detailed information on veterans and military 
service members to address policy questions and provide more detailed 
information on veteran persistence rates, graduation rates, and the 
number of veterans completing postsecondary programs. However, given 
the limitations in data systems and available data, the panel concluded 
that IPEDS is not the appropriate instrument for collecting these data 
at this time.'' \4\
---------------------------------------------------------------------------
    \3\ See Report and Suggestions from TRP Panel #36.
    \4\ Ibid, p. 9.
---------------------------------------------------------------------------
    Since IPEDS is an aggregated institutional-level database not 
designed to collect student-level data, and other national sample 
surveys (such as the National Postsecondary Student Aid Survey [NPSAS] 
and the Beginning Postsecondary Student Survey [BPS]) are limited in 
their ability to provide granular data on military and veteran 
students, the issues of data definition and collection raised by the 
Executive Order's requirement to develop national-level outcome 
measures become even more significant for institutions. This is because 
institutions and states vary in their ways of defining veteran and 
military students based on what data is available to them. Yet another 
significant issue in data definition is, as I have mentioned is the 
case at Frostburg State, that not all veteran students self-identify as 
veterans or receive veterans education benefits. Also, as the TRP 
report points out, institutions and states are not always able to tell 
if a student covered by another veterans education benefit than the 
Post-9/11 GI Bill has actually received the benefit, or has only been 
certified as eligible by the VA. \5\
---------------------------------------------------------------------------
    \5\ Ibid, p. 4.
---------------------------------------------------------------------------
    The points above scratch the surface of the technical issues 
involved. Higher education stakeholders, including AASCU, are more than 
willing to share their technical expertise with the Federal agencies 
tasked with implementing the Executive Order. However, given the 
complexity of data identification and collection on this topic, higher 
education institutions will inevitably be asked for data that may or 
may not be possible to obtain; AASCU would like to highlight this point 
for the Subcommittee.
    This leads to another concern, which is that of reporting burden 
and associated cost as well as a subsidiary issue of mixed messages 
from the Administration calling for fewer regulations but adding 
reporting burden via an Executive Order. In 2010, as part of the 
reauthorization of the Higher Education Act of 1965, the Government 
Accountability Office (GAO) completed an analysis of the burden placed 
on institutions to comply with expanded mandatory IPEDS reporting. \6\ 
Among other issues, GAO found that ``Schools reported time burdens [to 
complete IPEDS reporting] ranging from 12 to 590 hours, compared with 
the 19 to 41 hours Education estimated . . . .'' \7\ Further, GAO 
reported that institutions incurred a total estimated salaries and 
computer costs of over $6 million. \8\
---------------------------------------------------------------------------
    \6\ See ``Institutions' Reported Data Collection Burden Is Higher 
Than Anticipated But Can Be Reduced Through Increased Coordination''
    \7\ Ibid, p. 10.
    \8\ Ibid, p. 2.
---------------------------------------------------------------------------
    Other than mandated Federal and state reporting as well as required 
reporting to accreditors, institutions also conduct significant 
internal data analyses and respond to external stakeholders including 
multiple publishers whose materials are used by many students, 
including servicemembers and veterans, to choose colleges. The call for 
specific, comparable outcome measures in the Executive Order would be 
an expansion of current reporting requirements. As mentioned above, the 
data required is difficult to collect (and may be impossible in some 
cases) for institutions to obtain on their own. Depending on how the 
Executive Order is implemented, it may require institutions to incur 
considerable back-office costs related to reprogramming/expanding data 
systems and staff time. Given cuts to state-level higher education 
support over time combined with ever-expanding reporting requirements 
on multiple fronts, this cost is not a negligible issue for AASCU 
institutions.
    In fact, to turn to my own institution's case again, both Section 
2(g) and Section 3(d) in the Executive Order will require the 
expenditure of significant amounts of professional time and effort, far 
beyond anything currently required by VA or State Approving Agency 
(SAA) mandates. It will not be possible to accomplish this kind of task 
on our campus without bearing the burden of an additional professional 
position.
    However, the sense AASCU has from initial conversations with the 
White House and other stakeholders regarding implementation of the 
Executive Order is that exploring the usability of administrative data 
on benefit payments housed in various Cabinet agencies--e.g., the 
Department of Education and the Department of Veterans Affairs--would 
be a profitable avenue to follow. AASCU encourages the use, wherever 
possible, of data housed in the various data silos of the Departments 
of Education, Defense, and Veterans Affairs in order to comply with the 
Executive Order. If this data were released to the higher education 
community (while following applicable data privacy standards), higher 
education researchers can assist in analyzing the data. AASCU also 
looks forward to continued collaboration with those tasked with 
carrying out the Executive Order to find cost-effective ways of 
providing usable and meaningful data on military and veteran students.
    While data-related implementation issues are of considerable 
concern to AASCU, an additional key concern is the complaint system 
outlined in the Executive Order that would ``create a centralized 
complaint system for students receiving Federal military and veterans 
educational benefits to register complaints that can be tracked and 
responded to by the Departments of Defense, Veterans Affairs, Justice, 
and Education, the CFPB, and other relevant agencies.'' To provide an 
institutional-level perspective, Frostburg State University is already 
in high compliance with VA and SAA mandates. The proposed mandates are 
very similar to those already in place in Maryland. Our Veterans 
Affairs Office is already on the lowest frequency of SAA and VA audits 
due to our excellent performance on all previous audits.
    Our concern is with the federal government instituting a 
centralized complaint system without first establishing whether an 
individual has already attempted to resolve their complaint with a 
university or college's veterans affairs office or with the SAA 
representatives. Too often complaints rise to the highest level of 
attention when the difficulty resides at the local level. We suggest 
that a complaint be permitted to rise to the agency level only when 
local processes or procedures have failed to resolve the issue.
    Furthermore, the text of the Executive Order as written does not 
give any institution a clear means to appeal complaints made against 
them. As documented in previous testimony to Congress on the 
implementation of the Post-9/11 GI Bill by various veterans education 
and higher education stakeholders including AASCU, \9\ institutions 
have both received conflicting guidance from VA and have been subjected 
to VA delays in payment processing. This creates a scenario based on 
past history where institutions could be investigated by multiple 
federal agencies based on delays and confusion created by the federal 
government itself.
---------------------------------------------------------------------------
    \9\ See testimony from the University of Illinois at Chicago, 
NAVPA, and AASCU.
---------------------------------------------------------------------------
    Therefore AASCU strongly suggests that higher education 
stakeholders have significant input into the conceptualization of this 
centralized complaint system and its operational processes. This should 
not be taken as a repudiation of the idea that military and veteran 
students should be able to report valid complaints and have them acted 
upon by appropriate state or Federal agencies. AASCU does not want to 
see military and veteran students abused by those who would target 
their educational benefits. However, AASCU encourages caution and 
involvement of higher education stakeholders throughout the process of 
bringing this system online to ensure that the final complaint 
mechanism serves all parties truthfully and equitably.
    This leads me to my final point on behalf of AASCU: As this 
Executive Order is implemented, AASCU would like to see those 
implementing it pay special attention to increasing communication and 
data-sharing by the VA and DoD with higher education stakeholders. As 
the Post-9/11 GI Bill implementation process in particular has evolved, 
one consistent frustration on the part of higher education 
administrators trying to serve their military and veteran students is 
the lack of consistent, clear, and reliable communication from VA to 
the higher education community.
    VA's lack of guidance and inconsistent information-sharing on 
matters that seriously affect institutions' ability to serve veteran 
students (e.g., the prospective VA garnishment of tuition and fee 
payments for unrelated debts, as detailed in a community letter to 
Secretary Shinseki on April 9, 2012 \10\) has been well-documented in 
the media and in previous higher education testimony. While we 
appreciate that VA has had to learn a new way of doing business with 
higher education given the structure of the Post-9/11 GI Bill, higher 
education--and hence veteran students--have still suffered from VA's 
lack of communication with the community.
---------------------------------------------------------------------------
    \10\ See http://www.nacubo.org/Documents/BusinessPolicyAreas/
ShinsekiletterVA.pdf
---------------------------------------------------------------------------
    Thus we strongly urge those responsible for implementing the 
Executive Order to use this opportunity to create a new climate of 
information and data-sharing in VA and DoD in particular, with higher 
education stakeholders as equal partners. This will ultimately benefit 
veteran and military students.
    Frostburg State University and other AASCU institutions are eager 
to continue meeting the needs of our military members and veterans as 
well as their families. Our experience is that these returning military 
become solid students and campus leaders. We support these efforts to 
protect them. In fact, many of the measures presented in the Executive 
Order are already in place at Frostburg and within the State of 
Maryland.
    Mr. Chairman, in closing, I again reiterate AASCU's commitment to 
and recognition of the service of our nation's servicemembers and 
veterans. As part of that commitment, we strive to provide timely and 
accurate information to our students. As such, we support the 
Administration's efforts to ensure that servicemembers and veterans can 
make the best-informed educational choices appropriate to their unique 
needs.
    Thank you for the opportunity to present this testimony on behalf 
of AASCU. I am happy to answer questions.

Executive Summary

Concerns regarding implementation of Executive Order
    D  Data availability related to specific outcome measures required 
for veteran and military students

    u  Veteran students do not always self-identify as veterans
    u  IPEDS does not currently collect data on these two populations
    u  Other national sample surveys are limited in ability to provide 
granular data on veterans and military students
    u  Definitions vary by institutions and states depending on data 
available
    u  Institutions may not be able to obtain data - VA and DoD are 
better sources

    D  Reporting burden on institutions and associated cost

    u  Reporting requirements in Executive Order are expansion of 
current requirements
    u  Cuts to state higher education support over time reduce staff 
and monies available to meet requirements at AASCU institutions in 
particular

    D  Establishment of federal centralized complaint system without 
taking into account whether individuals have already attempted to 
resolve complaints at local level or with State Approving Agencies
    D  Lack of established clear means for institutions to appeal 
complaints made against them
    D  Lack of consistent guidance and information-sharing from VA 
already affects institutions' ability to serve veteran and military 
students - new culture of data- and information-sharing will need to be 
established between VA, DoD, and higher education to effectively 
implement Executive Order

                                 <F-dash>
                   Prepared Statement of Chad Schatz
Introduction
    Chairman Stutzman, Ranking Member Braley and members of the 
Subcommittee on Economic Opportunity, we are pleased to appear before 
you today on behalf of the National Association of State Approving 
Agencies (NASAA) to provide comments on ``Executive Order 13607 and Its 
Impact on Schools and Veterans''. We also will provide some additional 
comments that may be helpful to the Committee as it addresses concerns 
about maintaining the effectiveness and integrity of the administration 
of the GI Bills.
    Before offering NASAA's observations with respect to Executive 
Order 13607 and the potential challenges to its implementation, I'd 
like to offer a few general comments about who serves, sacrifices, and 
benefits with respect to the GI Bill educational assistance programs 
administered by the Department of Veterans Affairs under Title 38, USC.
General Comments
    We believe NASAA's longstanding presence as the ``face of the GI 
Bill'' in the 50 States has the potential to furnish value-added 
historical information for the Subcommittee; information that is 
germane to today's public hearing.
                               Who Serves
    The Subcommittee certainly knows that America's sons and daughters 
who wear the military uniform of the United States represent the very 
best of character, commitment, and resolve. Like the 19-year olds who 
scaled the cliffs of Normandy, America's post 9-11 generation's 
greatness exceeds only its selflessness while in harm's way.
    Disciplined by duty and enlightened through experience, our All-
Volunteer Force indeed represents America's most engaging and 
resourceful of individuals; a segment of our society that literally 
grows leaders; not just for their military time but for a lifetime. 
They are mature beyond their years and are undaunted by being part of 
something so much bigger than themselves.
    Deployed to some 120 countries around the world, many of our 
service members have seen first-hand the insidious effects of tyranny 
over freedom and dictatorship over democracy. As the late General 
Creighton Abrams observed: ``Soldiers are not in the Army. Soldiers are 
the Army.'' Ordinary Americans whom we ask to do extraordinary things 
in our defense both here at home and on the world stage. Many of the 
same airmen, soldiers, Marines, sailors, and coast guardsmen are 
deployed again and again--year after year.
    Extraordinary things? The National Leadership Index 2005: A 
National Study of Confidence in Leadership conducted by the Yankelvich, 
Inc. Survey organization for US News and World Report/Harvard's John F. 
Kennedy School of Government found that Americans have more confidence 
in our military--and military leaders--than any other segment of our 
society. They simply do whatever America asks them to do.
    Mr. Chairman, perhaps particularly illustrative of the intended 
beneficiaries of Executive Order 13607 are the observations, first, of 
Representative Henry Brown of South Carolina, recently retired, who 
formerly chaired this Subcommittee while working closely with ranking 
member Michael Michaud; and second, Representative Ike Skelton, 
recently retired, who previously chaired the House Committee on Armed 
Services.
    At the March 24, 2004 bipartisan House Committee on Veterans' 
Affairs press conference titled ``Wall Street and Main Street Agree: 
Veterans Give Business the Winning Edge'' Representative Brown asked 
rhetorically:

       ``In what other aspects of society do technology-savvy 20 year 
olds maintain multimillion dollar tactical aircraft; navigate and 
troubleshoot multi-billion dollar nuclear powered ships; and operate 
and maintain space-based technologies to keep us safe in an 
increasingly unsafe world?''

    Indeed while servicemembers and veterans may be new to 
postsecondary education and training, they are not new to initiative 
and responsibility.
    At his December 1, 2010 farewell, the former 17-term Representative 
Ike Skelton expressed concern that fewer and fewer Americans understand 
the sacrifices of military service:

       ``I have always considered each young man and woman in uniform 
as a son or daughter. They are national treasures and their sacrifices 
cannot be taken for granted. They are not chess pieces to be moved upon 
a board. Each and every one is irreplaceable.''
                             Who Sacrifices
    Mr. Skelton answers this question well.
    By definition, sacrifices of military service are not required of 
average citizens. For example, financial aid abounds for those who 
earnestly choose not to serve in our military. As a matter of national 
policy, in fiscal year 2012 the United States will award about $36 
billion in Pell Grants annually for which no service--and no 
``sacrifice''--to the nation is required.
    This was not always the case. Former Senator William Cohen, who 
also served in the House of Representatives and then as Secretary of 
Defense, observed on the Senate floor on May 8, 1987 when the Senate 
passed H.R. 1085, as amended, by a vote of 89-0 to create the 
Montgomery GI Bill:

       ``We should remember that when GI Bill benefits were established 
in 1944, they were the initial step in the federal provision of 
educational assistance. Until 1965, the GI Bill stood virtually alone 
as a source of aid to post-secondary students. And as late as 1975, the 
Vietnam-era GI Bill provided over 50 percent of all student aid to 
those in post-secondary schools.''

    Observed former Representative and then-Senator Thomas Daschle - 
who previously served on this Subcommittee--during this same May 8, 
1987 Senate floor debate:

       ``Every year we spend approximately $7 billion dollars on no-
obligation educational assistance for college students. This, of 
course, is a worthy expenditure and a prudent investment in the future 
of our country. But we should not forget that it is also important that 
educational assistance be provided to those patriotic young people who 
have agreed to delay their education so that they can serve their 
country in a tour of military service.''

    And for those who wear the military uniform, NASAA notes that the 
1999, bipartisan Congressional Commission on Servicemembers and 
Veterans Transition Assistance (created under PL 104-275) reported that 
it was unaware of any other student-aid program in which the student 
himself/herself pays-in $1,200 in `cold cash' to become eligible for 
educational assistance.
    Not an in-kind family contribution, the $1,200 cash pay-in has been 
required of servicemembers under the historic Montgomery GI Bill 
(MGIB), which observes its 25th anniversary on June 1, 2012 (Public Law 
100-48). Even given the $1,200 requirement, since its inception in 1987 
about
    95 percent of servicemembers voluntarily have signed up for the 
Montgomery GI Bill. Enterprising Americans indeed.
    To date, about 2.6 million veterans have used the Montgomery GI 
Bill in transitioning to civilian life producing untold numbers of 
business men and women, teachers, engineers, entrepreneurs, first 
responders, accountants, public servants, pilots, bankers, social 
workers and professionals in the full range of specialized technologies 
- to name just a few professions.
                              Who Benefits
    Our domestic economy.

    Mr. Chairman, I share with the Subcommittee the economic-return 
data on the Montgomery GI Bill, as NASAA is unaware of any such data 
yet available for the Post 9-11 GI Bill. The data are important because 
it addresses outcomes and can serve as an indicator of future benefits 
for the Post 9-11 GI Bill.
    The preponderance of veterans who have trained under VA educational 
assistance programs since September 11, 2001 have done so under the 
Montgomery GI Bill; thus creating economic opportunity at every turn 
and promise at every door for themselves and their families. Under 
contract to the Department of Veterans Affairs, the 2000 Klemm Analysis 
Group's program evaluation of the Montgomery GI Bill concluded that:

       ``The Federal Government realizes a sizable financial return on 
its investment for [Montgomery GI Bill] benefit users who complete a 
traditional academic program.
       ``The Government return [projected increases in federal taxes 
collected as derived from the income gain beneficiaries realize] on 
[Montgomery GI Bill] investment is slightly more than 2 \1/2\-to-one 
(2.54) for beneficiaries who complete a four-year college degree. The 
Government return on investment for beneficiaries who complete a two-
year degree is more than two-to-one (2.14).
       ``The private return on investment [income gain beneficiaries 
realize as a result of their added educational attainment] is more than 
8 \1/2\-to-one (8.60) for a two-year degree and more than seven-to-one 
(7.36) for a four-year degree.''

    Mr. Chairman, lastly, as the Subcommittee is aware, the ultimate 
measure of successful transition from military to civilian life is 
long-term, sustained employment. And the ultimate judge of the 
Montgomery GI Bill's - and the Post 9-11 GI Bill's--cost effectiveness 
is the employers who determine whether the program meets employers' 
marketplace-workforce development needs.
    Fundamentally, employing veterans represents a good business 
decision. Notes former Marine pilot Robert A. Lutz, past Vice Chairman 
of General Motors:

       ``Veterans personify economic strength . . . veterans represent 
the ready work force for the 21st Century . . . veterans, regardless of 
their generation, have the soft skills that every employer seeks; team 
players with a strong work ethic, loyalty, the ability to start a job 
and get it done all the way through.''

    Indeed NASAA shares the view expressed in 2004 by Representatives 
Christopher Smith and Mike Simpson: ``Hiring veterans for patriotic 
reasons expresses appreciation and respect. Hiring them for business 
reasons gets results.'' The GI Bill allows veterans to obtain the 
degrees and training that will allow them to secure those jobs. And 
employer-based on-job learning and apprenticeships under VA educational 
assistance programs even help veterans `earn and learn' simultaneously.
Remarks on Executive Order 13607
    We compliment the President for wanting to ensure that those who 
are protecting and have protected our nation are not subject to the 
abuse of some who are more interested in padding their wallets than 
providing a quality educational experience. The Executive Order is an 
effort to address some of the problems that have been identified in 
recent months and reported by veterans, veteran service organizations 
and government investigators.
    The idea of adopting and applying Principles of Excellence as 
outlined in the Executive Order is consistent with sound educational 
philosophy and practices and is currently recognized, respected and 
implemented throughout much of the education community. Our experience 
tells us that while some of the proposed requirements in the Executive 
Order may be helpful to the achievement of the President's goals, they 
also could result in the establishment of measures and systems that 
duplicate other approaches and services that already meet the 
objectives, although in varying degrees of comprehensiveness. Full 
adoption and execution of the Executive Order Principles could lead to 
increased work for institutions and other entities without proportional 
value being added to the process of helping veterans reach their career 
goals.
    For example, the principles related to the availability of other 
types of financial assistance and information regarding debt [Section 2 
(a) & (b)]; and those which address the development of educational 
plans and the designation of points of contact for academic and 
financial advising [Section 2 (g) & (h)] are important to the vast 
majority of educational institutions and are generally integral to the 
services that they presently provide. Similarly, the information about 
outcome measures referenced in Section 2 (a) and further elaborated 
upon in Section 3 (c) is currently available through various systems 
managed by the federal government and reputable private-sector 
organizations. We suggest that these areas of concern receive 
additional study and analysis before mandating their presentation or 
publication in another separate and distinct format. This will help to 
avoid unnecessary duplication and expenditure of limited resources.
    We favor the general concept advocated in Section 2 (e) regarding 
readmission after temporary and documented absences. Many institutions 
already have such a practice and while we understand that it may be 
unrealizable for some, especially those that offer occupationally-
oriented programs consisting of highly sequential learning, most 
institutions do or can make appropriate adjustments. Here again, the 
idea should receive further study before commitment to its development 
as an overarching Principle of Excellence with exacting requirements.
    We support the need to redouble efforts to discover false 
advertising and fraudulent recruiting practices and to tighten policies 
and procedures that discourage such practices. Section 3696 of Title 
38, USC provides an excellent framework from which to work for GI Bill 
purposes. We suggest that the Subcommittee consider holding a work 
session to address these issues and include representatives from the 
VA, State Approving Agencies, educational associations, the Federal 
Trade Commission and other stakeholders. The session could help the 
Subcommittee to determine the actual extent of problems and how best to 
address them.
    We do not support the concept advocated in Section 2 (d). Without 
further qualification, it appears to limit the use of the GI Bills and 
discriminate against enrollment in some very good ``non-accredited'' 
programs of education, some of which are offered by quasi-governmental 
and not-for-profit entities. Section 3676 of Title 38, USC provides the 
basic framework for State governments, through their State Approving 
Agencies, to ensure the quality and integrity of non-accredited 
programs. Like many provisions in law, refinements can be made to meet 
the demands of today's marketplace. The Executive Order highlights the 
need for further review of the topic by the Subcommittee.
    Section 4 (a), (b) and (c) of the Executive Order regarding the 
development of a centralized complaint system with certain coordinated 
features also demands further study and discussion. While we appreciate 
and applaud the President's recognition of the critical role that SAAs 
play in overseeing and ensuring quality educational programming, most 
educational institutions and State Departments of Education already 
have comprehensive complaint procedures in place to address a wide 
range of issues, such as academics, student conduct and finances. While 
we would welcome a system which would enhance the ability of the SAAs 
to respond to veteran concerns, this is another topic for an 
experienced Working Group.
Recommendations
    Mr. Chairman, we encourage the Subcommittee to conduct a careful 
review of existing consumer safeguards and student-information 
initiatives; particularly those that may reside with the Department of 
Education, regional accrediting agencies, the Federal Trade Commission, 
State Approving Agencies, the Servicemembers' Opportunity College 
consortium, and other entities. Additionally, we offer the following 
recommendations. They seem especially timely in light of the increasing 
concern about negative reports about the use of funds available under 
the Post 9/11 GI Bill and the treatment of veteran students.
    1. Convene a Working Group of Stakeholders whose purpose would be 
to research problems associated with the administration of the GI Bills 
and make recommendations to the Subcommittee on changes necessary in 
law and/or policy to address the problems. Included in the charge to 
the Group would be a review of the various dimensions of the Executive 
Order and the topics addressed in the legislation that has been 
introduced in the House and Senate.
    2. Reinstate the approval and disapproval authority held by State 
Approving Agencies (SAAs) prior to the enactment of Section 203 of PL 
111-377; remove the deemed approved provision from Section 3672 and re-
designate State Approving Agencies as having disapproval authority in 
Section 3679. These changes would help to restore the partnership 
between the federal and state governments that helped to make the GI 
Bills successful for over 65 years. More importantly, the changes would 
provide the authority to states/SAAs to take definitive action to help 
resolve problem areas in a timely manner with minimal disruption to 
prospective and currently enrolled veteran students. States have the 
infrastructure, the experience and the expertise necessary to assist 
Congress and the VA in meeting the challenges forthcoming by 
increasingly complex educational delivery systems so as to protect our 
veterans. Where improvements in the processes used by SAAs become 
necessary, there are already existing provisions in law to help, such 
as the mechanisms in Section 3674A.
Closing
    In closing, Mr. Chairman, I would like to thank you again for the 
opportunity to comment on ``Executive Order 13607 and Its Impact on 
Schools and Veterans''. We very much appreciate your efforts to make 
continual improvements to the administration of the educational 
assistance programs for those who defend the freedoms that we all 
cherish and enjoy. From a grateful nation, they deserve no less. I 
would be happy to respond to any questions that you might have.
                                Sources
    Some of the wording used in this statement is not original to the 
NASAA or to me:

    At page 1, ``who represent the very best of character, commitment 
and resolve'' is attributed to First Lady Laura Bush at a Troops to 
Teachers event, Wright Patterson Air Force Base, October 16, 2002.
    At page 1, ``disciplined by duty and enlightened by experience'' is 
attributed to the late Michael J. Bennett in newspaper articles that 
discussed the Commission on Servicemembers and Veterans Transition 
Assistance recommendations regarding the Montgomery GI Bill. These 
included: Fredericksburg Free Lance-Star, July 5, 2003; Victorville, 
California Press Dispatch, July 6, 2003; and Stamford, Connecticut 
Advocate, July 8, 2003.
    Mr. Bennett is author of When Dreams Came True: The GI Bill and the 
Making of Modern America. Brassey's Press, 1996.
    At page 1, ``but for a lifetime'' is substantively similar to words 
used thematically throughout the text by Suzanne Mettler, in Soldiers 
to Citizens: The GI Bill and the Making of the Greatest Generation. 
Oxford University Press. Based on extensive survey analysis, Professor 
Mettler found that World War II veterans who used the GI Bill were 
twice as likely to be civic leaders, as compared to veterans who did 
not use it. Dr. Mettler believes this phenomenon likely will hold true 
for the current generation, as well, once studied.
    At page 1, ``tyranny over freedom and dictatorship over democracy'' 
is substantively identical to words used by Prime Minister Tony Blair 
in an address to a Joint Session of Congress, July 17, 2003.
    At page 2, the Creighton Abrams quote is attributed to A Better War 
by Lewis Sorley, p. 370.
    At page 2, The National Leadership Index 2005 finding is attributed 
to Creating a Veteran-Friendly Campus: Strategies for Transition and 
Success: New Directions in Student Services, chapter 10: ``Stewards of 
the Public Trust: Federal Laws that Serve Servicemembers and Student 
Veterans'', Robert Ackerman and David DiRamio, editors, Jossey-Bass 
Press, 2009.
    At page 2, the Representative Brown ``Wall Street and Main Street 
Agree'' language is attributed to the Jossey-Bass publication above; 
same chapter.
    At page 2, the Representative Skelton quote is attributed to the 
December 2, 2010 Army Times article titled ``Skelton Warns of Growing 
Civil-Military Split'', Rick Maze, staff writer.
    At page 3, the Senator William Cohen quote is attributed to page 
145 of Across the Aisle: The Seven-Year Journey of the Historic 
Montgomery GI Bill, a case study in the art of legislative leadership, 
by the Late G.V. ``Sonny'' Montgomery, University Press of Mississippi, 
2011.
    At page 3, the Senator Thomas Daschle quote is attributed to Across 
the Aisle, page 145.
    At pages 3-4, the Klemm Analysis Group data is attributed to the 
``The Montgomery GI Bill: 25 Years of Achievement'', Mississippi State 
University, G.V. Montgomery Center for America's Veterans, 
www.veterans.msstate.edu, research and development tab.
    At page 4, the Robert A. Lutz quote is attributed to Across the 
Aisle, page 181.

                                 <F-dash>
               Prepared Statement of Robert M. Worley II
    Mr. Chairman and other Members of the Subcommittee, I am pleased to 
be here today to discuss the Department of Veterans Affairs' (VA) 
efforts to implement Executive Order (E.O.) 13607: ``Establishing 
Principles of Excellence for Educational Institutions Serving Service 
Members, Veterans, Spouses, and Other Family Members.''
    In fiscal year (FY) 2011, VA provided education benefits to nearly 
one million Veterans, Service members, and dependents under a variety 
of benefit programs. VA is committed to ensuring that VA's education 
benefits provide access to high-quality educational opportunities that 
will enhance our beneficiaries' ability to meet their academic and 
career objectives. The actions required by the Executive Order align 
with these objectives, and reaffirm our commitment to ensuring Veterans 
are well served by these programs. VA is working closely with other 
agencies to leverage current initiatives and resources to enhance 
service to Veterans. My testimony today will review VA initiatives 
underway to assist Veterans in the pursuit of their education 
objectives and the impacts of E.O. 13607 on that effort.
Prior VA Initiatives to Inform Education Beneficiaries
    Prior to the publication of E.O. 13607, VA had initiated several 
efforts to increase the amount of information available to Veterans as 
they pursue programs of postsecondary education. These earlier 
endeavors provide a strong foundation for the Department to better 
reach out to beneficiaries in collaboration with other Federal agencies 
under the auspices of the Executive Order.
    In 2011, VA updated the GI Bill website to include links to other 
VA and Federal resources on postsecondary education and employment, 
including a ``Choosing Your School'' guidebook. The GI Bill website now 
links to the Department of Education's College Navigator website, which 
provides comprehensive data on nearly 7,000 colleges and universities 
in the United States, and to the Department of Labor's ONET on-line 
portal, which provides career-specific information on the educational 
requirements, working conditions, and other factors an individual might 
consider when choosing an occupation.
    VA also sponsors the VetSuccess on Campus program, which will place 
VA representatives on 24 college campuses nationwide in FY 2012 to 
support the readjustment needs of student Veterans. In addition, VA's 
oversight and compliance staff works closely with State Approving 
Agencies to ensure that institutional financial aid policies, program 
information and course guides, advertising, and recruitment practices, 
accurately present the important information needed by potential and 
existing student Veterans.
Executive Order 13607
    Since the Post-9/11 GI Bill became law, there have been numerous 
reports of aggressive and deceptive targeting of service members, 
veterans, and their families by educational institutions. Additionally, 
members of Congress, the GAO, and others have called attention to the 
need to provide our military and veteran students with better 
information about educational institutions prior to enrolling, so that 
students are aware of graduation outcomes, the true financial costs of 
educational programs, and other information that allows such students 
to choose where to spend their federal educational benefits.
     In response, on April 27, 2012, the President issued Executive 
Order 13607, which directs VA, along with the Departments of Defense 
and Education, to develop and implement Principles of Excellence to 
ensure that Service members, Veterans, spouses, and other family 
members using military and Veterans education benefits have the 
information they need to make informed decisions concerning their well-
earned Federal benefits. They will also establish a centralized 
complaint system for students receiving military and veterans' 
educational benefits, and will crack down on fraudulent and aggressive 
recruiting techniques on and off military installations.
    The Executive Order seeks to provide better information and service 
to students and families in a few key ways. First, it directs VA and 
other agencies to take steps to ensure that students are provided with 
the educational and financial information necessary to make informed 
decisions. VA strongly believes that Veterans should have access to 
information they need to select high-quality educational programs that 
match their readjustment goals. Clear information on the total cost of 
an educational program, including the tuition and fees, the amount of 
that cost that will be covered by Federal education benefits, as well 
as information on student outcome, is critical to helping Veterans and 
Service members navigate the variety of educational options available 
to them, and helping them choose the program that best suits their 
needs. Informing students of their federal financial aid options first, 
helps mitigate the likelihood that veterans will be asked to take out 
more costly private student loans prior to exhausting all of their 
federal benefits. These steps are encouraged by the Principles of 
Excellence.
    The Executive Order will also strengthen oversight, enforcement, 
and accountability within our education benefit programs. It addresses 
enforcement and compliance mechanisms by requiring creation of a 
centralized complaint system for students receiving education benefits 
as well as procedures to address complaints and ensure compliance with 
the principles. VA, in accordance with the executive order, will 
continue to expand oversight of schools to the extent permitted by 
existing law and coordinate with other relevant agencies to identify 
complaints and act upon compliance concerns.
    The Department shares the concern of many Members and Veterans 
advocate groups about deceptive and fraudulent marketing campaigns 
using the term GI Bill. The Executive Order requires VA to initiate a 
process to trademark the term ``GI Bill'', and in accordance with the 
directive, VA has already submitted an application to register the term 
GI Bill with the U.S. Patent and Trademark Office (USPTO) as a 
trademark. We are continuing to work with the USPTO on the appropriate 
next steps.
    To achieve its goals, this Executive Order requires action on the 
part of multiple agencies. The VA will publicly post a list of colleges 
that have agreed to adhere to these principles on our website. Over the 
next several months, the agencies noted in the Executive Order will 
submit a plan to the President detailing how they will carry out the 
Executive Order in each of their relevant programs.
    This Executive Order underscores the importance that VA and other 
federal organizations place on this vital issue. The direction provided 
by the President will ensure roles and responsibilities are fully 
understood; coordination is clear; and implementation is efficient. As 
we review and commence implementation of the provisions of E.O. 13607, 
we will keep this Subcommittee informed of our plans and any challenges 
that we may face.
Conclusion
    The Post-9/11 GI Bill greatly improved Veteran students' 
educational opportunities. VA has worked with key stakeholders to help 
ensure that Veterans utilizing this benefit are paid in a timely and 
accurate manner. However, that is not enough. By further continuing 
interagency cooperation and student outreach, VA will ensure that 
Veterans are informed consumers and schools meet their obligations in 
training this Nation's next greatest generation.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions you or the other Members of the Subcommittee may 
have.

                                 <F-dash>
                       Statements For The Record

                       JENNIFER L. STEELE, ED.D.
    In 2010, the Senate Committee on Health, Education, Labor, and 
Pensions (HELP Committee) published a series of reports that called 
attention to aggressive and misleading recruiting practices and high 
rates of dropout and student loan defaults at for-profit colleges. 
Because education benefits from the Department of Veterans Affairs and 
the Department of Defense do not count as federal Title IV financial 
aid under a law requiring that at least 10 percent of revenue at for-
profit colleges come from non-Title IV sources (the so-called 90/10 
rule), the reports raised particular concerns about for-profit 
institutions' recruitment of military veterans. The HELP Committee 
noted that in the first year after the new, Post 9/11 GI Bill took 
effect in August 2009, 36.5 percent of the benefits went to for-profit 
institutions, though these institutions enrolled only 23.3 percent of 
beneficiaries (U.S. Senate, 2010).
    In light of the HELP Committee reports and the ensuing negative 
media attention on for-profit institutions, one might assume it is the 
schools' aggressive and targeted recruiting practices that are luring 
nearly a quarter of Post-9/11 GI Bill recipients to these schools--in 
other words, that naive veterans are being tricked into choosing 
overpriced institutions with subpar student outcomes. However, a 
separate study that my colleagues and I conducted at the RAND 
Corporation in 2010, during the first year of the new GI Bill's 
implementation, sheds additional light on why military veterans choose 
for-profit colleges and the experiences they have there, relative to 
their counterparts in non-profit and public institutions (Steele, 
2010). \1\ This testimony summarizes those findings and their 
implications for consideration of Executive Order 13607, Establishing 
Principles of Excellence for Educational Institutions Serving Service 
Members, Veterans, Spouses, and Other Family Members.
---------------------------------------------------------------------------
    \1\ This study can be found online at http://www.rand.org/pubs/
monographs/MG1083.html.
---------------------------------------------------------------------------
    RAND's study was conducted at the request of the American Council 
on Education--a non-partisan membership organization of accredited 
public and private higher education institutions--and was funded by the 
Lumina Foundation for Education. We were asked to study implementation 
of the Post -9/11 GI Bill in terms of the experiences of veterans, 
active duty service members, and eligible dependents who were using the 
new benefits to pursue postsecondary education. We also wanted to 
understand those students' experiences transferring military credits to 
academic credits and adapting to life on campus. Our study included 
focus groups at 13 college campuses and included a total of 105 
students. The campuses were distributed among three geographically 
diverse states with large veteran populations--Arizona, Ohio, and 
Virginia. In each state, we conducted focus groups at one private for-
profit college, one private non-profit college, one public four-year 
college, and one public two-year college. \2\ Building on the focus 
group data, we then conducted an online survey of a convenience sample 
of 230 veterans, service members, and eligible dependents enrolled in 
higher education institutions from across the nation. \3\
---------------------------------------------------------------------------
    \2\ All private colleges were four-year institutions. In one state, 
we visited two private non-profit colleges due to low veteran 
enrollment at one of the two.
    \3\ Survey participants were recruited through an email list 
maintained by the American Council on Education of individuals who had 
signed up for an online forum about veterans' issues in higher 
education, so this was not a random sample.
---------------------------------------------------------------------------
    As shown in Figures 1 and 2, both the focus group and survey 
samples included a substantial share (15-21%) of students at for-profit 
institutions, affording us the opportunity to compare students' self-
reported experiences by sector.

    Figure 1. Distribution of focus group participants by institution 
type (n=105)


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Veterans' Reasons for Choosing For-Profit Colleges
    In the focus groups, we asked students about factors that had 
driven their choice of college and about their college experiences. 
Contrary to the prevailing image of veterans as undiscerning consumers 
of higher education, the veterans, Reservists, active duty service 
members, and family members with whom we spoke described thoughtful 
deliberations about their choice of institutions. \4\ Students in for-
profit colleges reported a number of rationales for their institutional 
decisions; the main ones are summarized in the paragraphs that follow.
---------------------------------------------------------------------------
    \4\ Henceforth I refer collectively to participants as veterans 
because separated veterans constituted 77 percent of focus group 
participants and 82 percent of survey respondents, respectively. 
Reservists made up much of the rest, with active duty service members 
and dependents constituting only a small share.
---------------------------------------------------------------------------
    Tuition costs that were covered by their GI Bill benefits. Much of 
the public discussion of for-profit colleges has focused on their 
higher tuition rates relative to that of public two-year and four-year 
colleges, which offer taxpayer-subsidized tuition rates. Placing a 
larger share of the tuition burden on students can mean that they must 
take on more debt, but this was not the case for the students we spoke 
with in for-profit colleges, because their colleges were setting 
veterans' tuition rates to match allowable GI Bill benefits in their 
respective states. \5\ Thus, for students who qualified for the full GI 
Bill benefit, the choice of a for-profit or a lower-tuition public 
institution was cost-neutral.
---------------------------------------------------------------------------
    \5\ When we conducted the study in 2010, the tuition cap reflected 
the highest undergraduate tuition rate at a public institution in the 
state. A legislative change that took effect on August 1, 2011 
standardized the cap at $17,500 across states.
---------------------------------------------------------------------------
    Adult-oriented, career-focused programs with flexible schedules. 
Many student veterans in our focus groups described themselves as 
working adults, with responsibilities beyond those of a traditional 
student just out of high school. Among survey respondents, 46 percent 
said they worked more than 30 hours a week, and 63 percent said so 
among respondents from for-profit colleges. Despite the availability of 
a housing allowance in the new GI Bill, numerous participants--
especially those with families--reported that they still needed to work 
in order to make ends meet. Consequently, they wanted programs that 
offered evening and weekend classes and locations close to their homes 
or workplaces, with online and face-to-face course options.
    While some public two-year and four-year colleges also offer 
flexible schedules and online courses, students attending such 
institutions frequently expressed frustration with the immaturity of 
their peers. One student in a public two-year college said that 
disruptive students made her classes feel ``like an extension of high 
school.'' Indeed, some students in for-profit institutions mentioned 
that they had deliberately sought an environment that catered to 
working adults. They were also drawn to the career-focused curricula of 
the for-profits and the ability to avoid broad-based requirements and 
electives that did not pertain directly to their career plans.
    Ability to transfer military to academic credits. For-profit 
institutions have been criticized as offering credits that are hard to 
transfer elsewhere. However, it was these colleges' willingness to 
accept military transcripts that appealed to focus group participants, 
who generally described wanting to complete their degrees as fast as 
possible. We heard a similar story from survey respondents. Table 1 
summarizes survey responses with regard to students' attempts to 
transfer credits. Column 4 illustrates that the rate of satisfaction 
with the credit transfer experience was 60 percent among survey 
respondents who had attempted to transfer credits into for-profit 
colleges, versus only 27 percent among those from community colleges, 
and 41 percent among respondents from public four-year colleges. Only 
participants from private non-profit colleges reported higher credit 
transfer satisfaction rates, at 82 percent.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Ability to enroll in the courses they need when they need them. 
Also critically important to students we spoke with was access to the 
courses required for their degrees. Being shut out of oversubscribed 
courses was a frequent complaint we heard among focus group 
participants at public two- and four-year colleges. Given budget 
cutbacks at state-funded institutions, this complaint is not 
surprising, but it contrasts with the stories we heard from 
participants at private colleges--both for-profit and non-profit--who 
did not describe course access as a problem. The reasons for this 
discrepancy are not clear. It may be that the private institutions are 
more nimble in adjusting to course demand--e.g., by deploying adjunct 
instructors to open new course sections as needed (Turner, 2006). Or it 
may be that private institutions are already more likely to build 
excess capacity into their schedules. Alternatively, it may be an 
accident of the sample we drew.
    What is clear is that because the Post-9/11 GI Bill offers up to 48 
months of benefits, GI Bill benefits go farthest when students are able 
to enroll full-time each semester. When they are unable to fulfill 
course requirements during a semester, they are at risk of exhausting 
their benefits before completing undergraduate degrees.
    Ability to attend the same institution in multiple states. A final 
reason some student veterans gave for choosing for-profit colleges was 
the advantage of being able to enroll in a national chain that offered 
locations in multiple states. For students who expected to relocate in 
the future, access to campuses in multiple states seemed to reduce the 
risk that they would need to transfer their credits to a different 
institution in the future, and to increase the potential that they 
would be able to graduate from the same institution in which they 
started.
Veterans' Experiences in For-Profit Colleges
    Beyond veterans' reasons for choosing their colleges, the survey 
inquired about their experiences in their schools. Notably, survey 
respondents in for-profit institutions reported higher-than-average 
satisfaction rates with academic advising, at 67 percent, versus about 
50 percent satisfaction among respondents at other institution types, 
as shown in Table 2. However, their reported satisfaction with their 
faculty members was slightly lower, at 63 percent, versus 67 percent 
overall. The reasons for these patterns are not entirely clear. As some 
students and institutional administrators reported to us, the for-
profit institutions we visited were quite focused on academic advising, 
with advisors routinely calling students to check on their progress. In 
contrast, some evidence suggests that for-profit colleges spend less on 
faculty members than other higher education institutions, in part by 
employing fewer tenured faculty (Deming, Goldin, & Katz, 2011; 
Quintero, 2011).


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Return to a for-profit education. An important question the 
Subcommittee may be left with is whether these students, despite their 
deliberate rationales for choosing for-profit colleges, were 
nevertheless making choices that compromised their earning potential 
due to poor reputation of some of these schools. For instance, one 
recent study found higher unemployment rates (by 5 to 7 percentage 
points) and 8 to 9 percent lower earnings six years later among those 
who attended two-year and four-year for-profit colleges than among 
their counterparts from public and nonprofit institutions (Deming, 
Goldin, & Katz, 2011). However, the study used a methodology that may 
not have fully accounted for higher risk factors among students at for-
profits. In contrast, a recent study that examined labor market returns 
to education from public versus for-profit two-year colleges suggested 
that the returns were similar. Controlling for unmeasured individual 
attributes by tracking individuals longitudinally before and after 
their postsecondary training, Cellini and Chaudhary (2011) found 
similar returns to a two-year degree among graduates of public and for-
profit institutions, equal to about 8 percent per year of education. 
They also found similar returns, of about 6 percent per year of 
education, for those who attend two-year public or for-profit 
institutions but do not graduate.
    It is also important to remember that the flexible schedules and 
openness to military credits that for-profit students described could 
potentially allow veterans to earn degrees more quickly than they would 
at other institutions, thereby at least partially offsetting any 
possible earnings penalty from attending a less-prestigious 
institution. Given that tuition differences between for-profit and 
other institutions would in most cases be negligible for students who 
qualified for full GI Bill benefits, together these findings suggest 
that GI Bill users enrolling in for-profit colleges may, at least in 
some cases, be economically justified in their choice to do so.
Implications for Consideration of Executive Order Executive Order 13607
    This discussion is not intended to suggest that we found no room 
for improvement in the for-profit colleges we visited, or that our 
focus group and survey samples were nationally representative of 
colleges or students. In particular, for-profit colleges were the least 
likely of the institution types we visited to offer mental health 
services and veteran-specific resources. But our study does add nuance 
to the public understanding of military veterans in higher education, 
including their reasons for choosing for-profit colleges.
    Our findings about students' experiences across sectors suggest 
that efforts to encourage high-quality educational programming should 
consider all sectors, especially regarding institutions' ability to 
meet the needs of military veterans and other non-traditional adult 
learners. In the ensuing discussion, I consider two particular 
strategies discussed in Executive Order 13607--increasing transparency 
of information about higher education institutions, and improving 
advising and support services for student veterans.
    Increasing transparency of information about higher education 
institutions. Because veterans are discerning consumers, strategies to 
increase transparency about programs should be encouraged. Since the 
RAND Study was published on Veterans' Day 2010, the Department of 
Veterans Affairs has already made considerable improvements to its GI 
Bill website (gibill.va.gov). For instance, it now provides a link to a 
``Choosing a School'' page, from which one can link to the Department 
of Education's College Navigator Website (nces.ed.gov/collegenavigator/
). College Navigator, in turn, provides a comprehensive search tool 
with extensive institution-level information, including hundreds of 
variables, such as loan default rates and net price information by 
student income bracket, as well as a net price calculator for many 
institutions.
    In other words, College Navigator already provides excellent 
transparency for higher education consumers who take time to review it. 
This potentially obviates the need for some of the detailed information 
that the Executive Order requires institutions to provide to individual 
students as part of Section 2(a). This information includes items such 
as total price, total aid, and total debt burden the student can expect 
to accrue, since that information can be inferred to a large extent 
from the net price calculators on College Navigator.
    However, I do have a few suggestions for how gibill.va.gov and 
nces.ed.gov/collegenavigator might be strengthened to offer even 
greater transparency to veterans:

    <bullet>  On gibill.va.gov, the link to the College Navigator is 
not identified as such. Instead, it currently looks like just a graphic 
or possibly an advertisement. The link should be labeled as College 
Navigator and defined as a Department of Education search tool for 
finding, comparing, and choosing among higher education institutions.
    <bullet>  A variable that College Navigator lacks that may be 
useful to add for veterans is information about GI Bill and Tuition 
Assistance usage rates/amounts at each institution This recommendation 
is consistent with Section 3(c) of the Executive Order. Its benefit is 
that it would provide service members and veterans with at least some 
information about military enrollment rates across institutions.
    <bullet>  College Navigator's net price examples and calculators do 
not include military benefits, though they do include other types of 
federal aid under Title IV of the Higher Education Act. Through a 
collaboration with the Department of Veterans Affairs (and through 
guidelines to the institutions that post the calculators), it would 
likely be possible to build military benefits into both the net price 
examples and the institution-specific net price calculators.

    The provision in Section 3(c) for additional reporting of student 
outcome information by institution and federal program using existing 
data from national datasets would also help to improve transparency, 
subject to caveats about the data being merely descriptive and 
reflecting the composition of students and academic majors at each 
institution. However, responsibility for this analysis and reporting 
would ideally be managed at the federal level rather than falling on 
the individual institutions, which are already facing sharp resource 
constraints in terms of veteran services and education services more 
broadly.
    Improving advising and support services for student veterans. 
Provisions in Sections 2(g) and (h), calling for institutions to 
provide academic advising for veterans and a point of contact for such 
advising are consistent with areas that our data identified as 
important for meeting veterans' needs. However, two additional points 
about these provisions are worthy of consideration:

    <bullet>  Provision (g), which calls for detailed planning of how 
to meet graduation requirements on time, might be at least partially 
obviated for all students--not just veterans--if colleges were better 
able to meet students' enrollment demands in courses required for 
graduation. In our data, as noted above, access to required courses was 
described as a particular problem in public two-year and four-year 
institutions.
    <bullet>  Second, most institutions already provide a point of 
contact for veterans; it is typically the certifying official who 
confirms enrollment with the Department of Veterans Affairs. However, 
the level of knowledge and service that this individual provides varies 
dramatically among higher education institutions. Rather than requiring 
that a point of contact exist, it may be desirable to recognize or 
incentivize sustainable, cost-effective models of excellence in 
providing veteran transition services on campus.

    The purpose of these recommendations is to assist the Subcommittee 
in considering whether and how to act on the provisions in Executive 
Order 13607. RAND is grateful to the Subcommittee for considering our 
research in your deliberations. We would be delighted to answer any 
follow-up questions that arise in response to this written testimony.
References
    Cellini, S. R., & Chaudhary, L. (2011). The labor market returns to 
a private two-year college education. Washington, DC: The George 
Washington University.
    Deming, D. J., Goldin, C., & Katz, L. F. (2011). The for-profit 
postsecondary school sector: Nimble critters or agile predators? 
Cambridge, MA: Harvard University.
    Quintero, E. (2011). Can I have some faulty with my college? 
Retrieved from http://nepc.colorado.edu/blog/can-i-have-some-faculty-
my-college
    Steele, J. L., Salcedo, N., & Coley, J. (2010). Service members in 
school: Military veterans' experiences using the Post-9/11 GI Bill and 
pursuing postsecondary education. Washington, DC: RAND Corporation and 
the American Council on Education.
    Turner, S. E. (2006). For-profit colleges in the context of the 
market for higher education. In D. Breneman, B. Pusser, and S. Turner, 
eds., Earnings from Learning: The Rise of For-Profit Universities (51-
68). Albany: State University of New York Press.
    U.S. Senate. (2010, December). Benefitting whom? For-profit 
education companies and the growth of military educational benefits. 
Washington, DC: Health, Education, Labor, and Pensions Committee.

                                 <F-dash>
                           STEVE L. GONZALEZ
    Chairman Stutzman, Ranking Member Braley and distinguished Members 
of the Subcommittee:
    Thank you for the opportunity in allowing The American Legion to 
submit for the record its views on Examining Executive Order #13607 and 
its Impact on Schools and Veterans.
    Since the Post-9/11 Veterans Educational Assistance Program (Post-
9/11 GI Bill) went into effect in August 2009, there has been dramatic 
growth in both the number of beneficiaries and benefit payments for 
study at post-secondary institutions. The Department of Veterans 
Affairs (VA) supports over 800,000 students through its education 
benefits programs, and the Department of Defense (DoD) aided almost 
400,000 through its Military Tuition Assistance Program (TA).
    As a result of rapid increases in the amount of VA GI Bill benefits 
and DOD TA funds going to for-profit post-secondary institutions, these 
institutions have brought a growing scrutiny from many veteran service 
organizations and policymakers who are dissatisfied with graduation 
rates, recruiting practices, transferability of credits, and lack of 
accountability. Higher education among student-veterans continues to 
increase during a time where the economic environment and job market is 
not favorable for transitioning veterans. Armed with better data, the 
theory goes, service members, veterans, and their family members will 
vote with their benefits, putting pressure on low-performing colleges 
to improve on their product while avoid attending bad actor post-
secondary institutions. Unfortunately, some of these safeguards are not 
working nearly as well as intended.
    To protect these student-veterans from post-secondary institutions 
predatory practices, President Obama signed Executive Order 13607, 
Establishing Principles of Excellence for Education Institutions 
Serving Service Members, Veterans, Spouses, and Other Family Members, 
on April 27, 2012. In short, the EO is designed to combat unscrupulous 
practices used by schools to gain access to the military/veteran 
education benefits. It protects the full range of military/veteran 
education benefits programs, including Post 9/11 GI Bill benefits, the 
DoD TA program, and Military Spouse Career Advancement Account (MyCAA). 
Its provisions focus on ensuring students have the proper information, 
support, and protections they need to make informed decisions about 
their educational options.
    Even though the abuses are considered by many as isolated 
incidents, nevertheless, they are incidents of grave concern when post-
secondary institutions take advantage of America's service members, 
veterans, and their families. As lawmakers look to be fiscally 
responsible with taxpayer's money, and when billions of taxpayer's 
money is spend at times on fraudulent and totally ineffective education 
programs, these incidents should be of great concern to all of us.

    Here are the facts:

    <bullet>  For-profit institutions are not cheap--despite the lack 
of campuses or classrooms or counseling or even much personal 
interaction with faculty members. According to the Education 
Department, for-profits cost on average $30,900 per year compared to 
public colleges at $15,600 and private, non-profits at $26,600.
    <bullet>  Taxpayer's money is being used to fund marketing ads to 
attract service members, veterans, and their family members at a higher 
rate.
    <bullet>  According to the Department of Education, 26 percent of 
all student loan money and 46 percent of all student loan dollars in 
default come from for-profit programs, despite the fact they account 
for just 12 percent of college students.

    In a New York Times \1\ article, attorneys general from more than 
20 states banded together to investigate for-profit post-secondary 
institutions with fraudulent promises, crushing debt loans, going 
bankrupt while leaving the service members, veterans, and their family 
members with loads of debt and worthless credits and still on the hook 
with those outstanding loans; the actions of these institutions are 
just wrong.
---------------------------------------------------------------------------
    \1\ ``For-Profit Education Scams,'' The New York Times, March 23, 
2012, available at http://www.nytimes.com/2012/03/24/opinion/for-
profit-education-scams.html
---------------------------------------------------------------------------
    These are just some of the facts that cannot be ignored anymore by 
policymakers. Service members, veterans, and their family members 
trying to improve their job prospects shouldn't be duped into taking on 
crushing debt in exchange for the promise of a future job that will 
probably never materialize. Taxpayers should not be stuck holding the 
bag when these bargains inevitably go bad.
    However well intended the President's interest in oversight of 
Post-9/11 GI Bill and DOD TA programs is, there is some room for 
concern. First, its intent should not be limited to for-profit post-
secondary institutions. Post-9/11 GI Bill and DOD TA funds to nonprofit 
post-secondary institution should also be a matter of concern as well. 
In the absence of shared definitions, common metrics, and clear 
standards for how and where information is reported and presented, even 
the most ambitious policies, as such Executive Order # 13607 is doomed 
not to achieve its ultimate goal - providing information to allow 
service members, veterans, and their family members to be savvy 
consumers when choosing a college or university.
    Policymakers should recognize the need to educate prospective 
student-veterans and their families about the right questions they 
should be asking about the data points they should examine closely when 
choosing a college or university. Policymakers should also review and 
readdress creating data collections points in the federal Higher 
Education Opportunity Act (HEOA) when the law is under review for 
reauthorization.
    While the outcomes and impacts of this executive order on post-
secondary institutions and veterans cannot be evaluated until the full 
implementation of the order, this executive order is a step in the 
right direction. It is one portion of the overall effort in aiding 
decision-makers and encouraging prospective service members, veterans, 
and their family members to consider certain criteria as an important 
component of their college choice.
    This is a predicament that should be a cross cutting issue of 
bipartisan concern; where bogus degrees are a symptom of crisis among 
our service members, veterans, and their families; and where even those 
who claim to be accredited are often worthless in the job market. There 
is a significant gap between the obligation and delivery of higher 
education, which, unless checked, will constrain our economic growth; 
risking and squandering this nation's competitive advantage--America's 
service members, veterans, and their family members. Regardless whether 
these issues are addressed through executive order or legislation, one 
thing is sure; we have a problem that needs to be addressed.
    The American Legion appreciates the opportunity to present this 
statement for the record. Again, thank you Chairman Stutzman, Ranking 
Member Braley and distinguished Members of the Subcommittee for 
allowing The American Legion to present its views on these very 
important issues.

                                 <F-dash>
                       THEODORE (TED) L. DAYWALT
                           WRITTEN TESTIMONY
    Good Afternoon. Chairman Stutzman, Ranking Member Braley, members 
and staff of the Subcommittee, and fellow veterans, I appreciate the 
opportunity to submit comments on Executive Order 13607 (EO 13607) and 
its impact on schools and veteran education.
    EO 13607 mandates that schools provide information about the total 
cost of the educational program including amount of debt owed on any 
student loans after graduation; inform veterans about other forms of 
financial aid before advising them of private student loans; end 
fraudulent and unduly predatory recruiting techniques on and off 
military installations; obtain approval of the state accrediting agency 
for new courses prior to enrollment; allow service members to be 
readmitted if they had to suspend their attendance temporarily due to 
military service requirements; agree to a refund policy when veterans 
withdraw prior to course completion; provide a plan that details all 
the requirements needed for program completion and the time it will 
take to complete them; and designate a person(s) to provide counseling 
with regard to academics, financial aid, disabilities, and job 
searches.
    I want to emphasize that not all for-profit schools are bad, but 
those that are bad, are VERY bad and unfortunately they negatively 
affect the good for-profit school programs. There is definitely a 
demand and a need for legitimate online for-profit schools.
    Many of the organizations that are testifying before you today will 
rightly extoll the benefits of EO 13607 as it is a good first step in 
the right direction. Rather than repeat what VFW, VVA, SVA and others 
are saying, I would like to focus on four issues that need to be 
included in the discussion.
1. Not all for-profit schools are bad
    Many of the for-profit schools in the military education space have 
definitely stepped over the line, and in some cases, committed fraud, 
waste and outright theft. A recent Government Accounting Office 
investigation of for-profit schools found outright fraud and violations 
of law at all the schools examined, yet VA and DOD permit the schools 
to continue marketing to veterans, servicemembers and their families. 
Such a situation should not be allowed to continue.
    EO 13607 does not distinguish between good and bad for-profit 
schools, which is why I prefer to use the term ``predatory for-profit'' 
schools when talking about those with egregious records. EDMC, parent 
company to Argosy University, The Art Institute, Mackey-Brown and South 
University, is currently under indictment from the Department of 
Justice for $11,000,000,000 in fraud and deserves being referred to as 
a predatory for-profit school. Schools such as Western Governors 
University, University of Phoenix and American Military University do 
not currently engage in the egregious practices of EDMC and Kaplan. It 
would help veterans when looking at schools to know which schools are 
predatory for-profits and which are actually providing a legitimate 
education that can lead to gainful employment.
2. Accreditation Issues
    Many of the for-profit schools cannot qualify for accreditation 
through traditional accrediting agencies such as SAC or the AACSB. So 
to claim ``accreditation'', they created their own accrediting 
agencies, which are not recognized by other traditional brick and 
mortar schools or state departments of education. Not knowing any 
better, veterans were conned by the bad for-profit schools claims that 
they were accredited.
    To learn more about the fake accrediting organizations offering 
accreditation, please visit http://www.geteducated.com/diploma-mills-
police/college-degree-mills/204-fake-agencies-for-college-
accreditation.
    To learn more about legitimate school and college accrediting 
agencies, please visit http://www2.ed.gov/admins/finaid/accred/
index.html.
    EO 13607 should have included a move to stop the predatory for-
profit schools from using fake accreditation claims in their sales 
pitch to veterans needs to be taken.
3. Restoring BI Gill Eligibility
    As you will hear from nearly all those testifying, veterans have 
had their GI Bill funds stolen and/or they have misled into obtaining 
worthless degrees that do not lead to gainful employment. At VetJobs we 
regularly encounter veterans who thought they would qualify for a job 
since they had a degree only to learn they are not qualified because 
the hiring entity or graduate school does not recognize their degree. 
The veterans were victims of fraud but now have no money with which to 
attend an institution of higher learning and obtain a degree that will 
lead to gainful employment.
    As EO 13607 did not address this issue, Congress needs to redress 
this issue and provide mechanisms by which those veterans who were 
victims of fraud by the predatory for-profit schools can have their GI 
Bill eligibility restored. This can be done by recovering from the 
predatory for-profit schools funds to restore GI Bill eligibility to 
the veterans.
4. Incentives for legitimate schools
    EO 13607 did not address how the traditional accredited educational 
institutions could increase their efforts to attract more veterans and 
servicemembers into their colleges and universities by offering more 
flexible education options to include online course work. If the 
traditional organizations offerings were marketed better to the veteran 
community, it would reduce the appeal of the predatory for-profit 
schools.
    Congress needs to implement laws to stop the predatory practices of 
for-profit schools and institutions. Congress needs to enact 
legislation to enforce the Principles of Excellence as put forth in 
Executive Order #13607 for the benefit of our veterans, their families 
and our community.
Conclusion
    In conclusion, I would have preferred the issues addressed by EO 
13607 be handled by Congress enacting the appropriate legislation. But 
given this is an election year and political parties have been having 
problems working together to enact necessary legislation, EO 13607 is 
an appropriate move in the right direction. A presidential executive 
order does not have the impact that Congressional legislation would 
provide. Therefore I would support legislation that addresses the 
problem of predatory for-profit schools.
    Higher education, congressional leaders, and government agencies 
need to work together to ensure that the GI Bill investment pays off in 
degrees with labor market value, such as those found in traditional 
graduate and professional schools.
    Thank you for your time and consideration.

                                 <F-dash>
                          PATRICK BELLON, MPA
    The economic opportunities of America's veterans are being 
threatened by bad actors in the for-profit education sector. After 
America's young men and women in uniform have finally come home and 
hung up their uniforms for the last time they expect and deserve the 
right to pursue happiness like any other American and to enjoy the 
benefits that come along with having devoted years of their lives to 
serving their country. An important part of that pursuit is the ability 
to obtain higher education using the GI Bill, a program that not only 
benefits veterans, but the nation as a whole. The GI Bill is not only a 
successful veteran's program; it is the most successful public 
education and employment program in American history.
    Unfortunately, some are taking advantage of veterans and this 
successful program for their own profit in the name of greed. They mock 
the sacrifices of our men and women in uniform. Troops still in uniform 
and veterans at home find their mailboxes, inboxes, and social 
networking pages filled with paper and electronic advertisements by 
for-profit universities. All of them claim to have veterans' best 
interests at heart.
    Unfortunately this is not true. The stories are becoming numerous, 
well known and difficult to explain away or excuse as isolated. For-
profit recruiters sign up Marines who are being treated for brain 
injuries. Sailors are not being told that the classes they're working 
hard on and their benefits are paying for won't transfer to other 
schools. Soldiers are not informed that they're paying many times what 
the same program would cost at a local community college. Airmen are 
finding that the support they were promised by recruiters is not there. 
Veterans are finding out that industry won't recognize their 
qualifications and home town schools do no recognize the accreditation 
of their for-profit of choice. U.S. taxpayer dollars are lining the 
pockets of for-profit colleges rather than benefitting the veterans and 
servicemembers they're awarded to. This is unacceptable. Our veteran's 
futures must be protected.
    Recently President Obama stood up to these bad actors and signed an 
Executive Order that goes a long way to begin to address the problem. 
The order will ensure troops get more information on costs, financial 
aid, graduation rates, support provided, and which colleges have agreed 
to cooperate. It will keep predatory recruiters off installations, 
prevent misleading advertisements using the term `GI Bill', and orders 
further vigilance in acting against those for-profits that abuse or 
violate laws and regulations. The order is a leading step in the right 
direction. More needs to be done. Veterans and those still serving 
continue to be preyed upon by for-profit universities. While the EO is 
a much needed step in the right direction and should be supported by 
everyone who has veterans best interest's at heart it is far from being 
enough. We need new laws to protect our veteran's economic 
opportunities, so that they can make the best choices for their future 
and not be taken advantage of as a profit center.
    Congress needs to take the lead by implementing measures to stop 
predatory practices by for profits. This is not political, it is not 
about free enterprise, it is about right and wrong.
    Ideal legislation would address the following issues, only 
comprehensive reforms can protect our brave men and women. For-profits 
should not be allowed to use taxpayer funds for marketing essentially 
using taxpayer money to procure more taxpayer money by ripping off 
veterans. Veterans and service members must be informed in clear 
language about the transferability, industry recognition, and 
accreditation and graduation rates for the programs they're considering 
undertaking. They must be fully informed of all the costs associated 
with programs. A mechanism should be made available with which troops 
and veterans can compare these various qualitative and quantitative 
measures side-by-side with other programs to make a fully informed 
decision on where to direct their hard-earned benefits. For-profits 
granting degrees should be subject to the same standards as established 
for Title IV schools. Finally, the target should be removed from 
service members and veterans backs by immediately changing the so-
called `90/10' rule. This ridiculous rule should be altered to include 
VA education and DOD benefits alongside DoE benefits in the cap on for-
profit colleges receiving federal funds.
    For-profits are taking advantage of our service members and 
veterans by misleading them, providing them an inferior product, lining 
their own pockets with taxpayer dollars, subverting the goal of the GI 
Bill and military Tuition Assistance for veterans and servicemembers, 
and depriving American society as a whole of the follow-on benefits of 
furthering the education of those who served. Congress must take action 
to ensure our veterans, in uniform and out, are not being taken 
advantage up for the sake of profit. This exploitation hurts our 
veterans and our society and must be stopped now.
    For Further Questions Please Contact Veterans For Common Sense 
        Executive Director Patrick Bellon at (202) 558-4553 or 
                   <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aefecfdadcc7cdc5eed8cbdacbdccfc0ddc8c1dccdc1c3c3c1c0ddcbc0ddcb80c1dcc9">[email&#160;protected]</a>

                                 <F-dash>
                      HEATHER L. ANSLEY, ESQ., MSW

    May 14, 2012

    The Honorable Marlin Stutzman
    Chairman
    House Committee on Veterans' Affairs
    Subcommittee on Economic Opportunity
    Washington, DC 20515

    The Honorable Bruce Braley
    Ranking Member
    House Committee on Veterans' Affairs
    Subcommittee on Economic Opportunity
    Washington, DC 20515

    Dear Chairman Stutzman and Ranking Member Braley:

    VetsFirst, a program of United Spinal Association, respectfully 
requests to submit this letter for the record of the May 16, 2012, 
House Committee on Veterans' Affairs, Subcommittee on Economic 
Opportunity hearing, "Examining Executive Order #13607 and Its Impact 
on Schools and Veterans."
    Educational benefits are critical for helping disabled veterans 
reintegrate into their communities. Thus, every effort must be made to 
ensure that veterans who receive educational assistance due to their 
military service are not preyed upon but are provided both the 
education and supportive assistance they need to succeed. Disabled 
veterans must also have access to the information they need to make an 
informed decision in selecting an institution of higher learning.
    As a result, VetsFirst strongly supports the requirements detailed 
in Executive Order #13607, "Establishing Principles of Excellence for 
Educational Institutions Serving Service Members, Veterans, Spouses, 
and Other Family Members," which was signed by President Obama on April 
27, 2012. This Executive Order includes many of the provisions of the 
veterans and military service organization developed "Military and 
Veteran Students Educational Bill of Rights." Although the Executive 
Order does not fully address our concerns, it represents an important 
first step in ensuring the continued integrity of these benefits.
    If you have any questions, please contact Heather Ansley, Vice 
President of Veterans Policy, at (202) 556-2076, ext. 7702 or by e-mail 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dab2bbb4a9b6bfa39aacbfaea9bcb3a8a9aef4b5a8bdf4">[email&#160;protected]</a>

    Sincerely,

    Heather L. Ansley, Esq., MSW
    Vice President of Veterans Policy
    VetsFirst, a program of United Spinal Association

    Enclosure

                                 <F-dash>
                     PARALYZED VETERANS OF AMERICA
    Chairman Stuzman, Ranking Member McNerney, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to submit a statement for the record regarding 
Executive Order #13607 announced by the President recently. This 
executive order is meant to address concerns that have been raised 
about the actions of certain schools towards veterans who are eligible, 
and use, Post-9/11 GI Bill benefits. PVA appreciates the fact that you 
have chosen to further examine the specifics of the executive order to 
ensure that the veterans are able to take advantage of the best 
education opportunities available.
    Paralyzed Veterans of America (PVA) is pleased to support the 
Executive Order issued by President Obama in April to protect veterans 
and military service members from unethical recruiting and marketing 
practices on the part of certain schools and colleges. Our support for 
the executive order is consistent with similar positions addressed in 
The Independent Budget for FY 2013 co-authored by PVA, AMVETS, Disabled 
American Veterans, and Veterans of Foreign Wars.
    This executive order is, in many respects, consistent with the 
Military and Veteran Students Educational Bill of Rights agreed to last 
year by PVA and other veterans and military service organizations. The 
goal of the Executive Order is to:

    <bullet>  Provide students with educational and financial 
information to make informed decisions.
    <bullet>  End fraudulent and aggressive recruiting techniques on 
and off military installations.
    <bullet>  Ensure support services for service-members and veterans.
    <bullet>  Develop and collect service member- and veteran-specific 
student outcome data.
    <bullet>  Create a centralized complaint system for students 
receiving military and veterans' educational benefits.
    <bullet>  Begin the process to trademark the term ``GI Bill.''

    A quality education is the essential first step for those who 
aspire to a life of productive employment and making positive 
contributions to their communities and society. Veterans have already 
served their country honorably and deserve the strongest support in 
making the transition to civilian life. It is very troubling that some 
for-profit schools and colleges with poor track records of serving 
students have been taking advantage of the assistance provided to 
military service members and veterans through deceptive sales 
techniques and promised outcomes that don't reflect the reality of 
their performance. This is particularly disturbing because so much of 
the income derived by these schools comes from taxpayer dollars in the 
form of federal student financial assistance and GI Bill and military 
transition assistance payments.
    Indeed, according to 2009 data obtained by Congress from fifteen 
publicly-traded for-profit education companies, 86 percent of their 
revenues came from federal taxpayer dollars. Eight of the ten top 
school recipients of GI Bill benefits are for-profit higher education 
companies. Yet, analyses of filings from the Securities Exchange 
Commission and documents from many of these schools themselves show 
most of the federal monies are devoted to marketing and profit margins, 
not education.
    Data from the Department of Veterans Affairs indicate that the 
average cost per veteran at public non-profit institutions of higher 
learning is $4874 compared to $10,875 at for-profit schools. Faced with 
significantly higher costs, students are compelled to take out loans 
from these for-profit schools to complete their education. The U.S. 
Department of Education reports that these schools account for almost 
half of all student loan defaults. Moreover, many students fail to 
complete their course of study at these schools. Ten of the highest 
withdrawal rates for Associate Degree students enrolling in 2008-2009 
were found at schools run by for-profit education companies.
    Because of anomalies in current law, GI Bill and military 
transition assistance benefits are particularly valuable to for-profit 
education companies. Some of these institutions aggressively solicit 
veterans with combat stress-related impairments, severe traumatic brain 
injuries or other physical disabilities. They do not disclose their 
graduation or withdrawal rates, post-employment outcomes for graduates 
or transferability of credits to other educational institutions. Once 
these veterans are enrolled, the schools fail to provide them with 
adequate academic support and counseling or other accommodations to 
enable them to complete their education.
    The executive order addresses many of the most egregious abuses to 
which veterans and military service members have been subjected and PVA 
looks forward to examining the plans that the Departments of Education, 
Defense and Veterans Affairs must put in place to implement its 
directives. More can still be done to make sure veterans, members of 
the military and their families as well as U. S. taxpayers are getting 
a proper return on their investments in higher education. However, this 
is a great step in the right direction.
    Once again, PVA would like to thank you for the opportunity to 
comment on the executive order. We appreciate the strong focus that the 
Subcommittee has placed on expanding opportunities for success of 
veterans in education, the workforce, and the business community. We 
look forward to continuing to work with you to ensure that veterans 
realize the best outcomes in their education endeavors.
Information Required by Rule XI 2(g)(4) of the House of Representatives
    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.
                            Fiscal Year 2012
    No federal grants or contracts received.
                            Fiscal Year 2011
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program-- 
$262,787.
                            Fiscal Year 2010
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program-- 
$287,992.

                                 <F-dash>
                MILITARY OFFICERS ASSOCIATION OF AMERICA
    CHAIRMAN STUTZMAN, RANKING MEMBER BRALEY, DISTINGUISHED MEMBERS OF 
THE SUBCOMMITTEE, the Military Officers Association of America (MOAA) 
representing 375,000 current, retired and former officers of the seven 
Uniformed Services and the surviving spouses of deceased members is 
pleased to submit testimony for the official record of this hearing.
    MOAA does not receive any grants or contracts from the federal 
government.
Background
    The purpose of this hearing is to examine the impact of Executive 
Order # 13607 on post-secondary educational institutions (schools) and 
veterans.
    President Obama issued the Executive Order--Establishing Principles 
of Excellence for Educational Institutions Serving Service Members, 
Veterans, Spouses and Other Family Members - to ensure that military 
members, their eligible family members and veterans have the 
information they need to make informed decisions regarding government-
provided military tuition assistance, `My Career Advancement Account' 
(MyCAA) educational stipends and veterans' educational benefits. The 
intended outcome of the Executive Order is to develop principles of 
excellence to strengthen oversight, enforcement and accountability of 
these benefit programs.
    MOAA and other service organizations closely collaborated earlier 
this year on a series of recommendations we called a ``GI Bill of 
Rights'' to accomplish some of the objectives set out in the Executive 
Order. The GI Bill of Rights was submitted to the Administration for 
consideration in developing a coordinated, interagency approach to 
improving oversight and outcomes under military and tuition assistance 
programs. MOAA, therefore, supports the Executive Order as an important 
first step in the development and execution of an interagency plan to 
improve the oversight of generous educational resources provided for 
our nation's warriors, their family members and veterans.
    The thrust of the ``GI Bill of Rights'' is to ensure that all post-
secondary schools - public, private and proprietary - meet the highest 
standards of transparency, quality and measurable outcomes. In short, 
all schools should be able to demonstrate a reasonable return on the 
enormous investment in the future of our fighting women and men, their 
families and veterans.
The Need
    The Post-9/11 GI Bill authorized under Chapter 33 of 38 U.S. Code 
is the most generous educational assistance program since the great 
World War II GI Bill.
    The VA has made nearly 700,000 payments to colleges, universities 
and training programs on behalf of veterans, active duty service men 
and women and dependents who have received transferred benefits.
    But a year-long Senate investigation detailed troubling trends in 
GI Bill outcomes and oversight:

    <bullet>  33% of new GI Bill payments went to For Profit colleges, 
which trained only 25% of enrolled veterans in 2009 - 2010, the first 
year under the new program
    <bullet>  8 of the top 10 recipients of Chapter 33 funds were For 
Profit colleges
    <bullet>  The government spends more than twice as much per veteran 
at For-Profit colleges compared to public not-for-profit colleges
    <bullet>  Recruiting expenditures at certain For Profit schools far 
exceed student services for veterans, which in some cases do not exist
    <bullet>  The Attorney General and multiple states have brought 
suit against certain For Profit schools for misrepresentation, 
recruiting abuses, inflated job placements and other deceptive 
practices.

Recommendations
    In testimony before a joint House and Senate Veterans Affairs 
Committee hearing on March 22, MOAA presented the Committees the 
following recommendations for improving GI Bill oversight, transparency 
and outcomes:

    <bullet>  Direct the Department of Veterans Affairs to work with 
the Department of Education to create an online ``dashboard'' so that 
prospective GI Bill users can more easily compare costs, credit and 
transfer policies, outcomes and graduation rates and related consumer-
friendly information about colleges in all sectors.
    <bullet>  Further expand the VA's on-campus VetSuccess program 
beyond the 80 campus, $8.8 million program requested in the 
Administration's budget request for FY 2013.
    <bullet>  Amend the educational counseling provisions in Chapter 
36, 38 U.S. Code to mandate such counseling via appropriate means, 
including modern technologies, and permit veterans to ``opt out''. It 
will be necessary to raise the $6 million cap in the counseling 
provision to meet the enormous demand of new GI Bill enrollments.
    <bullet>  Establish a centralized complaint reporting and 
resolution process for veterans using GI Bill entitlement.
    <bullet>  Require that all programs receiving funding under the GI 
Bill be ``Title IV'' eligible; in other words, all post-secondary 
programs would have to meet Dept. of Education standards for 
accreditation and other requirements.
    <bullet>  Support legislation to account for all Federal 
educational assistance funding under the Title IV category. Changing 
the so-called ``90/10'' rule would compel all colleges and universities 
to demonstrate that their product is valuable enough to attract private 
sector students to pay for the education offered.
    <bullet>  Trademark the term ``GI Bill'' so that the Dept. of the 
VA can control the use of that term for GI Bill-related websites and 
deter other promotional media that present themselves as quasi-
governmental sources of information on the GI Bill.

    A number of these recommendations have been incorporated into the 
Executive Order. Comment and perspective on the recommendations above 
that relate to the EO follow.

       1. Online ``Dashboard.'' Section 2(a) and Section 3(c) of EO 
13607. The Department of Education recently developed the ``College 
Navigator'' website to provide relevant information to prospective 
students, parents and others to support decision-making on college 
selection. The EO essentially directs a further refinement of the 
online tool so that military students and veterans can more easily 
compare school costs, accreditation, graduation, drop-out rates, and 
other features. College Navigator is a very useful first step in that 
direction. MOAA stated at the March 22 joint hearing that an upgraded 
online tool or ``dashboard'' would be akin to an ``online shopping tool 
like the Amazon website'' to facilitate making informed choices about 
college. (Section 2
       2. Complaint Resolution Process. Section 4 of the EO, 
Strengthening Enforcement and Compliance Measures. Student veterans and 
returning warriors from the Iraq and Afghanistan conflicts strongly 
support the need for a closed-loop complaint resolution process. Most 
of the interactions between the VA and schools concern enrollment 
certification, payment and recoupment actions - administrative 
activities, for the most part. Student veterans, however, need a 
reliable channel of communication to report alleged improprieties in 
program quality, fraud, misrepresentation and related concerns to 
protect them, the government's interest and the nation's investment in 
their futures.
       Section 4(b). The State Approving Agencies (SAAs) may be the 
right vehicle for this purpose. But the recent change in the SAAs' 
mission and reporting chain--placing them under the VA Education 
Service and essentially making them an investigative body--were done 
with no additional training resources or guidance, as far as we know, 
on how they were to accomplish the new mission. We note that there were 
no hearings held prior to changing the SAAs mission. In informal 
discussions with SAAs it appears that some are still operating as 
advisors to schools and veterans while others are trying to function as 
``IGs''. MOAA believes there is a need for Congressional hearings to 
examine how best to use the SAAs going forward.
       3. Educational and Financial Advice. Sections 2(g), (h). The EO 
requires schools that receive Federal military and veterans educational 
benefits to provide an ``educational plan'' on how these students will 
fulfill graduation requirements. The EO also expects schools to 
designate a point of contact for academic and financial advising, 
including access to disability counseling for service members, military 
family members and student veterans.
       MOAA believes that veteran support services, other than academic 
counseling, should be provided by the VA. Schools themselves that have 
a threshold number of student veterans and military students should be 
provided additional resources as may be needed for purely academic 
advice and planning assistance.
       Our understanding is that most if not all campus-based 
educational programs already provide academic program assistance via 
faculty advisors and registrars for all students. And, a growing number 
of colleges and universities have established their own veteran centers 
on campus; e.g., Mississippi State University and Florida State 
University. Coupled with Student Veterans of America chapters on 
campuses, MOAA believes tailored support services for student veterans 
and military family members can help foster successful outcomes under 
GI Bill and military tuition assistance programs.
       In MOAA's testimony on 22 March, the Association recommended 
expansion of the VA's VetSuccess program on campuses over and above the 
target of 80 campuses (from about 20 currently), as requested in the 
Administration's budget request for fiscal year 2013. We believe the 
VetSuccess program can provide value-added support primarily for non-
educational VA-sponsored services for our student veterans: enrollment 
in VA health care, behavioral counseling, referral to Vets Centers and 
application for service-connected disabilities.
       The EO directs an Interagency approach to educational planning 
for military students and veterans. In that regard,MOAA continues to 
recommend mandating the educational counseling provisions in Chapter 
36, 38 U.S. Code for delivery by appropriate means, including modern 
technologies. Veterans should be permitted to opt out. The current $6 
million statutory cap for such counseling is inadequate to the rising 
demand. Schools may need additional resources to carry out the EO 
directive, but it is unlikely that any new funds would be provided in 
this environment.
       4. Trademark ``GI Bill.'' Section 4(f) of the EO directs the 
Interagency to take all appropriate steps to ensure that websites and 
programs are not deceptively and fraudulently marketing educational 
services and benefits to program beneficiaries by trade marking the 
term ``GI Bill'' and other terms military or veterans-related terms. 
Trade marking ``GI Bill'' would set in motion a process for purveyors 
of information about the new GI Bill and other military tuition 
assistance programs would be required to obtain a license or other 
release to use with the program. MOAA strongly endorses this action.

    Conclusion. The underlying intent of Executive Order 13607 is to 
ensure that all schools meet the same standards of transparency 
regarding information about programs, costs, accreditation and other 
factors. All schools - public, private and proprietary - should play by 
the same set of rules. It is in our nation's best interest to provide 
the military community, veterans, educational and political leaders, 
and the general public reasonable assurance that the generous 
investment in the futures of those who have given so much will yield 
great dividends for them and the country.
    MOAA strongly supports the issuance of Executive Order 13607 and 
urges additional action to strengthen the support of military and 
student veterans in their pursuit of their educational goals.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
